<html>
<title> - IRAQ TRANSITION: CIVIL WAR OR CIVIL SOCIETY? [Part II]</title>
<body><pre>[Senate Hearing 108-578]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-578

              IRAQ TRANSITION: CIVIL WAR OR CIVIL SOCIETY?
                               [PART II]

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 21, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
95-627                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     5
    Prepared statement...........................................    10
Hashim, Dr. Ahmed S., professor of Strategic Studies, U.S. Naval 
  War College, Newport, RI.......................................    36
    Prepared statement...........................................    39
Joulwan, General George A., U.S. Army, (Ret.), former NATO 
  SACEAUR, Washington, DC........................................    21
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
O'Hanlon, Dr. Michael E., senior fellow, Foreign Policy Studies, 
  The Brookings Institution, Washington, DC......................    31
    Prepared statement...........................................    35
Pollack, Dr. Kenneth M., director of research, Saban Center for 
  Middle East Policy, The Brookings Institution, Washington, DC..    11
    Prepared statement...........................................    15
Sheehan, Hon. Michael A., deputy commissioner for Counter-
  Terrorism, New York City Police Department, New York, NY.......    24
    Prepared statement...........................................    27

                                 (iii)

  

 
         IRAQ TRANSITION: CIVIL WAR OR CIVIL SOCIETY? [Part II]

                              ----------                              


                       WEDNESDAY, APRIL 21, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-416, Dirksen Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Voinovich, Biden, Dodd, Feingold, 
Bill Nelson, Rockefeller, and Corzine.


        opening statement of senator richard g. lugar, chairman


    The Chairman. This meeting of the Senate Foreign Relations 
Committee is called to order.
    Today, the Foreign Relations Committee will hold its second 
in our series of three hearings on Iraq. We will continue to 
explore whether American and Iraqi authorities are ready for 
the transition to Iraqi sovereignty on June 30, and what steps 
are required to fill out a comprehensive transition plan.
    Our experiences with inadequate planning and communication 
related to Iraq contribute to the determination of this 
committee to impose a very high standard on the information 
provided about Iraq. Within the substantial bounds of our 
oversight capacity, we will attempt to illuminate United States 
plans, actions, and options with regard to Iraq, both for the 
benefit of the American people and to inform our own 
policymaking role.
    We have asked that the administration present a detailed 
plan to prove to Americans, Iraqis, and our allies that we have 
a strategy and that we are committed to making it work.
    At yesterday's hearing, I posed a set of questions to form 
the basis of our hearings. Clear answers to all these questions 
would constitute a coherent transition plan for Iraq.
    The questions were, first, what are the details of 
Ambassador Lakhdar Brahimi's plan for an interim Iraqi 
Government to which a transfer of sovereignty is planned on 
June 30, 2004? Specifically, what executive and legislative 
positions will be established in the interim government, and 
how will these positions be filled? Are we confident that 
Iraqis will support the United Nations' formula for a new 
government? And what will the United States do as a backup if 
Iraqis reject the Brahimi plan?
    Let me say, parenthetically, for our committee record, that 
a memo from the Council of Foreign Relations, dated April 16, 
2004, contains suggestions about where Ambassador Brahimi 
probably is at this point. The memo explains Brahimi's search 
for a president, two vice presidents, a prime minister, and a 
ministerial council. The names of the persons to be nominated 
for these positions are still left blank, but there have been 
suggestions that prominent members of the Governing Council may 
be considered for the top roles, or for other roles in the new 
government.
    My second question at yesterday's hearing was: What status-
of-forces agreement will make clear that the United States and 
Coalition armed forces will continue to provide internal and 
external security for the new Iraqi Government? Will that 
agreement make clear the chain of command and the relationship 
of Iraqi police reserves and army personnel with U.S. and 
Coalition forces?
    Yesterday, our witnesses, by and large, felt that it would 
appear to be common sense that the United States and the 
Coalition must continue to provide security during the training 
of Iraqi personnel. Less clear, however, was the problem of how 
specifically a status-of-forces agreement might come about, and 
with whom. Probably it would be negotiated with the new 
government, including the president, the vice presidents, and 
the prime minister. What if, once again, the persons involved 
in that government have different ideas with regard to security 
or the missions of security? How these are to be resolved? That 
issue still lies ahead of us.
    My third question yesterday was, will the United Nations 
Security Council resolutions undergird the international 
legitimacy of the new Iraqi Government and all of the security 
arrangements that it will require? Continuing and expanded 
support of the new Iraqi Government by other nations may 
require additional Security Council resolutions.
    Our witnesses yesterday generally felt that the Security 
Council may, indeed, adopt resolutions after June 30 or July 1, 
and that it would be in the best interest of the United States 
and of other nations to seek this. We were attempting to 
resolve the international legitimacy issue as explicitly as 
possible so there are not bad surprises.
    My fourth question was, will elections for the transitional 
and permanent Iraqi Governments, scheduled for January 2005 and 
December 2005, respectively, be held under the auspices of the 
United Nations or some other authority? How will that authority 
provide security for the elections and assemble a registration 
list, or otherwise determine who is eligible to vote? How will 
we deal with elections that are postponed or deemed to be 
fraudulent? Will the national assembly that is to be elected in 
January 2005 have full authority to write a constitution and 
construct the framework of a permanent government?
    Now, yesterday we had a variety of answers to these 
questions from our witnesses, including from, ``We will just 
have to muddle through,'' which may be an honest answer, but 
hardly a confident one. One witness yesterday suggested that 
even if there were explosions and other security difficulties 
such as knocking out some polling location, or lack of security 
in some parts of the country. Nevertheless, you do the best you 
can. At least, you tally what is there. It is important to get 
on with elections, yesterday's experts generally felt. Iraqis 
are voting. That is what matters, rather than a fastidious 
regard to security or voter registration rolls. They suggested 
that Oil-for-Food rolls might be utilized in the absence of 
something more definitive.
    My fifth question yesterday regarding President Bush's 
designating Ambassador John Negroponte as his nominee to be 
U.S. Ambassador to the new Iraqi Government. Our committee 
looks forward to addressing this important nomination as 
expeditiously as possible. Let me put a fine point on that. We 
have offered to the administration a hearing, which I plan to 
conduct, with my distinguished colleague, Senator Biden, next 
Tuesday, with a business meeting to occur next week. At this 
point, we are uncertain whether the administration is prepared 
to get the papers and what have you here. I'm simply suggesting 
that this is urgent. I hope that they will submit the 
paperwork. That's why I explicitly suggest next Tuesday as a 
time to get on with this important nomination.
    Beyond that, we will ask the Ambassador next week, and we 
will ask State Department witnesses tomorrow, for the roster of 
who will be in the U.S. Embassy in Baghdad. When will they 
arrive? How will security be provided for them?
    Now, finally, the sixth point was, will the costs 
associated with the new diplomatic presence be covered by a 
transfer of funds under the umbrella of the $87 billion 
appropriated last year by the Congress? If not, what is the 
plan for providing the necessary funding?
    Yesterday there were two answers, essentially, to this. One 
was that there will be transfers of funds that are adequate, at 
least for the time being, for maybe several months down the 
trail. Another answer from one witness yesterday, was that 
about $70 billion will be called for in a supplemental 
appropriation at some point. That is a large sum of money. 
There is quite a difference between muddling through with a 
transfer of funds on the one hand, and a request for $70 
billion on the other. But this would be part of a plan, a 
coherent plan that we are hopeful, at some point, the 
administration will propose.
    Let me just add, parenthetically, that I have had a good 
telephone conversation with Under Secretary of Defense 
Wolfowitz. He regrets that he will not be able to testify 
before the committee due to important personal reasons--a 
family wedding, in fact, tomorrow. He will be testifying again 
today, I understand, before a House Committee, and he is 
prepared to testify before our committee at a later time. I 
appreciated the call. We will have Peter Rodman, from the 
Department of Defense, tomorrow. He is an important witness, 
and we appreciate the Defense Department providing that 
substitute for our hearing tomorrow.
    The Foreign Relations Committee will be persistent in 
asking these questions and others, because Americans should 
have the opportunity to understand the Bush administration's 
plan and to carefully monitor its progress.
    Our witnesses yesterday underscored the importance of 
expanding the international role in Iraq to improve the 
political legitimacy of the Coalition and the interim Iraqi 
Government. There was general consensus that some transfer of 
sovereignty will occur on June 30, but that United States 
forces will be required to provide security in Iraq for perhaps 
several more years.
    They also spoke to the importance of going forward with the 
elections, even if security and registration procedures are 
imperfect. Dr. Juan Cole noted that local elections have been 
successful in many parts of Iraq already, and often produced a 
more moderate result than expected. Dr. Toby Dodge underscored 
that elections would force Iraqi factions to enunciate policy 
choices, and would stimulate dialog between potential leaders 
and the Iraqi populace. In the absence of elections, factions 
would continue to bid for influence through violence, cronyism, 
or anti-American demonstrations.
    Until elections can be held, however, we must find a means 
through which the various Iraqi factions can share power 
peacefully in an interim government. For more than 30 years, 
Saddam Hussein prevented any rival leaders from emerging in 
Iraq. Religious leaders had little or no political or governing 
experience. They're divided amongst themselves. No secular 
leader has developed strong support among any major portion of 
the population.
    Dr. Dodge presented interesting polling data from Iraq, 
with questions based on recognition factors, such as ``Have you 
ever heard of - - - ?'' The percentages of Iraqis who have 
heard of any of the conspicuous Iraqi leaders, in most cases, 
were small single digits. In response to questions about 
confidence in any of these people, likewise, there were very, 
very small percentages of Iraqis who had heard of the people. 
This is an important political fact, which, as politicians, we 
recognize. If there are candidates who are virtually unknown, 
and even those who know them have reasonably little confidence 
in them, the prospects of their success, to say the least, are 
chancy. That is the situation that we're heading into, and 
maybe we all need to understand that.
    We'll continue to examine possible strategies aimed at 
ensuring that the new interim government is viewed as 
legitimate by Shiites, Kurds, and Sunnis. We must think 
creatively about how the Coalition and the international 
community can facilitate the emergence of national leaders in 
Iraq who are viewed as legitimate and prepared to govern.
    We have asked our experts to provide us with their 
recommendations for U.S. policy leading up to this transition 
and beyond. Today we are very fortunate to have the benefit of 
a panel with extraordinary expertise on these questions.
    We welcome General George Joulwan, former Supreme Allied 
Commander, Europe; Dr. Ken Pollack, director of Research of the 
Saban Center for Middle East Policy, and senior fellow at The 
Brookings Institution, and author of a book that was very 
informative for all of us about Iraq as we prepared for our 
last debates; Ambassador Michael Sheehan, currently the deputy 
commissioner for Counter Terrorism of the New York City Policy 
Department, and formerly the State Department Coordinator for 
the Office of Counterterrorism; Dr. Michael O'Hanlon, a senior 
fellow at The Brookings Institution; and Dr. Ahmed Hashim, 
professor of Strategic Studies at the U.S. Naval War College.
    We look forward to your insights and your recommendations. 
We thank each one of you for joining us. Before I recognize the 
witnesses, I would like to recognize my colleague, Senator 
Biden.


           opening statement of senator joseph r. biden, jr.,
                             ranking member


    Senator Biden. Thank you very much, Mr. Chairman, and thank 
you for holding this series of hearings.
    I am pleased to hear that Deputy Secretary Wolfowitz will, 
at some point, make himself available.
    I, quite frankly, think it's critical, before these three 
hearings are over, that we have the Secretary of Defense and 
the Secretary of State before this committee. This is a 
historic moment. And you and I have been here a long time. I 
recall, with regularity this committee had up the Secretary of 
State and the Secretary of Defense during the Vietnam War, 
during the Bosnian crisis, during the Kosovo crisis. And, 
ultimately, we have to speak to somebody who says, ``I don't 
have to ask anybody else what the plan is.'' And I'm confident 
that they will be forthcoming out of our mutual interest.
    At the outset, let me say that this issue of cost--this 
morning I happened to ride down on the train, as I do every 
day, sat at a table in the dining car, or the cafe car, with a 
very informed fellow, a very bright guy. He runs a company that 
does environmental remediation, a very strong and active 
Republican from Pennsylvania--and he asked the question, which 
made sense--he said, ``I read in the paper you saying that the 
administration should produce witnesses. Didn't they produce 
the witnesses for the Armed Services Committee, and isn't this 
issue of cost a bit of a red herring?''
    Well, when I gave him an answer, I think he understood two 
points. No. 1, this new embassy falls totally under the purview 
of this committee. Totally, completely, absolutely, 
unequivocally, without any question under the purview of this 
committee, No. 1. No. 2, there are two principal dynamics at 
play in Iraq. One is the security side, which the Armed 
Services Committee has significant interest in, but the other 
is the political side, which falls totally within the purview 
of this committee. The ultimate solution to victory or failure 
in Iraq will be a political solution. The question of whether 
or not other nations are engaged or not engaged, whether the 
U.N. engaged or not engaged, is totally within the purview of 
this committee, lest I have to remind the administration.
    And with regard to cost, I hope we will not hear any longer 
what we heard all of last year, as some of the witnesses will 
recall, because several have testified before. Whenever we 
asked a question of the Secretary of Defense or the Under 
Secretary, we heard, for the first time--the first time I've 
heard, in my 31 years--to almost every question, ``Those facts 
are unknowable.'' That was a neat phrase, ``unknowable.'' Well, 
there's a lot of things that are, quote, ``knowable.'' It's 
going to cost billions of dollars. There's not one single 
penny--not one single penny in the fiscal year 2005 budget--for 
Iraq or Afghanistan. And I will say it as politely as I can. If 
it is still unknowable to the administration what the 
proportions are, the broad numbers, then they are totally 
incompetent. Let me say it again. If the answer is, ``That's 
unknowable,'' as to the scope of the kind of money we're going 
to have to spend, then they are incompetent. But I'm confident 
they are competent. And I'm confident they're not telling us 
what they know.
    Curt Weldon, a conservative Republican, senior Congressman 
from Delaware County, Pennsylvania, is publicly chastising the 
administration for not telling his people how much this is 
going to cost--in broad numbers, anyway. And the reason for 
that is, he's going home, like the rest of us, and our 
constituencies think we're incompetent if we can't tell them. 
It's somewhere between zero and a hundred billion, I mean, give 
us a range here.
    In my judgment, success in Iraq is still absolutely 
possible, and clearly necessary for our national self interest. 
But, in my judgment, there are two things that are required for 
success, in broad terms. First, we need to promote the 
emergence of that silent majority of Iraqis. This is a truly 
distinguished panel. I'm not being solicitous. I have heard Dr. 
Pollack, I've heard General Joulwan, I have heard Dr. O'Hanlon, 
I've heard them speak on these subjects. And everyone 
acknowledges--left, right, and center including Dr. Hashim has 
also said this, if I'm not mistaken--there's no possibility of 
success unless the Iraqi people embrace the notion of a 
representative government.
    Somewhere along the line, they've got to buy in on the 
deal, they've got to embrace it. And the question is--only that 
silent majority of Iraqis can provide an alternative to the 
extremes, and the only outfit that can create the kind of 
negotiating that needs to take place to generate a 
participatory democracy in that country. That can't be imposed. 
We all keep saying that. It can't be imposed. But we're having 
trouble going down and finding this middle.
    Second, we need to get help from the outside, in terms of 
troops, money, manpower, and, maybe most importantly, 
legitimacy to see this mission to completion. Establishing 
security, in my view, is critical to both these goals. And I 
realize this is not unique to me. I'm not implying that all of 
a sudden I've found this out. I know you all know this, and 
we've been saying this for over a year. But establishing 
security is important to both these goals. Without securities, 
that silent majority of Iraqis, assuming that it's correct 
there is a silent majority, will not step forward and 
participate in the political process. Without security, 
militias will move in to fill the vacuum. And we have seen that 
in the recent upsurge in violence. Without security, 
development projects and economic reconstruction cannot go 
forward apace of what is needed. The huge $18.6 billion aid 
package we approved last fall cannot be spent. And, by the way, 
of that $18.6 billion, less than three billion has been 
obligated. Six months after it was approved. Now, that may be 
procurement problems. If it is, the administration should send 
us a note and say, we'd like a change in the law. We'd like a 
change to be able to expedite this. But tell us. I suspect it's 
also a consequence of lack of security, being able to expedite 
these projects.
    And we now learn that somewhere, well in excess of the 5 
percent, closer to 20 percent of that $18.6 billion will not be 
spent for reconstruction, but to pay for private security 
guards to protect those who are doing the reconstruction. I 
don't begrudge that. Can't blame these folks for not willing to 
go out there. But how can we say we don't need any more 
troops--I'm going to ask you this, general--when we, the 
taxpayers, are paying the Halliburtons--and I'm not trying to 
single out one firm--or whomever is doing the contracting 
work--enough money to pay a Navy SEAL $1,500 a day. There's 
over 20,000 private security folks there. I'm not suggesting 
they're not needed; I think they are. And we're going to pay 
them, according to the reports--and I assume we'll have a 
hearing somewhere along the line on this. That must go a long 
way for morale, when you send an active-duty SEAL in, he's 
probably not making much more than that a month. And you've got 
someone making $1,500 a day working for a company, that's being 
paid for by us. I don't get this. It doesn't quite jive for me. 
The second-largest force we have in all of Iraq is a private 
army, or a series of private armies, paid for by the American 
taxpayers.
    Even under the best of circumstances, even if we succeed in 
bring a semblance of law and order, we're still going to be 
facing an enormous challenge. What I hear from Iraqis, what I 
hear from people on the ground, what I hear--and I haven't been 
there--last time the Chairman and I were there was at the end 
of last summer--is that they understand we need troops there 
for force protection, but they thought we were sending troops 
there to make sure their kid didn't get raped, their daughter 
didn't get stolen. I can remember--and maybe it's changed now; 
we'll find out from witnesses--but in September, October, 
November, we had a great thing, we opened the schools. Yet here 
were stories about cars parked all the way around the schools 
with their motors running all day, with mom or dad sitting 
inside, because they were afraid for their daughter to do 
anything further than walk from the front door of the school to 
the car, for fear of being kidnaped or raped.
    So what's the deal? Is it only force protection? And that's 
the first and foremost thing I want to make sure, our forces 
are protected and they can protect one another.
    Iraq is recovering from 35 years of trauma, 35 years of a 
brutal dictatorship. And one of the things they learned during 
that period is to keep their heads down. Iraqis learned to stay 
out of public life for the sake of self preservation. And old 
habits, understandably, die hard. And while some Iraqis have 
stepped up to the challenge, the moderate majority has stayed 
silent, watching events unfold, acting on instincts that were 
finely honed over three decades.
    According to the polls, at a maximum, no more than 20 
percent of the Iraqi people want to see an Islamic state, like 
an Iranian situation. But the overwhelming majority, more than 
70 percent, openly say they support the establishment of a 
democracy, and we have to empower this largest group to get 
them engaged in building their own future. It's kind of hard to 
do that, I would argue, without security.
    But these are not the best of circumstances, to state the 
obvious. Security is still sorely lacking. And it would be 
probably lacking in many ways even if everything that I and 
others had suggested 6 months ago and 10 months ago had been 
done. But it would be a little bit better, I would argue.
    You know, this is one place where a significant dose of 
humility is in order. It's one thing for me to say what was 
done wrong; it's another thing for me to be able to say, ``If 
we had done what I thought we should do, that things would be 
markedly better.'' I don't know that they would. But I'm pretty 
sure I know what's being done now is not working, in my view.
    Indeed, the Iraqis consistently identify the absence of 
security as the single most urgent issue facing them day to 
day. Far from being unknowable, as the Secretary of Defense 
likes to say, this absence of security was predicted by dozens 
of congressional hearings, think tanks, some of you sitting 
before us, and work of some of the administration officials 
themselves. The administration failed to heed those warnings. 
That made it more difficult, in my view, to build security in 
Iraq from the outset.
    First, the administration failed to come up with enough 
forces because of the Pentagon's desire to validate a new 
theory of warfare. General Shinseki was ridiculed for 
suggesting, before a Senate committee, that it would take 
several hundred-thousand troops to secure Iraq. He's looking 
fairly prescient now. And so is whoever wrote the NSC memo. The 
NSC's own memo, contemporaneous, said, ``Extrapolating from 
past missions, they estimated we would require a force of 
500,000 people to stabilize Iraq.'' I'm not a military man. I 
don't know which of those is right. But I know there's not 
enough.
    The failure to provide those forces made it difficult to 
establish full control of Iraq, to stop the looting, and to 
guard more than the 100 large depots, which our military guys 
told us, general, there were 600,000 tons of arms and 
ammunition in open depots, and we had helicopters, we'd see on 
TV, flying over at night with night-vision goggles, determining 
who's going in and out, instead of having the wherewithal to 
destroy those and/or fully guard them.
    I remember shortly, after we got back from Iraq, being told 
a story--I don't know whether it's true or not, but I believe 
it to be true--of a young captain. Remember, we were paying 
$500 to retrieve shoulder-held rocket launchers. And a young 
Iraqi comes up with two of them, to a young captain. The 
captain gets him a thousand bucks and says, ``Can you get any 
more?'' About 2 hours later, the Iraqi comes back with a pickup 
truck full of them, and says, ``I couldn't fit any more in 
here.''
    Now, I don't know whether that's apocryphal or not, but I 
think it's probably true, and I'm trying to run down this 
source so I can use the name, which I haven't gotten permission 
to do yet.
    Six-hundred-thousand tons of arms and ammunition, some of 
which wound up in rejectionist hands. It also put us in a 
position that we were unable to give the Iraqi people a sense 
of security, and it produced the power vacuum I mentioned 
earlier.
    Second, the administration failed to understand that it 
would take years, not months, to train Iraqis to provide their 
own security. The former boss of the outfit that you're now a 
part of, Mr. Sheehan, he was over there. His people told us, 
when we were there, it would take a minimum--a minimum--of 5 
years to train up 75,000 Iraqi police to do the job that police 
do, to protect that kid coming out of school, to make sure that 
home wasn't looted, to make sure that the traffic lights work, 
to make sure that there was order. Five years, they told us.
    We said, ``What would happen if we gave you all the money 
you need right now?'' They said, ``We could do a lot in the 
next 2 years for Baghdad, but it'll take 5 years for the 
country.'' We're also told that it would take 3 years to train 
a small Iraqi army of 40,000 that was a real army. They told us 
that we needed 5,500 gendarmes before we went in.
    I remember you testifying before our committee before the 
war, General Joulwan. You said, ``The military planning's going 
incredibly well but there's not''--I remember you going like 
this with your hands--``but there's not simultaneous planning--
in terms of civil order and civilian corps to follow and 
police.'' It's not like this is only 20-20 hindsight.
    Again, on the ground, after Saddam fell, the boss of the 
New York City Police Department, Bernie Kerik and his people 
were telling us, ``You need 5,500 outside police in Iraq, 
working with the Iraqi police, training them and patrolling 
with them, for this to have any chance of working.''
    But the administration insisted on putting 20,000 Iraqis in 
uniform right away, telling the American people ``don't worry, 
we've got someone to hand off to,'' and sent them out the door. 
Now, fewer than 10 percent of those police and army have been 
fully trained, and virtually none are adequately equipped. Over 
half of the first army battalion that we, quote, ``trained'' 
has quit, while another battalion refused to fight in Fallujah. 
And some of the Iraqis that we trained even took up arms 
against us.
    Last week, General Abizaid called Iraq's security forces, 
quote, ``a great disappointment,'' end of quote. And Ambassador 
Bremer made it clear that Iraqis will not be ready to take over 
security on June 30, or anywhere near that date.
    Mr. Chairman, it's clear the Iraqis will not have the 
capacity to establish security for months, and probably several 
years, at least without reverting to a dictatorship, and that's 
something none of us want.
    While Iraq's security forces are being trained, I believe 
we need substantially more outside forces--more American 
forces, and more international forces. But, again, I yield to 
the experts on whether that's literally true. All I know is 
there's not enough security now. Otherwise, the militias will 
continue to proliferate, intimidating Iraqi moderates, 
hampering reconstruction, threatening our overall objectives of 
establishing a stable representative government.
    I know we're using those militias now, and we have to use 
them, and we're cooperating with them. But how do you 
transition from that to tell these very folks, who are 
essentially other versions of warlords, that, by the way, now 
we've got a democracy, disband your militias, all of you go 
home. Don't use them for bartering for your position in this 
new constitution, this new government.
    It reminds me of my conversation with--and I'll end with 
this, Mr. Chairman--with the National Security Advisor, a woman 
I have great regard for. I was meeting with her on a fairly 
regular basis last year, once a week or thereabouts, and it was 
about Iraq. And I said, Dr. Rice, we've got a real problem in 
Herat. Ismail Khan is really just totally in charge over there. 
Kabul has no impact on him. And she said, Well, we have 
security. I said, I beg your pardon? I'm paraphrasing. I beg 
your pardon? She said, Well, that's the way it's always been. 
That's the way it's always been. Taliban's not there. Al-
Qaeda's not there. I said, but Iran's there. She said, No, 
that's the way it's always been. So we didn't expand the 
international security force, because that's the way it's 
always been.
    If that's what we're going to be doing, then we should just 
say that's what we're going to be doing in Iraq. But we've got 
to understand, if you rely on these militias, because we need 
additional force--and I think we should do anything any general 
on the ground, or captain or colonel, thinks he needs to 
protect an American force on the ground--but that's not a 
prescription, it seems to me, for handing over anything 
remotely approaching a democracy.
    Mr. Chairman, I've stated the two things I think are wrong. 
I'd invite the panel to tell me--and I mean this sincerely--
where I'm mistaken; I hope I'm mistaken--about the security 
need. And I look forward to hearing our witnesses.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

                      IRAQ: THE SECURITY SITUATION

    Mr. Chairman, thank you for calling this hearing. I look forward to 
the testimony. In my judgment, success in Iraq requires two things:
    First, we need to promote the emergence of that silent majority of 
Iraqis who can provide an alternative to the extremes . . . and who can 
create a participatory republic that will endure when we leave.
    Second, we need to get the help from outside Iraq--in terms of 
troops, money, manpower and, maybe most important, legitimacy--to see 
this mission to completion.
    Establishing security is critical to both of these goals.
    Without security, Iraqis will not step forward to participate in 
the political process. Without security, militias will move in to fill 
the vacuum, as we have seen with the recent upsurge in violence.
    Without security, development projects and economic reconstruction 
cannot go forward--the huge $18.6 billion aid package we approved last 
Fall cannot be spent. And by the way, of that $18.6 billion, less than 
$3 billion has even been obligated--six months after we approved it. 
That may be a procurement problem. If so, the administration should 
tell us and we'll fix it. But a lot of this is security. And some 20 
percent apparently will be used not for reconstruction, but to pay for 
private security guards to protect those doing the reconstruction. I 
don't begrudge that--they shouldn't go out there without security. But 
we're paying them up to $1,500 a day. Yet our active duty forces are 
probably making that a month. And our Reserves are making 30%-50% less 
than they did in the private sector back home, but they've still got 
the same mortgage, car and tuition payments.
    Finally, without security, other nations will be reluctant to send 
troops and aid to help shoulder the enormous burden.
    Even under the best of circumstances--even if we had succeeded in 
bringing a semblance of law and order to Iraq--we would still be facing 
an enormous challenge.
    Iraq is recovering from the trauma of 35 years of brutal 
dictatorship. Iraqis learned to keep their heads down and stay out of 
public life for the sake of self-preservation.
    Old habits die hard. And while some Iraqis have stepped up to the 
challenge, the moderate majority has stayed silent watching events 
unfold, acting on instincts finely-honed over three decades. According 
to the polls, about 20 percent of Iraqis support an Islamic state. 
Nearly 30 percent want a strong leader. But 50 percent support a 
democracy. We have to empower that largest group and get them engaged 
in building Iraq's future.
    But these of not the best of circumstances. Security is still 
sorely lacking in Iraq. Indeed, Iraqis consistently identify its 
absence as the most urgent issue facing the country.
    Far from being ``unknowable,'' as the Secretary of Defense likes to 
say, this absence of security was predicted in dozens of congressional 
hearings, think tank studies and the work of some in the administration 
itself. The administration failed to heed these warnings. That made it 
more difficult to build security in Iraq.
    First, the administration failed to go in with enough forces 
because of Pentagon's desire to validate a new theory of warfare. 
General Shinseki was ridiculed for suggesting it would take several 
hundred thousand troops to secure Iraq. He's looking prescient today. 
So is whoever wrote an NSC memo that, extrapolating from past missions, 
estimated that we would require a force of 500,000 to stabilize Iraq.
    The failure to provide those forces made it difficult to establish 
full control of Iraq . . . to stop the looting . . . to guard more than 
100 large depots with six hundred thousands tons of arms and 
ammunition, some of which have wound up in Rejectionist hands . . . or 
to give the Iraqi people a sense of security. And it produced the power 
vacuum I mentioned earlier.
    Second, the administration failed to understand that it would take 
years, not months, to train Iraqis to provide for their own security.
    When Dick Lugar, Chuck Hagel and I went to Baghdad last summer, our 
experts on the ground were clear and candid.
    They told us that it would take 5 years to train an Iraqi police 
force of 75,000, and 3 years to train a new, small Iraqi army of 
40,000. They told us that 5,500 international gendarme were needed for 
an effective police training program.
    But the administration insisted on putting 200,000 Iraqis in 
uniform right away. We rushed people out the door.
    Now, fewer than 10 percent of the police and army have been fully 
trained. Virtually none are adequately equipped.
    Over half of the first army battalion we have trained has quit, 
while another battalion refused to fight in Fallujah. Some of the 
Iraqis that we ``trained'' even took up arms against us.
    Last week, General John Abizaid called Iraqi security forces a 
``great disappointment.'' And Ambassador Bremer made it clear that 
Iraqis will not be ready to take over security on June 30.
    Mr. Chairman, it is clear that Iraqis will not have the capacity to 
establish security for many months, and probably several years, at 
least without reverting to dictatorship--and that's something none of 
us want to see.
    While Iraqi security forces are being trained, I believe we will 
need substantially more outside forces. More American forces, and more 
international forces.
    Otherwise, the militias will continue to proliferate, intimidating 
Iraqi moderates, hampering reconstruction, and threatening our overall 
objectives to establish a stable, representative Iraq.
    That's my judgment of the situation. I look forward to hearing the 
judgment of our witnesses, and their ideas for building security in 
Iraq.

    The Chairman. Well, thank you very much, Senator Biden.
    We thank the panel for your patience in hearing us. 
Obviously, we are seized with these issues, as you are.
    I'll ask that you testify in this order. First of all, Dr. 
Pollack, then General Joulwan, and then Michael Sheehan, then 
Dr. O'Hanlon, and Dr. Hashim.
    Let me just indicate that all the prepared statements that 
you have submitted will be made a part of the record, and you 
may summarize or proceed in any way you wish, hopefully in 
about 10 minutes of time, but we'll not be rigorous about 
enforcing a set time period. The point of the hearing is to 
hear you and to receive the points of view that you bring to 
us.
    Dr. Pollack, would you proceed.

  STATEMENT OF DR. KENNETH M. POLLACK, DIRECTOR OF RESEARCH, 
 SABAN CENTER FOR MIDDLE EAST POLICY, THE BROOKINGS INSTITUTION

    Dr. Pollack. Thank you very much, Mr. Chairman, Senator 
Biden, members of the committee. Thank you for giving me the 
opportunity to appear before you to discuss the issue of 
security in Iraq.
    This month has been more than just a bad month. The events 
of this month are a warning. They're a warning that all is not 
well in Iraq, and that if the United States does not make some 
major course corrections quickly, worse will likely follow. For 
this reason, I hope that the events of this month will serve as 
a wake-up call to those in Washington and Baghdad charged with 
the reconstruction of Iraq.
    We're not doomed to failure in Iraq. There is still much 
good in that country, and many positive forces which could be 
harnessed to build a peaceful, prosperous, and pluralist Iraq. 
These positive factors should be a constant reminder that if we 
fail in Iraq, the fault will lie in ourselves, not in our 
stars.
    Mr. Chairman, I am delighted that you've chosen to focus 
this hearing on security, because security is the single most 
important aspect of our reconstruction effort and the single 
greatest failure of our efforts so far.
    It's important to acknowledge some of the most important 
mistakes that the United States has made in creating the 
situation of instability and insecurity in Iraq so that we can 
avoid repeating them and, in the future, try to fix them.
    We invaded Iraq with too few troops to be able to establish 
a secure operating environment for ourselves, for aid workers, 
and for the Iraqi people. As a result, we did not have enough 
troops to blanket the country, to establish a presence in every 
village and neighborhood, to go into holdout areas, like al-
Sadr City in Baghdad and the towns of the Sunni triangle, to 
passive nascent insurgent groups and to send an unmistakable 
message to every Iraqi, good guy or bad guy, that the United 
States will not allow a vacuum or a state of lawlessness to 
emerge in their country.
    We compounded this mistake, in sizing our force, with the 
mission we gave our troops. We continue to make force 
protection and hunting for insurgents who attack our forces 
higher priorities than providing security for the Iraqi people. 
U.S. forces generally remain penned up in their formidable 
cantonments. They are cutoff from the populace, and have little 
interaction with them. In the field, they come out to attend to 
logistical needs and to conduct raids against suspected 
insurgents. In the cities, they generally come out only to make 
infrequent patrols, which are usually conducted mounted in 
Bradley fighting vehicles or Humvees at speeds of 30 to 50 
kilometers per hour. These, the Iraqis consider useless, since 
it is impossible for those troops to see anything, and they are 
not present long enough to serve as a deterrent.
    Rather than bringing the necessary American troops, or 
building a multinational coalition, capable of filling the gap, 
we, instead, turned to the Iraqis themselves. To quickly stand 
up the needed Iraqi forces, we short-circuited proper vetting 
procedures, drastically reduced training times, and neglected 
to properly equip the Iraqi security forces before turning them 
loose on the country. The results have, so far, been extremely 
disappointing.
    Many of those inducted have proven to be part of the 
problem, rather than part of the solution, and there are now 
considerable criminal elements in the police and other security 
services, who engage in bribery, extortion, kidnaping, rape, 
arson, burglary, and murder. When faced with the determined 
fighters of Muqtada al-Sadr's Mahdi army earlier this month, 
most of the Iraqi security personnel simply melted way; others 
joined the insurgents. Too few stood and fought with the 
Coalition personnel.
    This is not to say that there are not many good, brave, 
honest, and well-meaning Iraqis in the Iraqi security forces. 
It is only to say that there are too few of them right now to 
shoulder so great a burden.
    Now, Mr. Chairman, let me follow your injunction to focus 
on constructive measures that the United States can take to 
remedy this situation.
    First, we must make security the highest priority for the 
next 6 months. I believe that certain extreme measures are 
justified in the short term to get the security situation under 
control, recognizing that we can probably only sustain these 
measures for a brief period of time. But given how far the 
current situation has deteriorated, it is going to take some 
dramatic steps to right the listing ship of Iraqi 
reconstruction. Hopefully, these steps will do the trick, and 
it will not be necessary to try to sustain them for longer 
periods of time.
    Two, we must change the military's mission. We must direct 
U.S. military forces in Iraq to make securing the streets and 
neighborhoods of the country their highest priority. If we do 
not begin to take responsibility for providing security for the 
Iraqi people, we will never create an environment secure enough 
for the Iraqi economy to revive, for Iraqis to actively 
participate in a new political process, for international 
organizations and foreign aid workers to return, or for us to 
deal with the problems of the Iraqi security forces currently 
saddled with this mission.
    I agree with the many British and American military 
officers in Iraq who privately argue that the United States 
should be employing the kind of foot patrols, backed by 
helicopters and/or ground vehicles, that the British Army 
learned to use in Northern Ireland, and that all NATO forces 
eventually employed in the Balkans. This is the only way that 
American forces can get out, reassure the Iraqi civilians, find 
out from them where the troublemakers are, and respond to their 
problems.
    Three, we must reinforce the American military presence in 
Iraq to establish the conditions for real security. We are 
going to need more American troops in Iraq. Few of the current 
members of the Coalition can be counted on to provide troops 
capable of dealing with the full range of security problems we 
currently face in Iraq. Indeed, over the past few weeks, we 
have seen American forces called on to rescue those of other 
Coalition nations when faced with circumstances beyond their 
ability to control. At present, we do not have enough high-
quality Coalition forces to handle the mission of providing 
basic security for the Iraqi people throughout the country.
    Obviously, American forces are limited in number, and they 
are stretched thin. But they are not yet at the breaking point. 
By redeploying some units that just returned from Iraq, and 
freeing up others currently being held back for other 
contingencies, we could probably come up with another 40,000 to 
60,000 American troops that could be redeployed to Iraq for a 
brief period of time. But we must recognize that although we 
can still ramp up our presence in Iraq by considerable numbers, 
we can only do so for a short period of time, after which we 
are going to have to find other forces to take over much of the 
security burden.
    Four, we must seek additional foreign forces. Because the 
U.S. troop presence in Iraq can only be increased for the short 
term, and Iraqi forces are unlikely to be able to take over 
significant aspects of the security mission anytime soon, we 
must find another source of competent troops.
    These troops can only come from our allies in Europe and 
Asia and possibly elsewhere. At the moment, the Europeans are 
claiming they have no more to spare. I think this is an 
exaggeration. A continent of over 300 million people, with some 
of the most professional armies in the world, a continent that 
can scrape together 50,000 security personnel to guard the 
Athens Olympics, can pull together several tens of thousands of 
troops for a mission as important as the rebuilding of Iraq, if 
given 6 months or more to do so. And if Europe does, our other 
allies will likely follow their lead.
    I believe that Europe simply has no desire to find these 
troops. The Europeans lack the desire, because they have made 
clear that they will only provide large numbers of troops if 
the United States agrees to make the U.N. a full partner in 
reconstruction, along the lines of the experiences in Kosovo 
and East Timor.
    I suspect that if the United States were finally to agree 
to Europe's terms, terms that are reasonable and under which 
U.S. forces have operated successfully before, I think it would 
be hard for our European allies to refuse a U.N. request for 
more troops. At the very least, I think we ought to put them to 
the test.
    In addition, many European leaders have no desire to put 
their troops into the shooting gallery that Iraq has become 
over the past 12 months. This is ultimate why an increase in 
U.S. troops and a change in American military tactics must 
accompany our request for more foreign troops. Only when we 
have diminished the current levels of violence in Iraq are we 
likely to receive the contributions that we need, contributions 
that should then allow us to scale back our own presence when 
we begin to feel the strain from reinforcing our units in Iraq.
    Five, we must remake the Iraqi security forces. The rapid 
reinforcement of American troops, later supplemented, and then, 
to some extent, supplanted by foreign troops, should be used to 
buy time to create a secure environment in which to properly 
reform the new Iraqi security forces. As American and other 
Coalition units become available, Iraqi units should be pulled 
off the streets and thoroughly re-vetted. Those who were 
conscientious, those who showed up for work, those who tried to 
help their fellow citizens, and those who stood and fought when 
there was trouble should be retained. The rest should be moved 
into job retraining programs and, ideally, found new employment 
before being mustered out so that they do not simply swell the 
ranks of the insurgents for lack of other employment.
    These units should then be given thorough and comprehensive 
training, without regard for the exigencies of the moment. 
Before being redeployed, they should be adequately equipped so 
that when they do finally return to service, they will have 
every chance of succeeding in this crucial mission.
    Thank you.
    [The prepared statement of Dr. Pollack follows:]

              Prepared Statement of Dr. Kenneth M. Pollack

                             SECURING IRAQ

    Mr. Chairman and members of the committee, thank you for giving me 
the opportunity to appear before you to discuss the issue of 
establishing security in Iraq.
    This month has been more than just a bad month. The events of this 
month are a warning. They are a warning that all is not well in Iraq 
and that if the United States does not make some major course 
corrections very quickly, worse will likely follow. For this reason, I 
hope that the events of this month will serve as a wake-up call to 
those in Washington and Baghdad charged with rebuilding Iraq.
    We are not doomed to failure there. There is still much good in 
that country, and many positive forces which, if harnessed could be 
used to someday build a peaceful, prosperous, and pluralist Iraq. I 
would not yet use the term ``quagmire'' to describe our situation 
there.
    Indeed, some of the events of the past weeks underscore just how 
powerful some of the forces working in our favor remain. While the 
fighting raged in Fallujah, Kut, Kufa and several other cities, the 
rest of Iraq remained relatively quiet--or at least no more dangerous 
than usual. Most of Iraq's leaders, including most of Iraq's Shi'ite 
religious establishment counseled their followers not to cast their lot 
with Muqtada al-Sadr and his Mahdi Army, and many expressed disdain and 
anger at his bid to tear down the U.S.-led reconstruction of Iraq. The 
people of Iraq, mostly did not heed his call to arms. Most continued to 
express the sentiment that his path was the road to civil war, and that 
was a road they did not wish to travel.
    These positive factors should be a constant reminder that if we 
fail in Iraq, the fault will lie in ourselves, not in our stars.
    Mr. Chairman, I am delighted that you have chosen to focus this 
hearing on security in Iraq because security is the single most 
important aspect of our reconstruction effort, and the single greatest 
failure of our efforts so far. It is no exaggeration to say that our 
failure to provide security is threatening the entire reconstruction 
effort. We must get security right and we must do so very quickly or 
the events of last week will soon become a far more common, more 
widespread, and more deadly occurrence.

          INSECURITY UNDERMINES ALL ASPECTS OF RECONSTRUCTION

    Security is critical to reconstruction because insecurity 
undermines every other aspect of the process. This impact is most 
readily apparent in the economic sector. Goods and people cannot travel 
safely on the roads for fear of bandits and booby-traps. Looting and 
sabotage cause regular--but not predictable--losses of power and other 
utilities. Factories, warehouses, stores, and other businesses are 
often prey to break-ins, robberies, or extortion rings. At times, 
workers do not show up for work because they are fearful of being out 
on the streets or away from their home. In this climate, investors 
generally will not invest and business owners are often reluctant to do 
business. Imagine being a factory owner and not knowing who will show 
up for work in the morning, whether the inputs you need to produce your 
product will have been delivered, whether you will have electricity to 
start your line, and whether your plant will get robbed that day. These 
are the kinds of real-world problems that many Iraqis must deal with on 
a daily basis because we have failed to provide them with a secure 
country.
    Public opinion polls have consistently shown that the vast majority 
of Iraqis want the reconstruction to succeed. They want a new 
government based on pluralistic political principles, a new economy 
based on free-market economics, and they want a new society based on 
trust and mutual respect. But the persistent instability prevents them 
from being active partners in the effort to build a new Iraq. Iraqis 
feel extremely vulnerable to retaliation for collaboration. It is true 
for members of police and fire services whose uniform makes them prime 
targets for the insurgents. It was true for public figures such as 
Akila al-Hashemi, a female member of the governing council; `Abd al-
Majid al-Khoi, a moderate Shi'ite cleric; and Muhammad Baqr al-Hakim, 
the leader of one of the main Shi'ite groups, all of them killed by 
rejectionists of one kind or another for cooperating with the United 
States. And it is also true for average Iraqis who fear that in the 
lingering state of lawlessness, they too will be killed if they try to 
help rebuild their country.
    The United States cannot rebuild Iraq alone. Not even with the help 
of a much bigger Coalition could we do the job without the active 
participation of the Iraqi people. But that participation will not be 
forthcoming if we do not make it safe for them to do so.
    And they do not feel that it is safe enough for them to do so. A 
poll conducted in October by the Iraq Center for Research and Strategic 
Studies found that 60 percent of Iraqis felt ``not very safe'' or ``not 
safe at all'' in their neighborhoods, and virtually the same percentage 
had either ``not very'' [sic] or ``no'' confidence that coalition 
forces would make their cities safe. Only a little more than a quarter 
of those surveyed felt ``very safe.'' Similarly, a February 2004 
nationwide poll conducted by Oxford Research International for ABC News 
and several other international news organizations found that, ``. . . 
security at the national level is a vast concern; the public's top 
overall priority, by a huge margin, is `regaining public security in 
the country.' Sixty-four percent give it `first priority' for the next 
12 months; out of a dozen issues tested, no other even breaks into 
double digits.'' Similarly, at a local level, the poll found that more 
Iraqis cited security as the single greatest problem in their lives, 
and this figure was nearly twice that of the next highest problem--
unemployment.
    The security situation also hinders reconstruction by crippling the 
operation of those foreigners who went to Iraq to try to help the 
Iraqis rebuild their country. Too many Americans and other members of 
the Coalition hide in fortified enclaves like the Green Zone in Baghdad 
for fear that they will be killed if they go out into Iraq proper. As a 
result, many have little feel for the country and the people they are 
supposed to be helping. For the Iraqis, it means too little contact 
with Coalition personnel, leaving them angry, frustrated, fearful, and 
resentful at the seemingly aloof Americans who sit in the same palaces 
as the former regime, seem to pay just as little attention to the fears 
and aspirations of the Iraqi people, and seem to issue edicts governing 
life in Iraq in the same manner as Saddam.
    Insecurity has also meant that the non-governmental organizations 
that have proven so important to other postwar reconstruction efforts 
in the Balkans, in East Timor, in Africa, and in Afghanistan, are 
generally unwilling to operate in Iraq. Their absence has been a very 
important blow to our efforts. When I was in Iraq in late November, I 
had U.S. Army Civil Affairs personnel say to me flat out, ``Where is 
the UN? Where are the NGOs? In the Balkans we just served as liaison 
between the U.S. military and them, but they are the ones who did the 
work of going out into the people and helping them rebuild their 
country.'' Until Iraq is safe, we will not have those NGOs at our side.
    In part for the reasons I have enumerated, and in part for a 
variety of other reasons also related--directly or indirectly--to our 
failure to provide security throughout Iraq, we are losing the battle 
for hearts and minds. More and more Iraqis are concluding that either 
the United States cannot or will not create a more secure Iraq and so 
they decide that they should take matters into their own hands. We have 
seen this shift in the events of the past few weeks. The CPA was caught 
off-guard by how many Iraqis supported al-Sadr's Mahdi Army. Many do 
not seem to have been his loyal followers, but instead are average 
Iraqis expressing their rage and frustration at our failings. Our 
failure to secure the country, and the broad range of secondary 
problems this creates, is increasingly taking Iraqis who at one time 
supported the reconstruction and turning them to the Muqtada al-Sadr's 
of Iraq--not necessarily because they want an Islamic theocracy as he 
does, but because right now, he is the voice of resistance to the 
American occupation.
    Thus our failure to provide Iraq with security is costing us the 
two most important positive factors we have had going for us from the 
start. It is eroding popular support for the U.S.-led occupation, and 
it is undermining the authority of moderate Iraqi leaders who urged 
their followers to cooperate with reconstruction as the best course of 
action for themselves, their families, and the country as a whole. The 
more we fail to deliver on security, on jobs, and everything else that 
goes with it, the more those Iraqis who argued for cooperation with the 
Coalition look like dupes or foreign agents, forcing them to tack back 
toward the extremists or risk becoming dangerously out of step with the 
sentiments of their countrymen.

                    HOW DID WE GET TO WHERE WE ARE?

    It is important to acknowledge some of the most important mistakes 
the United States made in creating the situation of instability and 
insecurity in Iraq so that we can avoid repeating them in the future 
and try to fix them now.
    Most of these mistakes were made right from the start. Indeed, the 
lesson that looms largest from our previous experiences at post-
conflict reconstruction around the world is the absolute necessity of 
establishing absolute security at the very start. If you can do that 
early on, everything else becomes easy, and you can usually start to 
relax your security presence and procedures within about six months. 
Unfortunately we did not do that.
    Of greatest importance and I will say this very bluntly, we invaded 
Iraq with too few troops to be able to establish a secure operating 
environment for ourselves, aid workers, or the Iraqi people. As General 
Shinseki and others, including myself, warned beforehand, we probably 
needed a force twice as large as the one that we employed. As a result, 
we did not have enough troops to blanket the country; to establish a 
presence in every village and neighborhood; to go into holdout areas 
like al-Sadr City in Baghdad and the towns of the Sunni triangle to 
pacify nascent insurgent groups; and to send an unmistakable message to 
every Iraq--good guy or bad guy--that the United States will not allow 
a vacuum or a state of lawlessness to emerge in the country. We did it 
in Tikrit and it largely succeeded. We failed to do it in Fallujah and 
we are reaping the whirlwind. That is what we needed to do and that is 
what we failed to do.
    We compounded this mistake in sizing our force with the mission we 
gave our troops. At first, we did not tell our troops that preventing 
looting and other forms of lawlessness was their responsibility. We did 
not order them to protect the Iraqi people and their society. And 
unfortunately, we allowed that trend to persist. We continue to make 
force protection and hunting for insurgents who attack our forces 
higher priorities than providing security for the Iraqi people.
    Many Iraqis resent the fact that American forces take such pains to 
protect themselves and do so little to protect the Iraqi people. A 
constant (and fully justified) complaint I heard from Iraqis when I was 
in Iraq was that the Americans have no presence and make no effort to 
stop the worst manifestations of street crime or the attacks on them by 
the insurgents. U.S. forces generally remain penned up in their 
formidable cantonments. They are cut off from the populace and have 
little interaction with them. In the field, they come out to attend to 
logistical needs and to conduct raids against suspected insurgents. In 
the cities, they generally come out only to make infrequent patrols--
which are usually conducted mounted in Bradley fighting vehicles or 
Humvees--at speeds of 30-50 km per hour. Although Coalition forces 
claim that they make 700 patrols per day in Baghdad, and that at least 
some are on foot, there is little evidence that this is the case. 
During my time in Baghdad I never saw a single Coalition foot patrol, 
and found that there were intervals of several hours between the 
mounted patrols--which the Iraqis justifiably considered useless, since 
it was impossible for those troops to see anything and they were not 
present long enough to serve as a deterrent, let alone to talk to 
people in the street to find out what the problems were.
    Rather than bring the necessary American troops, or build a 
multinational coalition capable of contributing the difference, the 
Administration instead turned to the Iraqis themselves to try to fill 
the gap between what we need and what we have. This too has proven to 
be a mistake. Rather than follow the meticulous schedule laid out by 
those charged with rebuilding Iraq's security forces, we short-
circuited proper vetting procedures, drastically reduced training 
times, and neglected to arm and equip the Iraqi security forces before 
turning them loose on the country. The results have so far been 
extremely disappointing. Many of those inducted have proven to be part 
of the problem, rather than part of the solution, and there are now 
considerable criminal elements in the police and other security 
services who engage in bribery, extortion, kidnapping, rape, arson, 
burglary, and murder for their own benefit or for that of anyone who 
will pay them. When faced with the determined fighters of Muqtada al-
Sadr's Mahdi Army, most of the Iraqi security personnel simply melted 
away. Others joined the insurgents. Too few stood and fought with 
Coalition personnel.
    This is not to say that there are not many good, brave, honest, and 
well-meaning Iraqis in the Iraqi security forces; it is only to say 
that there are too few of them to shoulder so great a burden, and those 
there are have not been given the training and the equipment to handle 
even a much smaller portion of the load.
    Finally, we must recognize that through our own actions we have 
created a popular base of support that sustains the insurgents. We 
should always remember Mao Zedong's parable of the fish and the sea; 
the people are the sea and the guerrilla is the fish, and as long as 
the sea is hospitable to the fish, you will never catch them all, but 
as soon as the sea turns against the fish, they are as good as dead. By 
alienating the Sunni tribal population of Iraq through an arbitrary and 
excessive policy of de-Ba'thification devised by Iraqi opportunists 
seeking to exclude potential rivals from the political process; by 
failing to provide alternative employment for Iraq's security services; 
and by creating a new Iraqi governmental structure from which the Sunni 
tribes were largely excluded, we have convinced the Sunni tribes that 
in the new Iraq they will be as oppressed as the Shi'ah and Kurds were 
when they ruled Iraq. And this fear and anger of the U.S.-led 
reconstruction has produced a very comfortable sea in which insurgents 
foreign and domestic can move, hide, recruit, and mount attacks on 
Americans and those who would help us to rebuild their country.

                              WAYS FORWARD

    Although the way ahead is increasingly murky, there is no question 
that the United States simply cannot abandon Iraq--nor should it at 
this point in time when the opportunity to get reconstruction on the 
right path still exists. Nevertheless, I think we must all acknowledge 
that we cannot be certain what the right answer is now. We know what 
the right answer was back at the start of reconstruction, and it is a 
tragedy that we did not do the right thing at that time. If we had, 
while I am certain there would still have been mistakes and problems 
galore because rebuilding Iraq was always going to be very difficult, I 
am equally certain that we would be in an infinitely better situation 
than we currently face, and likely would not be debating whether we are 
staring disaster in the face.
    Nevertheless, the fact of the matter is that the suggestions I will 
make are still largely derived from those things that we should have 
done at the start of the occupation which the experiences of Panama, 
Somalia, Haiti, Bosnia, Cambodia, Kosovo, Timor, and Afghanistan all 
indicated was the right way to handle post-conflict reconstruction in 
Iraq. At this late date--a year later, with so many problems festering 
in the country, so many opportunities missed, and so much anger and 
resentment already simmering there--we cannot be certain that they will 
still work. Unfortunately, I believe that they are the course we must 
take, if only because nothing else seems likely to work better.

1. Make security the highest priority for the next six months
    Getting control over the security situation must be made a 
priority, possibly even at the expense of other operations currently 
ongoing. However, it cannot remain so forever. Moreover, I believe that 
certain extreme measures are justified in the short term to get the 
security situation under control that the United States and its 
coalition partners can probably only sustain for a brief period of 
time. Given how far the current situation has deteriorated, it is going 
to take some dramatic steps to right the listing ship of Iraqi 
reconstruction. But if these steps prove successful, it should not be 
necessary to sustain them for excessively long periods of time.

2. Change the military's mission
    First and foremost, we must direct U.S. military forces in Iraq to 
make securing the streets and neighborhoods of the country their 
highest priority. If we can do this, we will have a profound impact on 
the lives and attitudes of average Iraqis. If we cannot, it is 
exceedingly unlikely that reconstruction can succeed. What's more real 
security is the essential pre-requisite for all of the other steps that 
will follow. If we do not begin to take responsibility for providing 
security for the Iraqi people we will never create an environment 
secure enough for international organizations and foreign aid workers 
to return, nor will there be an opportunity to deal with the problems 
of the Iraqis security forces currently saddled with this mission.
    I agree with the many British and American military officers in 
Iraq who privately argue that the United States should be employing the 
kind of foot patrols backed by helicopters and/or ground vehicles that 
the British Army learned to use in Northern Ireland, and that all NATO 
forces eventually employed in the Balkans. This is the only way that 
American forces can get out, reassure the Iraqi civilians, find out 
from them where the troublemakers are, and respond to their problems. 
This was also the demand I heard regularly from the Iraqis themselves. 
Their preference was to have mixed American and Iraqi patrols. However, 
I found that most Iraqis were so desperate that they would settle for 
American soldiers alone on the streets. An NDI study of Iraqi public 
opinion conducted last summer found the same; one Shiite woman in 
Diwaniyah asked about the reconstitution of the Iraqi police said, ``If 
there is an [Iraqi] officer standing there, no Iraqi would be afraid of 
him. But if an American soldier were there, they would be afraid of 
him.'' Even though Iraqis generally want Americans to be more in the 
background in every other aspect of reconstruction--and some Iraqis 
will doubtless bristle at an increased American presence--in this one 
area most Iraqis seem to want to see more Americans, not less, at least 
for the short term.
    Such an emphasis on foot patrols, presence, and the eradication of 
crime and attacks on Iraqis would doubtless expose U.S. personnel to 
greater risks. However, this is absolutely necessary if reconstruction 
is to succeed in Iraq. There is no question that force protection must 
always be an issue of concern to any American commander, but it cannot 
be the determining principle of U.S. operations. If our overriding goal 
is to protect American troops, we should get them out of Iraq and bring 
them back to the United States where they will be perfectly safe. The 
fact is that they are in Iraq because the reconstruction of that 
country is critical to the stability of the Persian Gulf and a vital 
interest of the United States. In their current mode of operations, our 
troops are neither safe nor are they accomplishing their most important 
mission. Consequently, executing that mission must become the highest 
concern of U.S. military commanders, and their current prioritization--
focusing on force protection and offensive operations against the 
insurgents--is misguided. If it does not change, the reconstruction may 
fail outright.

3. Reinforce the American military presence in Iraq to establish the 
        conditions for real security
    We are going to need more American troops in Iraq. Few of the 
current members of the Coalition can be counted on to provide troops 
capable of dealing with the full range of security problems we 
currently face in Iraq. Indeed, over the past few weeks, we have seen 
American forces called on to rescue those of other coalition nations 
when faced with circumstances beyond their ability to control. At 
present, we do not have enough American troops (or other high-quality 
coalition forces like the British and Italians) to handle the mission 
of providing basic security for the Iraqi people throughout the 
country. Indeed, this is one reason I find it hard to blame our 
military commanders for handling security as they have. They don't have 
the forces to accomplish the mission we need them to accomplish even if 
they were ordered to do so. Consequently we must provide them with 
those resources.
    Obviously, American ground forces are limited in number and they 
are stretched thin. But they are not yet at the breaking point. By 
redeploying some units that just returned from Iraq and freeing up 
others currently being held back for other contingencies (like a Korean 
war) we could probably come up with another 40,000-60,000 American 
troops that could be deployed to Iraq for a brief period of time. But 
we must recognize that if we do so, we will not be able to sustain that 
presence for very long--again 6-12 months at most--and that in doing so 
we likely will diminish our ability to sustain even a smaller presence 
once our initial surge is over. In other words, we can still ramp up 
our presence in Iraq by considerable numbers, but we must recognize 
that we can only do so for a short period, after which we are going to 
have to decrease the American presence significantly.

4. Seek additional foreign forces
    Because the U.S. troop presence in Iraq can only be increased for 
the short term, and Iraqi forces are unlikely to be able to take over 
significant aspects of the security mission for something on the order 
of 12-24 months, the United States must find another source of 
competent troops. These troops can only come from our allies in Europe 
and Asia, and possibly elsewhere. At the moment, the Europeans are 
claiming that they have no more to spare. I think this a bit of an 
exaggeration. Surely a continent of over 300 million people, with some 
of the most professional armies in the world--a continent that has 
managed to scrape together 50,000 security personnel to guard the 
Athens Olympics--can pull together another 25,000-50,000 troops for a 
mission as important as the rebuilding of Iraq if given six months to 
do so. And if Europe does, our other allies will likely follow their 
lead.
    I believe that Europe simply has no desire to find these troops. 
The Europeans lack the desire because they have made clear that they 
will only provide large numbers of troops if the United States agrees 
to make the UN a full partner in reconstruction, along the lines of the 
experiences in Kosovo and East Timor--a role that this Administration 
has stubbornly and, I would add, gratuitously refused to this point. I 
suspect that if the United States were finally to agree to Europe's 
terms, terms that are reasonable and under which U.S. forces have 
operated successfully before, I think it would be hard for our European 
allies to refuse a UN request for more troops. At the very least, I 
think we ought to put them to the test.
    In addition, many European leaders have no desire to put large 
numbers of their troops into the shooting gallery that Iraq has become 
over the past 12 months. This is ultimately why an increase in U.S. 
troops must precede our request for more foreign troops: only when we 
have diminished the current levels of violence in Iraq are we likely to 
receive the contributions that we need--contributions that should then 
allow us to scale back our own presence when we begin to feel the 
strain from reinforcing our units in Iraq.

5. Remake the Iraqi security forces
    The rapid reinforcement of American troops, later supplemented and 
then to some extent supplanted by foreign troops should be used to buy 
time to create a secure environment in which to properly reform the new 
Iraqi security forces. As American and other Coalition units become 
available, Iraqi units should be pulled off the streets and thoroughly 
re-vetted--relying on the actual behavior of the Iraqi soldiers in 
their various security missions over the past year as a primary guide. 
Those who were conscientious; those who showed up for work; those who 
tried to help their fellow citizens; and those who stood and fought 
when there was trouble should be retained. The rest should be moved 
into job retraining programs and, ideally, found new employment before 
being mustered out so that they do not simply swell the ranks of the 
insurgents for lack of other alternatives. New recruits should also be 
enlisted and they too should be thoroughly vetted before being 
enrolled. These units should then be given thorough and comprehensive 
training programs without regard for the exigencies of the moment. 
Before being redeployed, they should be adequately equipped, so that 
when they do finally return to service they will have every chance of 
succeeding.
    What's more, it would probably be wise, at least initially, to 
marry up Iraqi units with similar sized American and other Coalition 
units--both to add Iraqi faces to Coalition operations, and as a final 
check and source of training to ensure that when the unit is finally 
deployed on its own it will be able to handle the mission it is 
assigned. It is crucial to the morale of the Iraqi security forces and 
to the people of Iraq that their security forces be seen as succeeding 
and assuming the burden of securing their country.
    In an ideal world, which I recognize that this may not be, the 
progression from a beefed up American security presence, to a more 
even-handed balance between American and multilateral forces, 
eventually to an Iraqi-dominated security presence should be fairly 
seamless. The U.S. would increase its forces and bring down the level 
of violence in the short run making it possible to bring in more 
foreign troops; this in turn would allow the U.S. to scale back its 
commitment. In the meantime, the Coalition would use the window 
afforded to train new, more reliable and competent Iraqi security 
forces, which can then slowly take over for American and Coalition 
forces, allowing for a further drawdown in foreign troop strength.

6. Reach out to the Sunni population
    Finally, we must remember that no aspect of Iraqi reconstruction is 
purely military. Every aspect has a political and economic component as 
well. In the long run, the security of Iraq will rest heavily on the 
support of the populace. If the populace turns on the insurgents and 
actively supports the Coalition, reconstruction has every likelihood of 
succeeding. If not, reconstruction is probably doomed to failure.
    Although this is true everywhere across the country, it is a 
pressing concern with the Sunni tribesmen who have become the principal 
popular support for most of the Sunni Arab and foreign insurgents. The 
United States must take immediate steps to begin to remedy this urgent 
problem.
    If the Administration had prepared to do so, there were much better 
ways it could have handled the Sunni tribes right from the start. 
Unfortunately, it did not, and we must deal with the situation now at 
hand. In the short-term, we must reach out to the tribal shaykhs, 
largely as Saddam did, and offer to provide them with resources if they 
will ``assist with security''--i.e., stop attacking the roads, power 
lines, oil pipelines, and coalition forces in their territory and 
prevent other groups from doing the same. Our payments do not 
necessarily have to be cold cash, like Saddam's, but we too need to 
find ways to provide resources that will give the tribal shaykhs and 
their people an incentive to cooperate with us. This can come in the 
form of goods, construction equipment or funding for projects, or even 
the projects themselves. It can come by ``deputizing'' tribal military 
leaders, enlisting their personnel in an Iraqi security force (probably 
the ICDC, which is locally based) and then paying them for their 
service. The key is to start meeting with the shaykhs and convincing 
them that if they cooperate, there will be resources and other benefits 
for them and their followers.
    Over the longer-term we must work to repair the deeper 
psychological damage created by Saddam's misrule and our own initial 
mistakes. We need to begin a process of education among Sunni tribesmen 
(indeed, all across Iraq) that will make them understand our vision of 
the new Iraq and their role in it. For instance, we need them to 
understand that in a system where the rule of law prevails they will 
not have to fear being oppressed by the Shi'ah as they oppressed the 
Shi'ah themselves. Similarly, we need to persuade them that while they 
will no longer enjoy the privileged position they had under Saddam, and 
so will no longer be relatively better off than the rest of the 
country, if the reconstruction succeeds, Iraq will be so much more 
prosperous than it was under Saddam that in absolute terms, they will 
be much better off.
    The United States must also help the Sunnis develop new political 
institutions. Here the need may actually be even more pressing than it 
is for the rest of the country. The Kurds have their two great parties. 
For the present, the Shi'ah at least have the religious leadership of 
the Hawza--although that too is an imperfect vehicle for expressing 
their true political aspirations. But the Sunnis have nothing. Their 
principal political institution was the Ba'th party and it has been 
proscribed, along with all of its senior members. Consequently, the 
United States is going to have to revise its arbitrary and draconian 
de-Ba'thification measures to allow prominent Sunnis, including Sunni 
tribal leaders, to participate in Iraq's political process and help 
them create new, progressive political institutions that will allow 
their voices to be heard. Even in these, the Sunni tribesman cannot 
predominate, and should have no more political power than their 
demographic weight, but they cannot be excluded entirely as they 
effectively have been so far. Overall, the U.S. military and political 
authorities must remember that insurgencies are not defeated 
principally by military operations. They are defeated by eliminating 
the underlying political and economic grievances that gave rise to the 
insurgency. Overly aggressive military operations can therefore be 
extremely counterproductive by exacerbating those grievances (or 
creating new ones).

                               CONCLUSION

    When I wrote The Threatening Storm two years ago, I argued that the 
we would likely have a honeymoon period after an invasion when most 
Iraqis would be receptive to the efforts of the United States to help 
them rebuild their country. However, I also warned that that honeymoon 
would not last forever. I cautioned that unless the Iraqis saw real 
improvement in their lives during that honeymoon, they would likely 
begin to turn against us, and I suggested that that honeymoon period 
might last no more than about six months. In November, when I was in 
Iraq, I found Iraqi public opinion still overwhelmingly supportive of 
the United States, defying my six-month prediction. But I also found 
that this support was becoming fragile, and if the United States was 
not able to deliver basic security and basic services better than we 
had so far soon, more and more Iraqis would conclude that either the 
United States could not or would not help them to rebuild their country 
and so they should take matters into their own hands and get rid of us.
    Unfortunately, in the events of the past weeks we are seeing this 
prediction come true. Our failure to secure the country, and the broad 
range of secondary problems this creates, are increasingly souring 
Iraqis on the reconstruction and turning them into our opponents. All 
is not lost in Iraq, but the clock is ticking. If reconstruction is to 
succeed, we must address the security of the Iraqi people and we must 
do so promptly. I do not know how many more chances we will get to do 
so. But I urge this Administration to treat this one as our last.

    The Chairman. Thank you very much, Dr. Pollack, for that 
very compelling testimony. We appreciate that.
    General Joulwan.

   STATEMENT OF GENERAL GEORGE A. JOULWAN, U.S. ARMY (RET.), 
                      FORMER NATO SACEAUR

    General Joulwan. Thank you, Mr. Chairman, for the 
opportunity to once again testify before the Senate Foreign 
Relations Committee. You, Mr. Chairman, and this committee 
represent a true bipartisan approach so vital in addressing the 
threats now facing our country.
    At the outset, if I may, Mr. Chairman, I want to pay 
tribute to the men and women of our Armed Forces who have 
displayed uncommon bravery and courage in the past year, in 
Iraq and elsewhere around the world. Many of today's leaders 
served with me in numerous assignments around the world, and I 
can attest to their professionalism and their commitment. And 
nothing in my remarks today should be construed as reducing our 
resolve or commitment in support of our troops and in bringing 
true peace, stability, and normalization to the people of Iraq. 
And, to me, failure is not an option.
    Mr. Chairman, you asked for my assessment and 
recommendations on several key issues facing us in Iraq and on 
the pending transition to Iraqi sovereignty on 1 July. Let me 
respond to those issues and then answer your questions. But, 
first, two observations, I believe, that are relevant to your 
inquiry.
    The first observation. As is now evident, prior planning 
for winning the peace, as well as for winning the war, was 
inadequate and shortsighted. Past experiences in similar 
conflicts mandated as much planning for the former as for the 
latter. In my view, the tougher task is winning the peace, and 
requires an attention to detail and an integration of effort 
that includes not only military units, but also non-
governmental organizations, U.N. agencies, and numerous U.S. 
and international civilian firms and agencies. A year later, we 
are still suffering from this lack of initial detailed planning 
for the stabilization of Iraq.
    The second observation. A year ago, we had a clear warning 
of the violence ahead in Iraq. A battle-tested corps commander, 
after skillfully maneuvering his forces with minimum casualties 
to secure Baghdad, reported to his superiors that he ran into 
resistance, more resistance than he anticipated. For his candor 
and integrity, the corps commander was criticized and 
contradicted by the senior civilian leadership in the Pentagon.
    Mr. Chairman, the assumptions that we would encounter 
minimum resistance, as well as being greeted as liberators by 
the Iraqi people, were wrong. When the assumptions in your 
battle plan are proven false, you must immediately adapt your 
war plan. Winning the first battle is not winning the war. We 
did not impose our will on the enemy. Not to do so, in my 
opinion, was a strategic error, a strategic error we are now 
paying for, and one that we must correct.
    Now to the issues you asked me to address. I'll try to be 
brief. First let me reinforce what you and Senator Biden have 
already said in your opening statements. First and foremost, 
Mr. Chairman, I believe that the primary requirement for a 
successful transition on 1 July in Iraq is, indeed, a secure 
environment. And I'd like to explore that a little bit with 
you.
    Right now, that secure environment, as many of you have 
said, does not exist. This basic requirement should have been 
met at the very outset of the war. A secure environment 
includes sealing the borders, preventing lawlessness, disarming 
remnants of the defeated military, and demobilizing the enemy's 
security forces. Those actions are critical in the follow-on to 
the end of major hostilities. If that was not a clear objective 
of our civilian and political leaders, it should have been. The 
resources required to do so should have been provided, whatever 
the cost. We did not do so then, we must do so now, or there 
truly is a high probability of civil war, rather than a civil 
society, in Iraq.
    Mr. Chairman, let me, again, be clear. While the 
requirement for a secure environment still exists one year 
after the end of the conflict stage, it will be more difficult 
and require more resources, both in troops and materiel, but it 
must be done. Without a secure environment on 1 July, we should 
anticipate continued violence confronting the new Iraqi 
Government as well as Coalition forces.
    And, second, for clarity, we must understand the difference 
between the warfight and stabilization. The warfight is what we 
witnessed in the brilliant tactical maneuver from Kuwait to 
Baghdad by our soldiers and marines, supported by Air Force and 
Navy air. The warfight was superb use of the capabilities and 
effects of joint and combined forces. In very short order, our 
troops reached Baghdad and accomplished the mission of regime 
change.
    But while the military can win the war, only civilian 
agencies can secure the peace. And to secure the peace requires 
stabilization within Iraq. And, Mr. Chairman, stabilization is 
a mission. And I would urge you to request from those in the 
Department of Defense, and our military and civilian leaders, 
what is the strategy for stabilization in Iraq? It is a 
necessary phase in the operation when you go from the warfight 
to stabilization and, perhaps years later, to normalization. 
Stabilization is not just nation-building, as we want to try to 
call it. It is not. But, rather, it is a combination of 
military operations and actions by civil and non-governmental 
agencies and organizations to begin the task of creating 
everything from constitutions, elections, national police, 
border forces, justice systems, jobs, and all those things that 
give people hope and dignity--food, shelter, hospitals, and 
schools. This is what needs to be done now and after 1 July. It 
is a daunting task. And to do so will take a great deal of 
coordination, planning, and cooperation between the military 
command structure and the new U.S. Embassy being established in 
Baghdad. In doing so, we must have unity of effort, as well as 
unity of command between the military command in Baghdad and 
this soon-to-be-established U.S. Embassy. Clarity in terms of 
mission, as well as roles and responsibilities, is essential 
prior to the 1 July transition.
    Mr. Chairman, as has been mentioned by you and others, 
stabilization and a secure environment will mean more troops--
troops to seal the borders, troops to ensure safe passage on 
roads, troops to disarm and to mobilize former warring 
factions, troops to buy time for indigenous Iraqi police and 
military to organize, equip, and train. Clearly, such a mission 
will be an added hardship for our military and their families, 
but realistic troop-to-task analysis needs to be done by our 
field commanders in order to provide a secure environment in 
Iraq. And I would urge the Congress that resources must match 
those requirements.
    Finally, Mr. Chairman, in my view, we also need to broaden, 
as has been mentioned by others, the political and military 
base of the Iraqi campaign. We cannot, nor should not, go it 
alone. And it should not be ``our way or the highway.'' NATO 
and the United Nations need to be consulted and included in the 
planning for a free and democratic Iraq.
    This year, we celebrate the 60th anniversary of D-Day and 
the end of Hitler's fanatical dream of world domination. This 
year, we celebrate the 15th anniversary of the fall of the 
Berlin Wall and the Iron Curtain and the demise of communism. A 
decade ago, we saved thousands of Muslims from atrocities in 
Bosnia. We did not do so alone, but with an alliance of like-
minded nations. It took 40 years in the cold war, 14 million 
U.S. soldiers back and forth to Europe, and billions of 
dollars. They were joined by millions of other soldiers from 
the Alliance, and we, the Alliance, prevailed. We have more in 
common than we have in differences. We share common values and 
ideals. We have mutual trust and confidence.
    The attack on September 11 was an attack not just on the 
United States, but also civilization as we know it. NATO 
declared an Article V against terrorism, for the first time in 
its history, the day after September 11, 2001. NATO, as an 
Alliance, is in Afghanistan, commanding the International and 
Security Assistance Force. And I believe NATO can play a 
significant role in Iraq, but we need to give them a seat at 
the table and a voice in the political as well as the military 
operation.
    Those are my brief comments, Mr. Chairman, and I look 
forward to your questions.
    The Chairman. Thank you very much, General Joulwan.
    Commissioner Michael Sheehan.

 STATEMENT OF HON. MICHAEL A. SHEEHAN, DEPUTY COMMISSIONER FOR 
       COUNTER-TERRORISM, NEW YORK CITY POLICE DEPARTMENT

    Mr. Sheehan. Thank you very much, Mr. Chairman, for the 
opportunity to appear before your committee again today. It's a 
pleasure to return and discuss my experiences in dealing with 
the problem of building police and security structures in post-
conflict environments.
    Let me say, at the outset, Mr. Chairman, that I am not an 
Iraqi expert, but I have been involved in training of 
indigenous military police, civil defense, and constabulary 
forces for the U.S. Government for over 22 years, as a U.S. 
Special Forces officer, as a State Department diplomat, and 
with the United Nations. And I say this not to bolster my 
credentials, but to underscore that we've been doing this for 
at least 22 years that I've been associated with it. I've 
worked in four continents in these missions, from Central 
America to the Caribbean, the Andes, the Balkans, Africa--
Central Africa, East Africa, and West Africa--and in East Asia. 
I've worked in American-only operations, American-led 
coalitions, U.N. civilian police operations, and I've also 
worked, to a lesser extent, with the European Union and OSCE 
efforts in these. Depending on how you count them up, probably 
about a dozen experiences in this business over the past 22 
years.
    Mr. Chairman, I'm sure Iraq is unique in many aspects. In 
all of the cases I worked with, they all had unique 
characteristics. But they also all had the same haunting 
problems over and over again.
    First, let me just review quickly what some of those 
problems are. They're well known, and I'll go through it very 
quickly.
    Normally in post-conflict environments, law and order is 
completely broken down, there are no viable state institutions. 
Local police have stopped to function completely, overtaken by 
military and paramilitary forces running around the 
countryside. There are no functioning judicial or penal systems 
in place. There is a minimal or no functioning civil society, 
such as a free press or civic organizations, and normally the 
country is bankrupt, unable to hire and retain public workers, 
including the police.
    And also, in each of the cases I worked with, but to 
varying degrees of success, you heard complaints about building 
police forces, primarily from my military partners and 
colleagues in the military, but also from other sectors of U.S. 
Government action. They always complain that police forces 
started too late, were proceeding too slowly, and, because of 
this, were emboldening trouble-making factors in the country. 
There were never enough forces to train, equip, or pay the 
police. There was a shortage of expertise in developing 
leadership in the police, and specialists, such as forensics 
and other special skills. And almost in every case, there was 
no judicial system to handle criminal activity and put them in 
proper correctional systems.
    Also, two other issues I'm going to return to later that 
are also prevalent in every one of those cases, the issue of 
the security gap between police and military functions, and the 
issue of political legitimacy.
    Let me briefly outline six steps that are required to 
rebuild the police force in a post-conflict situation. It could 
be more or less, but I've picked six.
    No. 1, vetting the force. That was mentioned before. In 
each of these cases, you normally don't want to start a police 
force from scratch. You want to take what's formerly there, the 
good ones--you need good intelligence to figure out which ones 
were good--and build around them in order to jumpstart the 
process. Virtually impossible to start with a clean slate of 
paper, so you have to build with the original force. Often 
you're faced with the dilemma of, do you deal with integrating 
paramilitary forces into the police forces? There are pros and 
cons of this. By integrating them, they buy into the security 
structure. But they can also threaten the development of a new 
and democratic police force. Again, the issue is how you vet 
them--how you vet the old police, how you vet people that want 
a stake in the process that served, some admirably, in 
paramilitary and other resistance groups. That issue of vetting 
the force is probably the most important and difficult aspect 
of building--of beginning a force.
    Second, you need to shape the force. How large a force do 
you need, one that can be sustained by the new economy there? 
What types of religious, political, and different factions 
need--ethnic or other factions need to be integrated in the 
police force. Most police forces that I've been involved with 
were too big before the war. They need to be made smaller, but 
more effective at the same time. And normally the demographic 
makeup of the force has to be adjusted.
    Third, you need to train this force. This is actually one 
of the more straightforward of the challenges. We know how to 
train police and security forces. We've done it over and over 
again for many, many years. The problem is, we normally start 
too late and without enough resources. Once you get the 
training institutions up and running, it's a fairly 
straightforward process.
    I've seen, for instance, our ICITAP at the Department of 
Justice program, does a very good job once it's up and running, 
in training police and other forces. It's just all, normally, 
too late, too slow.
    We have to train leaders and specialists. Training cops and 
security personnel, as I mentioned before, fairly 
straightforward. Training leaders is more difficult, and 
specialists. You can't train a leader and grow a leader 
overnight, but you can accelerate the process. If you can 
properly identify leaders, give them specialized training and 
mentoring, you can accelerate the process. You can't wait 
around, to develop leaders, for 10 or 15 years. You can help 
accelerate. In order to do that, you have to have special 
trainers to provide specialist training for leaders and other 
specialists, as I mentioned before--forensics, special 
investigations, and internal investigations.
    Fifth, you need to monitor the force. Once you provide 
training, you need monitors to make sure the training that you 
provided in the academy is properly executed in the field. That 
requires international or other types of monitoring forces to 
mentor them and bring them along in the process.
    Finally, and the last step I want to emphasize, you have to 
police the police. And in this regard, I want to mention a 
great American, named Chris Kriskovich, who was a veteran of 
Special Forces in Vietnam, retired FBI agent, and founder--
father of ICITAP. He taught me about this in the mid 1990s, in 
Haiti and the Balkans and other countries we operated in. You 
have to, from the beginning, create an internal policing of the 
police force to ensure that these people that you're empowering 
with new authorities respect the rule of law and the democratic 
institutions they're sworn to protect.
    Let me mention quickly a couple of other key factors 
involved in building the police force.
    First, political legitimacy. If you do not have a solid 
political legitimacy, a solid political process moving forward, 
building a police force is not going to solve your problem. You 
should do it anyhow, because it's going to take you a long 
time, but don't expect it to bring security, don't expect it to 
bring stability, alone, to the situation. You have to have a 
viable and legitimate political process or your police forces 
will be left to the sidelines. We saw this in Somalia, we saw 
this in the early parts of the Balkans, we saw it in many other 
occasions where, without a political legitimacy, if the process 
is broken down and armed factions are going to be fighting, the 
police will be pushed to the side.
    Second, on the issue of the security gap, this comes up 
also in every one of the problems, and again in Iraq. The 
security gap is that area where the problem is a violent--
generally of violent mobs, too large to be handled by local 
police, too civilian to be handled by military problems. 
Normally the solution best used to deal with this problem is 
using paramilitary gendarmerie or carabiniere-type forces to 
deal with that gray area of large mobs that are often 
orchestrated by troublemakers. And that is an area that has to 
be addressed early on. It's an area that overlaps between 
police and military. There are forces that are good at doing 
that. Work has been done on that in the Balkans that was 
delayed, but ultimately fairly successful, and lessons can be 
learned there.
    Time and money. You can't do this overnight. Senator Biden, 
you mentioned one of my boss's predecessors, Bernie Kerik. Five 
years, that's exactly the timeline. I'd say at a minimum you're 
going to need 5 years. Actually, it's a generational process to 
create a new police force. And actually a contract between the 
people of the post-conflict environment and new judicial and 
security forces takes a generation. At a minimum, our presence 
and international presence has to be at least 5, more like 10 
years.
    Let me take a few minutes to talk about the U.S. Government 
and make a few recommendations on how to deal with this, and 
for Iraq.
    First of all, we have to admit that we're going to be in 
this business that I've been involved with for 22 years. The 
U.S. Government has not admitted it. We reinvent it every time. 
Because normally these interventions are politically 
controversial, so the U.S. Government hasn't defined this as a 
task. It's been done ad hoc over and over and over again.
    Second, once we admit this is a task for the U.S. 
Government, assign central responsibility for managing it. In 
my view, it should be in the State Department, and it should 
group all the different organizations that are out there doing 
it now under one roof. That would include the Justice programs, 
including ICITAP, into the State Department to manage these 
type of operations.
    Third, I think we should create an international academy 
for police training--I made this suggestion when I was 
Ambassador for Counterterrorism--to train our partners in 
counterterrorism around the world here in the United States, 
not only to give them skills, but to build the relationships 
that are necessary to fight the war on terrorism. We also have 
interests in counter-narcotics and in civilian police 
structures. We should build an academy, bring people together 
here. And, by the way, that academy will also give a home to 
the policymakers, to planners, and the people that develop 
doctrine, like the U.S. Army has, that we could use for startup 
missions in these situations in the future.
    Third, we should create a small, but standing, Federal 
international police training force. We could probably do this 
initially with 100 or 150 people, but at least they would have 
a home, and there would be a place for them to reside, and they 
could be drawn upon in the early phases of the planning and the 
startup of these missions.
    Finally, we need to plan early and often. If there is a 
political process moving forward in U.S. Government that is 
going to create one of these post-conflict environments, the 
planning for police should start immediately, concurrent with 
the political planning. Also, if the military starts planning, 
the day they start planning, the police and judicial planning 
should start, as well.
    Finally, we're going to need money in order to keep this 
operation moving, a commitment, time, resources, and people to 
do it. I can hear the red light going off, and I'm at the end 
of my comments.
    Mr. Chairman, I thank you for the opportunity to express 
these today, and I look forward to your questions.
    [The prepared statement of Mr. Sheehan follows:]

             Prepared Statement of Hon. Michael A. Sheehan

         BUILDING POLICE FORCES IN A POST-CONFLICT ENVIRONMENT

Introduction
    Thank you very much for the opportunity to appear here today. It is 
a pleasure to return to this Committee to discuss my experiences in 
dealing with the problem of building police and security structures in 
post conflict environments.
    I have been involved in the training of indigenous military, 
police, civil defense and constabulary forces for the US government for 
over 22 years, as a US Army Special Forces officer, a State Department 
diplomat, and United Nations official.
    My current duties at NYPD have furthered my understanding of 
training police officers, although this training is focused almost 
exclusively on counter-terrorism. New York City has been targeted on 
multiple occasions by terrorists, but we are certainly not in a post 
conflict scenario as was usually the case when I have worked with 
police forces. New York is bouncing back from the terrible 9-11 attacks 
and despite an enormous effort to fight terrorism, the City has 
continued to reduce crime by about 11% over the past 2 years under the 
leadership of Mayor Michael Bloomberg and Police Commissioner Raymond 
Kelly.
    In today's remarks, I will draw on my experience previous to NYPD, 
which includes service in post conflict zones on four continents--from 
Central America, the Caribbean, and the Andes, to the Balkans, Africa, 
and East Asia. I have worked with American-only operations, American-
led coalitions, UN civilian police and to a lesser extent the European 
Union and OSCE efforts. Depending on how you count them, I have 
participated in about a dozen police training experiences in 22 years.
    I am sure Iraq is unique in many respects, but I am equally sure 
that the principles that I have encountered in each of these twelve or 
so cases are equally valid there. I hope my testimony adds to the 
discussion on how this enormous task of stabilizing Iraq can be best 
accomplished by our nation and its allies.

Defining the Problem
    In each of the post conflict scenarios in which I worked, the local 
situation varied dramatically. Each situation had its own unique 
challenges based on the nature of the conflict, the degree of ongoing 
violence, the status of political reconciliation and the local 
tradition of law enforcement. The international response also varied 
dramatically--from the well prepared and financed (clearly the minority 
of cases) to the more normal hap hazard and ``shoe string'' financing 
of the police and justice programs.
    Despite the unique variables of each case there were constants, in 
fact all too familiar constants, that faced us every time:

  <bullet> Law and order had completely broken down; there were no 
        viable state institutions.

  <bullet> Local police had stopped to function and were overtaken by 
        military and paramilitary forces.

  <bullet> There was no functioning judicial or penal system.

  <bullet> There was minimal or no functioning civil society, such as a 
        press or civic organizations.

  <bullet> The country was bankrupt with no resources to hire and 
        retain public workers including police.

    Three consistent complaints were heard concerning the response to 
this challenge, most often coming from the military forces that were 
forced to move into the security vacuum created by broken police 
forces.

  <bullet> The training of the new force started too late and proceeded 
        too slowly, emboldening trouble-making groups.

  <bullet> There were not enough resources to train, equip or pay the 
        police.

  <bullet> There was a shortage of expertise in developing leaders and 
        specialists.

  <bullet> There was no judicial system to handle criminals and other 
        trouble makers if apprehended by military or police units.

    There are two other important issues in this equation that I will 
address later in my remarks, the so called security gap and political 
legitimacy. For now, I will turn to the basics of building a police 
force.

Six Steps in Building a Police Force
    For the purposes of this discussion I have listed six key 
components in building a police force. There could arguably be more, 
but I think these six capture the most essential elements. They are: 
vetting the old force, shaping the new force, training recruits, 
training leaders and specialists, monitoring the force, and last but 
not least, policing the police.

    Let me make a few observations about each of these components:
            Vetting the Force
    Building a policed force from scratch is not easy; in fact, it is 
practically impossible. It takes time. In most post conflict 
situations, those responsible for building a new force try first to 
screen out the best from the previous force and build upon their 
experience. The problem is in identifying who is acceptable. It is a 
challenge to build a whole new policing culture. Retaining too many 
from the previous regime risks infecting the new force with old 
practices of corruption, abuse of authority, or politicization. A 
second challenge is whether or not to include paramilitary or other 
military groups that were part of the conflict. In the short term it 
may pay to take on some of these people and reduce their threat to the 
stabilization process; but they also must be carefully vetted and be of 
sufficient numbers to dominate the new police force.
    The challenge is to have a vetting process that includes trusted 
locals, coupled with intelligence information gathered before and after 
the vetting process. It is essential to weed out the problem officers. 
It is a difficult and time consuming process, but is absolutely vital 
for success.

            Shaping the New Force
    In most cases in which I have served the previous security forces 
were ineffective, too large, under-paid and often corrupt. The goal is 
to create a smaller police force that does not bankrupt the national 
treasury and is paid sufficiently so that its members are not tempted 
to engage in street-level corruption to make up for low or non-existent 
pay.
    The host government is normally broke--and the International 
Financial Institutions are reluctant to pay salaries. However, funding 
must be found, at least during the initial phases, from international 
donors to pay police. It must be factored into the beginning of any 
planning for an intervention.
    In shaping the force, it is important to have political, ethnic or 
religious groups represented appropriately. In most cases, it makes 
sense to keep the old traditions of the police and justice systems (for 
instance did it derive from colonial structures from the British, 
French or Italian systems?). This action needs to be coordinated with 
coalition partners that may bring different traditions to the process.

            Training the Force
    Training new recruits is an important but fairly straight forward 
challenge. We have many people who know how to do this--and they do it 
fairly well. The Department of Justice International Criminal 
Investigative Training Assistance Program (or ICITAP as it is known) 
has been involved in establishing police academies in various countries 
around the world. I have visited several of these and they are 
relatively effective in turning out new recruits. Generally, training 
should take at least sixteen weeks to get it right, and should include 
time on the street to monitor recruits as they develop their law 
enforcement skills. The challenge here is to get it up and running 
within the first months of an intervention so that new cops are being 
turned out within months. This takes advance planning and resources.

            Training Leaders and Specialists
    More difficult than training recruits is training ``bosses'' as 
they are known in the NYPD vernacular. You can not substitute for years 
of street experience in the classroom. However, leaders can be 
identified and put in accelerated programs to develop their capacities 
and mentor their development. This requires exceptional trainers and 
monitors for senior level personnel. However, as is the case in the 
specialist areas, like forensic science and special investigations, 
there is always a premium on recruiting the quality of people necessary 
to do this job. To do it well, you need long term police experience and 
the willingness and ability to translate that experience in a foreign 
land. That is not easy, but again, is essential to the task.

            Monitoring the Force
    New police need to be monitored to ensure that the training they 
received in the Academy is practiced on the street. That is the primary 
job of a monitoring force. Relatively speaking, this is also a task 
that can be accomplished. The US and the international community have 
built up quite a bit of experience in the past 10 years monitoring 
police forces. The quality of the monitoring effort, however, will 
often depend on the leadership of its force. Without strong 
supervision, these cops have a tendency to get in trouble with 
prostitution, black marketing, or other abuses. If well supervised, 
this is a task that can be done well.

            Policing the Police
    Let me take a quick moment to discuss another important and often 
overlooked aspect of these operations that was taught to me in the mid 
1990s by Kris Kriskovich. Kris was a veteran of the 5th Special Forces 
Group in Viet Nam and retired career FBI agent and the founding father 
of ICITAP. Kris underscored to me the importance of policing the 
police--of building strong independent and effective internal affairs 
structures into a police force from the beginning to ensure that the 
police uphold the rule of law that they are attempting to re-impose on 
the society they serve. Unfortunately, Kris died in a helicopter crash 
north of Sarajevo, Bosnia in September 1997; doing what he loved--
training police. But his lesson should be remembered--police the 
police.

Other Key Factors: Political Legitimacy, Military Back-up, and Time
    Political Legitimacy: Without political legitimacy, training a 
local police force will not guarantee stability. It still should be 
done anyway, but it must be understood that a newly trained, lightly 
armed police force will not be able to stop a civil war or prevent 
massive civil unrest in a tense post conflict environment.
    In Somalia, the US intervention force commanded by LTG Johnston had 
begun training the remnants of a fairly well respected Somali police 
during the initial US intervention phase. This was done, completely 
``under the radar'' of Washington by a contingent of US Army MPs, and 
particularly a very creative LTC named Spataro. The military took on 
this function not because it wanted to, but because they had to, it was 
deemed essential by the commanders. The training and assistance worked 
to a degree; the old police was brought out, their stations re-opened 
and they assisted the MNF with traffic control and petty crime. 
Ultimately, the police force proved irrelevant in the face of an 
ongoing civil war of heavily armed militias. But for a short period of 
relative stability, they were appreciated by the US military and the 
local population both.
    The Security Gap: As in Somalia, in the Balkans, local police 
forces were not able to stand up to heavily armed militias or large 
rampaging civilian mobs, backed by heavily armed thugs. Even after the 
Dayton agreement, the ethnic cleansing began again in Sarajevo, but in 
this case it was the Serbs (and to a lesser extent Croats) who were 
being run out of their traditional neighborhoods (or leaving and 
burning on their own volition) in the previously ethnically diverse and 
cosmopolitan city. This led to a long and continuing discussion of the 
security gap. The security gap is the security challenges that fall 
between the traditional military and police missions. These threats, 
which were managed mob violence, were too big for police to handle--and 
too ``civilian'' for military force to handle without the risk of 
massive civilian casualties.
    There is no silver bullet for these challenges, but what has proved 
to work best in the Balkans and other locations is a combination of 
military units, a paramilitary police such as French-style gendarmerie 
or Italian-style Carabineer--coupled with regular local police.
    Time and Money: In Haiti, the police got off to a relatively good 
start but were eventually starved for resources (even in this better 
case scenario there was plenty of complaining about the slowness of the 
program). The political process has also come apart, but even before 
that, a once promising police force was deteriorating and beginning to 
look more like its predecessor force than the new modern force 
contemplated by its trainers after the US-led intervention in 1994.

Conclusions
    I have been involved in these post conflict security operations for 
over 22 years, but during this period the US Government has denied that 
this is an enduring task that will serve our national interest. Each 
case is seen as sui generous and limited in scope. I can assure you 
that we will be doing these missions for the next 22 years and probably 
poorly, relearning the lessons over again each time. It is time to 
prepare the US Government to conduct post conflict missions--and to do 
it correctly.
    What is needed:

Define the task and assign responsibility

  <bullet> Admit that the US Government has been performing this 
        mission for years and will continue to need to do it for the 
        foreseeable future. We have been in denial too long; we need to 
        build the institutions to conduct these operations effectively, 
        particularly with police training and development.

Create a unified Bureau to manage police training

  <bullet> Create a unified law enforcement training and assistance 
        agency within the State Department. It should include planning 
        and doctrinal development staff. Police, justice and penal 
        programs should be under one roof; this would include ICITAP 
        and other administration of justice programs.

Create an International Police Academy in the US

  <bullet> Training for international police is required for counter-
        terrorism, counter-narcotics, and peacekeeping. A new federal 
        institution could provide a home for federal police trainers, 
        and act as a basis for creating new police academies in post-
        conflict scenarios. Police training could be conducted for 
        counter-terrorism and counter-narcotics officials in the same 
        institution--another clear national interest that I proposed 
        when I was Ambassador at Large for Counter Terrorism at the 
        State Department.

Create a standing national police force for contingency operations

  <bullet> Initially, this force could be no more than a few hundred 
        full time employees that agree to be assigned long term 
        overseas in post-conflict environments. A smaller number of 
        these officers could be assigned as instructors and planners at 
        the stateside Academy or within the policy bureau at State 
        between missions. Their most important value would be in the 
        planning and initial start-up of new missions.

Plan early and often

  <bullet> Write contingency plans and exercise often. Start planning 
        during the peace negotiations. If you start after they are 
        completed, you will be late by at least one year. If the 
        Pentagon has a plan or starts planning, do it concurrently--
        don't let them get a head of you.

Properly fund well before and through a deployment

  <bullet> These operations need consistent funding streams to work 
        effectively, from well prior to a mission being launched 
        through to its completion and after action review.

Stay with the program for at least five years

  <bullet> Ideally, it takes a generation to train and gain experience 
        and to rebuild what amounts to a social contract between police 
        and the community. Five to ten years engagement, at a minimum, 
        is required.

Build international partners

  <bullet> It is not feasible to effectively conduct these operations 
        unilaterally. The USG should work with other partners on a 
        bilateral and multilateral basis to establish a division of 
        labor and share the burden of financing these operations.

  <bullet> Police monitors and basic training can be done by many 
        partners (including the UN, the EU and the OSCE). The 
        disciplined supervisory work and special training should come 
        from well established, democratic and professional police 
        forces that have the strength and credibility to pull off that 
        important task.

    All of these recommendations will help build a long term capacity 
to more effectively conduct post conflict stability operations. 
However, I would also argue that they should be implemented immediately 
for Iraq as well. I suspect we will be in Iraq a long time, and these 
measures will immediately begin to strengthen a vital component of the 
equation--the training and mentoring of local police forces.
    Thank you.

    The Chairman. Well, thank you very much, Commissioner.
    I would just say each of the three panelists have presented 
so much material in 10 minutes that clearly this committee, 
and, I suspect, the American public, would like to hear you for 
several hours. We're hopeful at least, through having this open 
hearing, that all of us in Congress, and hopefully in our 
administration and elsewhere, are likewise able to take 
advantage of some very, very important counsel. I appreciate, 
again, your summation. I regret the abruptness of the buzzers 
and the bells, but, I encourage you, if you come to that point, 
please continue beyond the ring of the bell to complete your 
thoughts. You know, we really are here to learn.
    Dr. O'Hanlon.

 STATEMENT OF DR. MICHAEL E. O'HANLON, SENIOR FELLOW, FOREIGN 
           POLICY STUDIES, THE BROOKINGS INSTITUTION

    Dr. O'Hanlon. Thank you, Senator. It's an honor to appear 
today.
    And I have learned a lot from listening to my colleagues, 
as well. And I agree with their generally somber mood, as well 
as that of yourself and Senator Biden. But let me, for the sake 
of argument, try to underscore some of what is still going well 
in Iraq, on the grounds that even though I'm not as optimistic 
as I once was, and would concede to having been overly 
optimistic last fall, there is some good news, and we have to 
keep that in mind even as we adjust course on a number of 
security fronts, as I'm sure you would agree.
    And I say this, again, not to try to counter the general 
mood of sober thinking, because obviously that's needed and 
we're in a tough time. But we also need to maintain our 
conviction that we have a good chance of success here.
    Starting with the politics, the Kurdish region remains 
remarkable, and it has been well before the overthrow of 
Saddam. And there are still some problems up there. Namely, we 
have to convince the Kurds not to get too greedy about their 
veto rights in any future Iraqi constitution or future 
governance, and we have to convince them not to make a land-
grab around Kirkuk for property that they feel was once theirs 
and is no longer in their people's hands. But, generally, 
that's an encouraging part of the country.
    Likewise, let me say, even though I'm not an Iraq expert 
the way Ken Pollack and others are in this room, I'm generally 
impressed by how the Shiite groups have conducted themselves. 
The Shia have been remarkable in basically sticking with this, 
in remaining relatively optimistic about their country's 
future. Various Shia leaders--of course, Mr. al-Sistani is the 
most notable--have certainly given us a hard time, where they 
didn't like what we were up to, but, generally speaking, 
they've been peaceful. They're trying now to convince al-Sadr 
not to continue on with violence. And we have 60 percent of the 
country that's generally happy to be liberated, happy about its 
new power in a democratically oriented Iraq, and very glad 
Saddam Hussein is gone.
    So there are obviously problems in large segments of the 
Shia population, but I'm generally impressed by how they've 
conducted themselves, and I'm cautiously optimistic that the 
al-Sadr problem will be at least temporarily diffused. That's a 
lot of caveats. I don't mean to say that the situation is one 
we can take to the bank. But I'm worried a lot more about 
Fallujah than al-Sadr. That could be wrong, but, still, that's 
my broad image of Iraq, where 80 percent of the country is 
generally happy Saddam is gone, and with us in trying to build 
a better future.
    Looking now to economic trends, I don't have a lot of good 
news to report on the security side, and I will acknowledge 
that. All the trends that I've been tracking at Brookings--with 
my colleague, Adriana Albequerque, and with Ken Pollack's 
support--in this Iraq Index \1\ we do at Brookings, all the 
trends on the security side are almost uniformly bad in the 
last few weeks, so I'm not going to try to push my argument too 
far.
---------------------------------------------------------------------------
    \1\ The Iraq Index referred to can be found at: www.brookings.edu/
iraqindex
---------------------------------------------------------------------------
    But, on the economic front, we do see some real 
improvement, and there was a plateauing; frankly, not a lot of 
improvement in much of last fall--it's gotten better. Oil 
production, we've heard from the administration many times, is 
up in this calendar year a substantial amount. The facility-
protection service, which is helping provide protection against 
sabotage and other kinds of problems and attacks on the oil 
infrastructure, is doing a passable job. Now, granted, these 
are just people with guns told to man one post and not let 
somebody come at them and attack. It's not a very complicated 
job. It's not as instrumental to the security of Iraqis in 
their daily lives as the police. We've heard a lot of very 
compelling critiques of the police competence, which is not 
very high, but I think the facility-protection service, 75,000 
people who are involved in protecting key infrastructure, are 
doing a passable job, and I'm encouraged that oil production is 
up.
    Most quality-of-living indices in Iraq, as we indicate in 
our index, are up, as well, anywhere from 25 to 50 percent, 
sometimes a little more, sometimes a little less, but in that 
broad range. Whether it's the availability of cooking fuel, the 
availability of electricity, the availability of diesel, the 
use of cars in Baghdad, which, of course, still leads to long 
lines at the gas station, but, nonetheless, is a sign of life 
in the economy, a lot of these indicators are up by, again, 
roughly a quarter to a half, depending on which metric you 
examine.
    Telephone service has been restored to roughly pre-war 
levels. Water is now apparently in better shape than it was in 
the last months or years of Saddam's regime. There is a lot of 
progress. And even though only $3 billion of the $18 billion 
has been obligated, we've started to see some benefits even 
from that limited expenditure so far.
    So that's just a broad once-over on what I do see that's 
good. I certainly agree with Ken Pollack's point that security 
for most Iraqis is not nearly good enough. I agree with Michael 
Sheehan's point, we have to be much more effective in our 
training of police. That piece of the security puzzle is not in 
very good shape.
    But let me also quickly say a brief word about the Civil 
Defense Corps in Iraq. Even though it did not step up as much 
as we might have liked in the last month, frankly, I have to 
admit, I partially understand where they're coming from, 
because the nature of the insurgency that they are now being 
asked to help us counter is taking on an anti-American, anti-
Colonial-like flavor in Iraqi minds. It is not simply people 
trying to restore the Ba'athists to power or trying to attack 
Americans for the sake of killing them. And we are essentially 
asking the Civil Defense Corps, as its first main mission, to 
go in and support the United States in a highly politically 
contentious operation. So I'm not going to be too hard on the 
CDC for having had a bad month. They didn't step up, but I hope 
they'll step up more once Iraq is back in their hands, once 
Iraqis rule their own country.
    So even on the CDC, I'm not going to be too harsh. It 
really is the police of the five main services where I see the 
greatest shortfall in capability. It's a very serious 
shortfall. And, as a result, crime rates and other things are 
way too high in Iraq, security is way too limited. I agree with 
Senator Biden and Ken Pollack on that. But I'm still hopeful 
the other pieces of the security forces are moving in a more 
optimistic direction. Admittedly, the army is still way too 
small, but, again, I think at least we're trying to establish 
some levels of competence that may be the right way to go 
there.
    So now let me sum up a couple of thoughts on where I think 
we should go from here, with this not optimistic, but at least 
balanced, view of where Iraq stands today.
    The first point, of course, is, we have to hang in there. 
And Senator Biden said this, you've said this, Senator Kerry 
has said this. We all, as a Nation, I think, agree, we have to 
keep at it. And there's a good reason to think that if we keep 
at it, we will do pretty well.
    Second, I support the effort to transfer sovereignty on 
June 30, if we really can pull it off, but I share, Senator, 
your questions about, not only the composition of this new 
transitional government, but the powers of the new government. 
And I do think we have to start a debate on this, as well. I 
hope, if we have the debate, we can actually make the June 30 
date possible.
    But let me tick off four quick questions I have about that 
transitional government.
    One, if you're in the transitional government, can you also 
run for elections next year? Run in the elections, run for 
office? This is an important question. Maybe there's already an 
answer, but I haven't heard the answer if there is. It's 
important, because if you want a technocratic care-keeper 
government, you perhaps can ban people who are in this 
transitional government from running for office in January. But 
if you want this to be a very politically contentious and 
energized body, then you don't want to make that decision. I 
would lean toward a technocratic government, that has people 
who cannot run in January, in the interest of having a smooth, 
gradual transition process and not having too much controversy 
over who's chosen and who's left out of that body. That's one 
question.
    Second question. What budget resources will this 
transitional government have to obligate itself in the next 8 
months when they are the power-that-be in Iraq? I don't know. I 
don't know how much of the $18 billion we're going to ask them 
for advice on how to spend. I don't know how much of their own 
oil revenue is going to essentially be available to them that's 
not already obligated. I'd like to see more discussion of their 
budget power.
    A third question. What's their role going to be in the war-
crimes process? And, in particular, if somehow war criminals 
are tried and convicted before January, or whenever elections 
actually do occur, will this transitional government be the 
body that has the power to grant clemency or to negotiate some 
kind of a plea bargain with anybody they want to, perhaps, ask 
for help in calling off the insurgency, defusing the 
insurgency? Are you going to give this body any role in the 
war-crimes process, or are we simply going to try to hope that 
the trials last long enough that this transitional body doesn't 
have to make any of those tough decisions?
    And, finally, if you see future Fallujahs, will this new 
transitional government make a big part of the decisionmaking 
on how to handle them, or is the status-of-forces agreement 
that we're asking for going to accord us all the power to 
handle Fallujah-like situations? I think we have to wrestle 
with the issue of who's going to negotiate with insurgent 
leaders, and who's going to try to defuse future Fallujah-like 
situations, of which there will probably be several between 
July 1 and January.
    These are some of the questions I have. But if we do answer 
some of these, I'm still hopeful that we can make the June 30 
transition, and that will help the Civil Defense Corps and 
other Iraqis feel like they're defending their own country, not 
just defending our mission and our vision of what should happen 
in Iraq.
    Two last points and I'll stop. One, I agree 100 percent 
with Ken Pollack, and I think with much of what Michael 
Sheehan's driving at, although I won't put words in his mouth, 
we need to do more foot patrols. We're doing a lot of patrols 
in Iraq, 1,500 a day, by the latest count I get from DOD data. 
But they're in motorized vehicles, and I question whether 
they're effective enough.
    And crime is way too high, still, in Iraq. It's better than 
it was last summer, and that is some good news, but it's still 
way too high for most Iraqis to feel that there's meaningful 
progress in their daily lives.
    And, finally, I think, we have to increase the size of the 
standing U.S. Army. I'm wading into a politically controversial 
topic that is more maybe Armed Services Committee territory, 
but it's really not just Armed Services Committee territory, 
because the limits on the size of our army are constraining the 
debate about how many forces to add in Iraq in the near future. 
People are already thinking ahead to, how do you keep that 
force going if you need to sustain it next year? And I think we 
need to act quickly, because once you decide you need a bigger 
army, it takes you 2 to 5 years to actually produce it. And if 
we're going to be in Iraq for the rest of the decade, we need 
to do at least what some of the Members of this Congress, on 
both sides of the aisle have done, at least 50,000 more 
soldiers in the U.S. Army for the foreseeable future.
    I'll stop there.
    [The prepared statement of Dr. O'Hanlon follows:]

            Prepared Statement * of Dr. Michael E. O'Hanlon
---------------------------------------------------------------------------

    * Written remarks prepared by Michael O'Hanlon and Adriana Lins de 
Albequerque.
---------------------------------------------------------------------------
    Thank you Mr. Chairman, Mr. Ranking Member, and other members of 
the committee for the honor of testifying on the crucial matter of 
current U.S. Iraq policy. The body of my testimony is a statistical 
analysis of trends in Iraq since last April that my colleague Adriana 
Lins de Albequerque and I have been conducting over the past year, 
based largely on DOD data but also on journalistic accounts, other 
official information, and our own analytical judgments. We believe that 
tracking various metrics of progress (or lack thereof) in Iraq over an 
extended period provides useful perspective on what is going well, and 
what is not going so well, in that country today. It will come as 
little surprise that little is going well of late in the security 
sphere, even if one looks beyond recent coalition casualty figures to 
subtler and longer-term trends. Thankfully, there is reason for some 
tempered optimism on the economics and politics fronts--though as an 
analyst who has been generally positive about how the post-Saddam Iraq 
mission would unfold, I must concede that on balance things have not 
gone nearly as well as I had hoped or expected.
    Before presenting some of the key information from the index, I 
would like to briefly answer the questions you posed, Senator Lugar, in 
your April 8 letter inviting me to testify:

          What are the critical elements needed for a comprehensive 
        transition plan?

    Of course, many things are needed here--such as a proper pathway to 
true elections next year and to creation of an Iraqi constitution, 
assurances of minority rights and women's rights, a delicate balance 
between according Islam an influential role in Iraqi public life while 
protecting freedom of religion, methods of dealing with Saddam Hussein 
and other war criminals and more generally former Baathists, and 
adequate security for future leaders and public servants.
    But one thing above all else is needed now, and that is a 
legitimate body to which to transfer sovereignty in two short months. A 
key issue is whether those individuals in the interim government will 
be eligible to run for office in subsequent elections; my instinct is 
that they should not be eligible to run in next winter's planned 
elections, but in any case this is a critical matter to resolve. If the 
United Nations, through Mr. Brahimi, is successful in developing a 
caretaker government with general acceptability to most main Iraqi 
factions and key leaders, the general notion of transferring 
sovereignty by June 30 seems sound and workable. Not only that, it is 
desirable, given the need to defuse the growing feeling of anti-
Americanism in Iraq, which increasingly appears to fuel the insurgency.

          What should the roles, missions, and responsibilities be of 
        the United States, other Coalition partners, the Iraqis, the 
        United Nations and NATO to ensure the transition can succeed?

    Again, this is a complex question, but the most important policy 
point is that the United States must unambiguously support the United 
Nations, and exercise its leadership through that organization. We have 
lost a good deal of our legitimacy in Iraq, so we need to hope the UN 
can do better. On balance, the Bush administration now seems to agree 
with this argument, albeit very belatedly.

          Do we have enough resources, the right people and the right 
        organizational structure to do the job?

    We may need further tactical increases in troop strength, 
especially in Sunni regions, on the order of several thousands of 
additional troops. This makes me more persuaded than ever than we need 
a substantial, sustained increase in the size of the U.S. Army, to deal 
with subsequent rotations in Iraq and other missions, of some 50,000 
more active-duty troops (above and beyond what Secretary Rumsfeld has 
authorized using emergency powers and funds).
    I am hopeful that the Shiite uprising of al-Sadr's forces can be 
contained, since it does not appear to enjoy a wide following. 
Unfortunately, the same sort of conclusion may not be true in regard to 
Sunni regions in general and Fallujah in particular. President Bush's 
remarks at his 4/13 press conference that the insurgency is nothing 
more than a small group making a grab for power does not seem correct 
in reference to the Sunni region. There, it has taken on a more general 
anti-occupation/anti-American flavor (which is why I do agree with 
President Bush's desire to transfer sovereignty as soon as possible; 
doing so should help defuse the anti-American aspect of the 
insurgency).
    We may need more money but not yet. The key is to get the $18 
billion flowing, not worry too much right away about whether it will be 
enough.
    With that I will proceed to our Iraq Index,\1\ statistical metrics 
gauging trends in that country.

------------
    \1\ The Iraq Index referred to can be found at: www.brookings.edu/
iraqindex

    The Chairman. Thank you very much, doctor.
    Dr. Hashim.

   STATEMENT OF DR. AHMED S. HASHIM, PROFESSOR OF STRATEGIC 
                STUDIES, U.S. NAVAL WAR COLLEGE

    Dr. Hashim. Good morning, Mr. Chairman, Mr. Biden, members 
of the committee, ladies and gentlemen.
    It's a great honor to be able to testify before the Senate 
Foreign Relations Committee today. I'm testifying here in my 
capacity as a private citizen. The views expressed here do not 
represent the views of the Naval War College or any of its 
sponsoring agencies at all. My testimony, thus, is not the 
opinion of any government agency that I serve in or may have 
served in, knowingly or unknowingly. But my views are 
bipartisan----
    Senator Biden. We feel the same way.
    Dr. Hashim [continuing]. And to help our Nation navigate 
through these trying times. My views may not be popular, and, 
indeed, may be wrong, and even the recommendations unworkable. 
But as that great American General Patton once said--reputedly 
said, ``If everyone is thinking alike, someone isn't 
thinking.'' And, last but not least, I do not claim ideological 
or divine infallibility.
    And my goal here today is to assess the security situation 
as it stands in Iraq. Studying the insurgency and helping to 
develop a counter-insurgency campaign has been the focus of my 
entire academic and field experience for the last year, since 
May.
    I do not wish to dwell on mistakes or assumptions that got 
us here, but to really spend most of the time dealing with how 
we move on from this point.
    The twin goals of ridding Iraq of Saddam Hussein and of 
bringing about a stable democratic country were laudable goals 
that I support wholeheartedly. The first was achieved. The 
second, alas, has faced severe challenges. Without a doubt, the 
tenuous security situation in Iraq, in the country, since May 
2003, when the insurgency erupted, has contributed enormously 
to the slow pace of reconstruction, rebuilding, reconciliation, 
and the establishment of political stability.
    The violence in Iraq is not conducted by a small band of 
individuals, nor is it yet a full-fledged nationalist 
insurgency that incorporates the entire country. Once we 
realize and accept these two facts, we would be on the first 
step toward formulating a coherent counter-strategy.
    Most insurgencies have never witnessed a majority of the 
people effectively under arms. Populations either passively 
support an insurgency, in the sense that they do not betray it 
to the opposing side, or they actively support it by providing 
intelligence, food, supplies, and recruits. But, as I stated, 
it's not yet a full-fledged insurgency. Our task is to ensure 
that it does not become one.
    A chronological analysis basically shows that the situation 
has worsened immeasurably and that the number and kinds of 
people involved has changed. It's a dynamic situation. The 
insurgencies got more proficient. We killed most of the dumb 
ones. The tactics, techniques, and procedures of the surviving 
insurgents were more lethal. Second, their proficiency 
increased as a result of the role of former professional 
military personnel, who increasingly opted for the path of 
violence out of nationalistic reasons, including, in their 
view, the disbanding and dissolution of the Armed Forces.
    It is important to realize that, initially, most of the 
insurgents were truly former Saddam loyalists, FRLs--or 
``frills'' as we call them. By fall, disgruntled military 
personnel, with no profound sympathy for the defunct regime, 
but outraged over the loss of status, privilege, and jobs as a 
result of the disbanding of the Armed Forces, had increasingly 
joined the ranks of the insurgency. Therefore, November 2003 
was a terrible month in terms of casualties.
    However, our response, which hit the FRLs hard after 
November, had an unintended consequence. It allowed the rise to 
prominence of what I've decided to call an Islamo or Islamic 
nationalist element within the insurgency, which is made up of 
former military personnel, and which has received its 
motivation and encouragement from the preaching of the Sunni 
clergy, which has shed its traditionally insignificant role in 
the affairs of the community, and has come into greater 
prominence.
    We thought that Iraq would be on the way to civil war by 
early this year. But, instead, what has happened is the 
unleashing of a kind of Shia insurgency by Muqtada al-Sadr and 
his Mahdi army. What we need to understand about the Muqtada 
phenomenon is that it's not primarily a religious one; rather, 
it is a populist one. Therefore, attacking his nonexistent 
religious credentials simply because he's young and has not 
reached a level of religious learning within the Shia clerical 
establishment is really quite beside the point.
    Muqtada is political. He is a populist with xenophobic 
tendencies, does not like foreigners, particularly Iranians, 
even as he takes material aid from them. Indeed, among the 
reasons of Muqtada's distaste of Ayatollah al-Sistani is the 
fact that the latter is Iranian by origin. Muqtada al-Sadr's 
constituency is the young, disgruntled men of towns such as 
Madinat al-Sadr, a large, sprawling, squalid and fetid suburb 
of Baghdad, where the unemployment rate hovers around 70 
percent, and al Kut, which faces a similar unemployment problem 
of 80 percent.
    It is clear from my analysis of the situation on the ground 
and from statements of various Shia clerics over the course of 
the past several months, that the Shia were prepared to 
challenge the authority and legitimacy of the Coalition if the 
gap between its promises and its achievements were too great. 
And the Shia leader best prepared to undertake that challenge 
was none other than Muqtada. As Hassan Zirkani, a pro-al-Sadr 
cleric in Madinat al-Sadr, bluntly put it in November 2003, 
``We had hoped that some of the problems might have vanished by 
now.'' What were these problems? Lack of law and order, rampant 
unemployment, lack of basic services in Shia urban areas, and 
alleged Coalition disregard for the cultural and societal norms 
of the population.
    Before I move on to discuss what we need to do, I must 
reiterate my starting assumption. We are faced with a 
phenomenon that is bigger and more dangerous than a small band 
of thugs and extremists, but it's somewhat less than full 
national insurgency. We are closer to the latter than the 
former. Our task is to roll back any dynamic progression of the 
insurgency. That task should begin now, before the transfer of 
sovereignty, but it does not end with the transfer of 
sovereignty. It will take a long time, but where do we start? 
Let me propose some ideas. They're not particularly original, 
but they need to be reiterated constantly.
    First, we must develop a clear and coherent political goal. 
If we do not, the result will be the continuation of reactive 
ad hoc measures that are simply reactions to the insurgency. We 
must take the initiative. This is a war in which the political 
is paramount. The insurgents have a goal, and we should have a 
clearly articulated goal.
    Our task is to ensure that the population understands and 
believes in this goal. To many Iraqis, we don't seem to have a 
goal that they can believe in. We need to reiterate and to 
repeat that the goal is to establish a sovereign, stable, and 
secure Iraq, and that this will proceed in stages, and that 
much of this depends on combating the insurgency.
    Second, we must have a coherent and integrated plan. If we 
know what the political goal is, we must develop an overall 
plan in support of that goal. Fighting insurgency is a complex 
job.
    Third, within that overall plan, we need to restore 
stability and security in the short term. By the short term, I 
mean, the next 3 months to a year. I want to focus on this, 
because thinking about the long term is irrelevant until we 
restore security.
    What could we do? Increase the number of troop levels. And 
I want to reiterate what my colleagues said, and I don't want 
to repeat it, though. I agree with most of their assumptions.
    Second, seal and police Iraq's porous borders. Iraqis have 
complained bitterly about the open borders. Begin 
reconstituting Iraq's security forces. Deal with the militias, 
deal with the shadow warriors, implement a two-pronged 
information-operations campaign, and we must ensure that our 
counter-insurgency functions within the law.
    Ladies and gentlemen, I have made some points here that I 
hope have given you a flavor of the situation. We face major 
challenges, but we should maintain a steady and determined 
course in trying to bring order, security, and stability in 
that hapless country. We should not ``cut and run.'' It's 
difficult to change course in mid-term, in midstream, but that 
is no excuse for not trying. The ability to learn or move 
forward under stress is the hallmark of a great organization 
and of a great country.
    Thank you very much for your patience.
    [The prepared statement of Dr. Hashim follows:]

               Prepared Statement of Dr. Ahmed S. Hashim

    Good Morning, Ladies and Gentlemen:
    It is a great honor to be able to testify before the Senate Foreign 
Relations Committee. I am testifying here in my capacity as a private 
citizen. The views expressed here do not represent the views of the 
Naval War College or any of its sponsoring agencies. My views are 
intended to be bipartisan and to help our nation navigate through these 
trying times. My views may not be popular and indeed, they may be wrong 
and the recommendations unworkable. But as that great American general, 
Patton, once reputedly said: ``If everyone is thinking alike, someone 
isn't thinking.'' Last, but not least, I do not claim either 
ideological or divine infallibility.
    My goal today is to assess the security situation as it stands 
today in Iraq. The last two weeks have been horrific in terms of the 
violence and casualties; while we need to understand how and why we got 
to that point, dwelling on mistaken assumptions and failures is not as 
important as assessing what we need to do from this point onwards 
within the dictates of the President's speech of April 13, 2004, which 
showed an unswerving determination to transfer sovereignty to a 
provisional Iraqi government by June 30, 2004. Of course, dealing with 
the insurgency and with the general issues of lawlessness, terrorism, 
and organized crime will continue to be mettlesome problems beyond the 
transition to sovereignty.
                         ``the perfect storm?''
    The twin goals of ridding Iraq of the incorrigible and brutal 
regime of Saddam Hussein and his cronies and of bringing freedom and a 
semblance of stable democratic governance to Iraq were laudable goals 
that I support wholeheartedly. The first was achieved by our 
magnificent armed forces with the help of our coalition partners. The 
second, alas, has faced severe challenges. Without a doubt the tenuous 
security situation in the country since May 2003 has contributed 
enormously to the slow pace of reconstruction, rebuilding, 
reconciliation, and the establishment of political stability.
    The violence in Iraq is not conducted by a small band of 
individuals, nor is it yet a full-fledged nationalist insurgency that 
incorporates the entire country. Once we realize and accept these two 
facts we would be on the first step towards formulating a coherent 
counter-strategy. Most insurgencies have never witnessed a majority of 
the people effectively under arms. Populations either passively support 
an insurgency in the sense that they do not betray it to the opposing 
side; or they actively support it by providing intelligence, food, 
supplies and recruits. But the Iraqi insurgency is not yet a full-
fledged self-sustaining insurgency. Our task is to ensure that it does 
not become one.
    A chronological analysis of the political climate in Iraq from 
spring 03 to spring 04 shows a depressing and steady downturn in the 
security situation. First, we began in May 2003 with the outbreak of a 
persistent insurgency by elements of the Sunni Arab population. The 
grievances of that minority group, our mistaken assumption that they 
would accept their loss of status and privileges ``lying down,'' and 
certain aspects of our response to their discontent fanned the flames 
of violence. Second, the law and order situation in the country was 
challenged by the total collapse of an already ineffective police force 
coupled with the rise of vicious criminal gangs that terrorized the 
Iraqi populace and which also engaged in massive smuggling of goods and 
drugs into the country through its unguarded borders. Saddam Hussein 
had let out of his prisons over 200,000 hardened and petty criminals. 
We simply did not have enough manpower to police Iraq and protect the 
citizens while at the same time fully engage in combating the 
insurgency.
    By fall-winter 2003 matters had gotten worse. Firstly, the 
insurgents got more proficient. We had killed most of the dumb ones; 
the Tactics, Techniques and Procedures (TTPs) of the surviving 
insurgents were more lethal. Secondly, their proficiency had increased 
as a result of the role of former professional military personnel who 
increasingly opted for the path of violence out of nationalistic 
reasons. It is important to realize that initially most of the 
insurgents were truly Former Saddam Loyalists (FRLs). By fall 
disgruntled military personnel with no profound sympathy for the 
defunct regime but outraged over the loss of status, privilege, and 
jobs as a result of the disbanding of the armed forces in May 2003 had 
increasingly joined the ranks of the insurgency. November 2003 was a 
terrible month in terms of casualties for us. The response of U.S. 
forces was to go after the insurgents with greater vigor. However, the 
response which hit the FRLs hard and disrupted them significantly, 
particularly following the capture of Saddam Hussein, had unintended 
consequences. It allowed the rise to prominence of an Islamo-
nationalist element within the insurgency which is made up of former 
military personnel and which has received its motivation and 
encouragement from the preaching of the Sunni clergy which has shed its 
traditionally insignificant role in the affairs of the community and 
has come into greater prominence.
    These ``Islamo-nationalist'' insurgents showed greater motivation 
and dedication than the FRLs or the free-lance insurgents of the early 
months of the insurgency. More ominously the new insurgents showed a 
dramatic improvement in small-unit fighting skills during the bloody 
outbreak of fighting in the Sunni areas in April 2004. They have shown 
an ability to stand and fight, rather than merely to ``shoot and 
scoot'' or ``pray and spray'' as in the past, to conduct coordinated 
small unit ambushes and attacks against U.S. forces as in Ramadi in 
early April, and to press attacks on supply convoys.
    Thirdly, young men from the various Sunni Arab tribes had also 
begun to swell the ranks of the insurgency. They were infuriated by 
what they saw as outrageous behavior by U.S. forces. Fourth, foreign 
terrorists and Sunni extremists began to play a larger role in the 
insurgency. These groups went for the suicide bombs and the massive car 
bombings that devastated several targets in Baghdad and elsewhere with 
serious loss of life. The influx of foreign terrorists and religious 
extremists is not a massive one; what is more important than their 
relatively small numbers is the fact that they constitute a force 
multiplier and are willing to engage in operations that most Iraqi 
insurgents would prefer to stay away from such as extremely bloody 
suicide attacks. By January-February 2004 many commentators believed 
that Iraq was on the verge of civil war since the modus operandi of the 
Sunni extremists had contributed to the widening of a yawning chasm 
that existed between the Sunni and Shi'i communities.
    Instead, by the end of March 2004--and to everyone's surprise--
significant elements of the Shi'i community rose in open rebellion 
against the coalition when the firebrand cleric Muqtada al-Sadr 
unleashed his so-called Mahdi's Army against the coalition. Suddenly, 
the coalition was faced with the unsavory prospect of a two-front war.
    What we need to understand about the Muqtada phenomenon is that it 
is not primarily a religious one rather it is a populist one. 
Therefore, attacking his non-existent religious credentials simply 
because he is young and has not yet reached a level of religious 
learning within the Shi'i clerical is besides the point. Thus attacking 
his superficial religious credentials as part of our counter-campaign 
is a waste of time, effort, and resources. Muqtada is political: he is 
a populist with xenophobic tendencies who does not like foreigners, 
particularly Iranians, even as he takes material aid from them. Indeed, 
among the reasons of Muqtada's distaste of Ayatollah al-Sistani is the 
fact that the latter is Iranian by birth. Muqtada caters to the most 
dispossessed elements within the long-suffering Shi'i community. His 
constituency is the young disgruntled men of towns such as Madinat al-
Sadr--a large sprawling squalid and fetid suburb of Baghdad where the 
unemployment rate hovers around 70%; and Al-Kut which faces a similar 
unemployment problem. It is clear from my analysis of the situation on 
the ground in Iraq and from statements of various Shi'i clerics over 
the course of the past several months that the Shi'is were prepared to 
challenge the authority and legitimacy of the coalition if the gap 
between its promises and its achievements were too great. And the Shi'i 
political leader best prepared or able to undertake that challenge was 
none other than Muqtada. It was not easy for the senior and more 
established Shi'i political leaders on the Iraqi Governing Council to 
take a strident role of dissent. As Hasan Zirkani, a pro-al-Sadr cleric 
in Madinat al-Sadr bluntly put it in a November 2003 prayer meeting: 
``We had hoped that some of the problems might have vanished by now.'' 
What were these problems: lack of law and order, rampant unemployment, 
lack of basic services in Shi'i urban areas; and coalition disregard 
for the cultural and societal norms of the population.
    Muqtada's revolt has won support and admiration among Sunni 
insurgents who have plastered his picture on the walls of Sunni-
dominated towns. This would have been unheard of just several weeks 
ago. Members of the Mahdi's Army have begun to cooperate with the Sunni 
insurgents and there are rumors that a number tried to infiltrate into 
Fallujah. However, there has not yet been a coalescing of the Sunni 
movement and that of Muqtada's. Muqtada's poorly-trained and ill-
equipped militia has more to gain from the Sunni insurgents than the 
other way round.
    More importantly, Muqtada has gained traction with many Shi'is 
because of his perceived courage in standing up to the coalition. 
Whether he did this in self-defense or whether he saw it as an 
opportune time, his act of defiance struck a chord with many Shi'is 
because by late March 2004 many within that community had begun to see 
the June 30th agreement to transfer sovereignty to Iraqis as bogus and 
that Iraq would continue to remain under barely concealed U.S. control 
beyond that date. As one Shi'i radio outlet reported: . . . ``The 
supposed restoration of national sovereignty, of course should be 
preceded by an end to U.S. occupation. The plan, however, entrenches 
the occupation and legitimizes its presence . . .''
    Nonetheless, what we need to understand is that Muqtada has not yet 
been able to foment a Shi'i-wide revolt. First, many Shi'is are simply 
terrified of his political vision of an Islamic government ruled by 
politicized clerics. Second, while he has made some headway in becoming 
a more nationally-recognized leader as a result of his pugnacious 
statements calling upon Iraqis to launch a nation-wide revolt and upon 
the coalition to leave; this has not been enough. He has yet to 
transcend the bounds of his own uncouth constituency. Third, if 
political power grows out of the barrel of the gun, Muqtada has the 
least number of barrels in Iraq. His militia is the weakest in the 
country; and it does not even begin to compare with the formidable 
militias of the Supreme Assembly of the Islamic Revolution in Iraq (the 
Iranian-trained and commanded Back Organization); the Da'wa Party, and 
Iraqi Hizbullah. In this context, what can happen in the coming days 
really depends more on what further mistakes the Coalition Provisional 
Authority makes vis-a-vis Muqtada as much as any moves the Iraqi cleric 
himself may make.

                          WHAT IS TO BE DONE?

    Before I move on to discuss what we need to do, I must reiterate my 
starting assumption: we are faced with a phenomenon that is bigger and 
more dangerous than a small band of thugs and extremists but somewhat 
less than full-scale national insurgency and terrorism. Alas, we are 
closer to the latter than the former. Once the entire Shi'i community 
rises up in arms, our position in Iraq becomes totally untenable and 
there would be no option but to leave. Our task is to roll back any 
dynamic progression of the insurgency. That task should begin now 
before the transfer of sovereignty, but it does not end with the 
transfer of sovereignty. It will take a long time. But where do we 
start?
    First, we must develop a clear and coherent political goal. If we 
do not, the result will be the continuation of reactive ad hoc measures 
that are simply reactions to the insurgency. This is a war in which the 
political is paramount. The insurgents have a goal and we should have a 
clearly articulated goal. Our task is to ensure that the population 
understands and believes in our goal. To many Iraqis we don't seem to 
have a goal that they can believe in. We need to reiterate and to 
repeat that the goal is to establish a sovereign, stable and secure 
Iraq and that this will proceed in stages; and much of this depends on 
successfully combating the insurgency. And in order to combat the 
insurgency, terrorism and lawlessness we should tell the Iraqis that we 
need their active participation. We can no longer adhere to the fantasy 
that we will be able to control Iraq behind the scenes or impose whom 
we want on the country, a major reason why April 2004 has been such a 
bloody month to date. The spike in the insurgency this month and the 
greater participation of the U.N. in smoothing the transition to 
sovereignty have had the unintended consequence of losing our control 
over Iraq's political dynamics and future. Nonetheless, we can still 
turn this to our advantage by informing the population that what they 
seek--stability, law and order, and economic revival--is our paramount 
goal too.
    Second, we must have a coherent and integrated plan. If we know 
what the political goal is; then we must develop an overall plan in 
support of that goal. Fighting insurgency or terrorism is a vastly 
complex job. It was the British officer, T.E. Lawrence who said that it 
is akin to eating soup with a knife. It is one that incorporates 
military/police, information operations, intelligence, administrative, 
political and socioeconomic measures implemented in parallel moving 
along a spectrum from security focused measures to nation-building 
measures as stability and security are progressively restored.
    Third, we need to restore stability and security in the short-term. 
By the short-term I mean between the next three months to a year. I 
want to focus on this, rather than the long-term which we cannot afford 
to think about at the present until the situation stabilizes. We could 
do the following:

  <bullet> Increase the number of troop levels: This is a highly 
        controversial issue. We simply do not know where the extra U.S. 
        troops will come from or ultimately how much will be available. 
        It does not look likely that we will take them out of 
        Afghanistan. It is more than likely that we will be activating 
        reserve and National Guard units. Hypothetically, we will need 
        tens of thousands to deal with the insurgency with any degree 
        of success.

  <bullet> Seal and police Iraq's porous borders: Iraq's borders are 
        wide open; the new Iraqi border guards face considerable 
        challenges: they are ill-trained, poorly-equipped, and few in 
        number. Iraqis have complained bitterly about their unpoliced 
        borders. The influx of foreign terrorists and insurgents has 
        not been great in terms of quantity; however, what matters is 
        the quality of the infiltrators. They have had a combat 
        multiplier effect with respect to the insurgency. Last but not 
        least, control over the country's borders will affect the 
        burgeoning drug trade into Iraq which is being undertaken by 
        organized criminal groups.

  <bullet> Begin reconstituting Iraq's security forces: There are 
        several integrated elements to the reconstitution of the Iraqi 
        security forces. First, we need to recall most of the former 
        military forces back to service. Although it may be too late 
        because tens of thousands were alienated by the dissolution of 
        the armed forces last year; if we were to succeed in bringing 
        back a substantial number into service, we will deprive the 
        insurgency of a vast pool of trained manpower. Second, we 
        simply cannot throw the Iraqi security forces, particularly the 
        ones we have stood up, into them the COIN fray because they are 
        not trained, equipped or cohesive enough as forces. Creating 
        effective Iraqi security forces is a long hard and painstaking 
        task. Moreover, as we proceed in this task the focus of our 
        efforts should be on the police and the internal security 
        forces, rather than the New Iraqi Army. Internal security and 
        the re-establishment of law and order is what the Iraqis need.

  <bullet> Deal with the militias: In theory, we should be able to 
        begin to disband and disarm militias and possibly integrate 
        former members into the Iraqi security forces. Militias are one 
        of the greatest obstacles to political stability and economic 
        reconstruction in societies endeavoring to recover from 
        conflict. The Coalition Provisional Authority has already 
        indicated its intention of doing something about the militias. 
        This is easier said than done. Making militias go away has not 
        been easy in other post-conflict societies and it will not be 
        easy in Iraq. Militias justify their existence by stating that 
        they provide protection for their neighborhoods, communities, 
        ethnic and religious groups. If the state cannot provide 
        security and law and order, this view is understandable. The 
        militias also justify their reluctance to disband or disarm by 
        stating that they are not provided with the incentive to do so. 
        In Iraq, the state or coalition forces have faced considerable 
        challenges in providing nation-wide and equitable security and 
        have not provided incentives for the militias to lay down their 
        arms. Instead, of trying to force them to disband right away, 
        we could implement a disarmament process in stages. The 
        militias would be asked to surrender their heavy weaponry, thin 
        out their numbers, and then surrender their light arms. This 
        would, of course, be dependent on the state being able to 
        slowly but surely increase and expand its security functions, 
        its implementation of basic services to the communities, and on 
        the provision of monetary incentives for the surrender of the 
        arms. We would not insistent that the militias disband we would 
        hope that their members either integrate into the security 
        forces or become ``regular'' members of the political parties 
        that they ostensibly serve.

  <bullet> Deal with the ``Shadow Warriors:'' We need to thin out the 
        number of private security providers or rein them in. Many of 
        them have done a great job in Iraq, but they are unregulated, 
        often not effectively trained for particular jobs, and most 
        important of all, it has been said that their attitudes towards 
        Iraqis have been suffused with contempt. The Iraqis have 
        complained more about them than about any other armed foreign 
        force in the country. They are simply a hindrance to the 
        effective implementation of a hearts and minds campaign.

  <bullet> Implement a two-pronged Information Operations campaign: Our 
        IOC has faced severe challenges in Iraq. We need to revisit it 
        and we need to implement a two-pronged campaign that is 
        directed both at the insurgents and at the population. The aim 
        of the first prong is to reduce the willingness and 
        determination of the insurgents to continue fighting. The aim 
        of the second is to motivate the population to the side of the 
        government. In order for it to have a chance of success, we 
        need to tie such a campaign to our overarching political goal 
        and we need to denigrate the goal(s) of the insurgents (You are 
        fighting and dying to kick us out? We are going to leave. What 
        is your vision for the future of Iraq? Do YOU have one? If you 
        do why are you fighting and dying for it when Iraq will be 
        free?), while promoting ours.

    Fourth, our COIN effort must function within the law. In order to 
be successful in our political goal and the overall operational plan, 
we need to win the hearts and minds of the Iraqis. I know that many 
people, particularly after the atrocity in Fallujah in early April, are 
not interested in winning the hearts and minds of the Iraqis. However, 
to believe that a COIN campaign is solely about sticks rather than 
carrots and sticks is mistaken. The Iraqis believe that our COIN 
campaign has been largely one of sticks with few, if any carrots. If 
this is accurate, we would need to rectify it. If we do not act within 
the bounds of the law, we risk inflaming the insurgency and fanning the 
flames of violence. To act within the law does not preclude the 
implementation of tough counter insurgency and counter-terrorism laws. 
If it is merely a perception, we would need to counter it.
    Ladies and Gentlemen, I have made some points here that I hope has 
given you a flavor of the situation in Iraq. We face major challenges 
there, but we should maintain a steady and determined course in trying 
to bring order, security and stability in that hapless country. We must 
temper our long-term visions and desires and focus on what is 
practical. It is difficult to change course or try alternative 
approaches in mid-stream, particularly, when one is under a challenging 
and dynamic environment, but that is no excuse for not trying. The 
ability to learn or move forward under stress is the hallmark of a 
great organization and of a great country. Thank you very much for your 
patience.

                               REFERENCES

    Hashim, Ahmed, ``The Sunni Insurgency in Iraq,'' Middle East Policy 
Brief, August 2003 (electronic article).
    Interviews and Observations in Iraq, November 2003-March 2004.
    Ricks, Thomas, ``Insurgents Display New Sophistication,'' 
Washington Post, April 14, 2004.

    The Chairman. Well, thank you very much, Dr. Hashim.
    We will ask the committee members to take a 10-minute 
period for questioning. We will have rotation after the first 
round. Other Senators may join us. I know that Senator Dodd 
will return after his responsibilities.
    Gentlemen, let me just set the stage for my questioning by 
quoting from a story in the Los Angeles Times, written by Mary 
Curtis and Janet Hook. They're describing the Senate Armed 
Services Committee hearing that proceeded simultaneously with 
our hearing yesterday. The authors say, ``Stifling private 
concerns about the direction of events in Iraq, Senate 
Republicans, on Tuesday, gave the Bush administration a largely 
supportive platform for restating the case for war as Congress 
began 3 days of hearings. Deputy Defense Secretary Paul 
Wolfowitz, appearing before the Senate Armed Services 
Committee, used the friendly forum to focus on the atrocities 
committed by Saddam Hussein before U.S. invasion, not on the 
challenges ahead. He offered only sparse details on the 
questions of what the administration thought would emerge in 
Iraq or the relationship the U.S. military would have with the 
Iraqi Government after the transition.'' He said, and this is a 
quote, `` `I cannot sit here today and predict the exact form 
of the permanent government,' Wolfowitz said, `but even an 
imperfect Iraq democracy would be an improvement, light years 
beyond what the country has endured for the past 35 years. The 
interim Iraqi Government will be selected by procedures being 
developed through intensive consultation among Iraqis, led by 
Ambassador Lakhdar Brahimi, United Nations Secretary General 
special advisor on Iraq,' Wolfowitz said. He described 
Brahimi's ideas as forming an interim government as promising, 
and added, `We look forward to more details from the United 
Nations.' Yet Republicans on the Armed Services Committee 
closed ranks to support the administration's policies, even 
though some acknowledge, outside the hearing room, that 
pressure from constituents is growing. Republicans are joined 
by many of the panel's Democrats, suggesting that most members 
of the Senate, thus far, see few political benefits to be 
gained from challenging the administration's conduct of the 
war. Indeed, a senior Republican strategist said he viewed this 
week's Iraq hearings not as an occasion to grill administration 
officials or pose skeptical questions, but as an opportunity 
for the administration to come up here and lay out their case 
and talk about why they are doing the right things.''
    The authors then diverged from that hearing with this one 
sentence, ``Separately, the veteran chairman of the Senate 
Foreign Relations Committee, Indiana Richard Lugar, reiterated 
his concerns about the direction of U.S. policy, but such 
moments were rare,'' and so forth.
    Now, I mention this simply because, obviously, our hearing 
yesterday was of a very different character. Your testimony 
today obviously shows some substantial concerns that Senator 
Biden and, I suspect, other members, when they have an 
opportunity, might bring to the fore. I say all that in 
preface, because the questions that I'm going to ask now, on 
the basis of your testimony, are not necessarily disturbing, 
but they are ones that I think really have to be answered.
    Specifically, Mr. Pollack mentioned that security must be 
paramount for the next 6 months. General Joulwan said that 
security is a mission, a mission the same way as fighting a 
war. Mr. Sheehan then added that a solid, legitimate process 
has to be there for security to proceed, whether it's 5 years 
or whether it's the next 6 months. I think that the questions 
that were raised by Dr. O'Hanlon are important. That is, what's 
the relationship between this government of people who are 
unknown and the United States security forces? Here we have a 
situation in which you're saying that this is paramount. For 
the next 6 months, we will devote all of our best efforts. Some 
are suggesting that 40,000 additional United States forces 
might be required to do this. Perhaps it is time to encourage 
our allies, in Europe or elsewhere, to warm up to the task of 
sending in more troops of their own within the 6 months. On 
June 30, sovereignty or something like it is going to transfer 
to people who are now unknown.
    Who will these people be? Yesterday, one of our witnesses 
suggested at least three or four people now serving on the 
Governing Council who look like prime prospects for president 
of the country or vice president. To create some balance, there 
might be a Kurd among the four, and probably a Sunni, maybe two 
Shi'ites.
    Dr. O'Hanlon, you mentioned that these people might have 
pledged, ``We're not going to run. We are technocrats.'' Well, 
perhaps. But the people that were suggested yesterday in the 
hearing looked, to me, like fairly viable candidates for 
leadership. The suggestion was that those who were not selected 
for this group might be very disgruntled by being passed over, 
and that those who do make the cut are people who may have some 
ambition to rule.
    Mr. Brahimi is apparently making the decisions, with his 
consultants. Our government, if Mr. Wolfowitz's testimony is to 
be taken at face value, says, you know, ``He's working on 
this.'' I wouldn't want to hazard a guess right now as to what 
the formulation may be.
    You're telling us, given this rather vague situation, we go 
hell-for-leather for strong security for 6 months, because 
without it this fledgling government doesn't have much of a 
chance. I've already suggested, as a practical politician, that 
whoever these people are, they're basically unknown. Iraqis 
don't yet have a great deal of confidence in them, as it 
stands.
    Everybody seems to be agreed that this is going to happen 
on June 30. The President has underlined that again and again. 
So did most of our witnesses yesterday, for a variety of 
reasons.
    I'm trying to gain some clarity as to what the procedure 
ought to be. Will we have or need a status-of-forces agreement? 
For the next 6 months at least. We're going to be involved in a 
very tough mission providing security for the country. This 
answers your question, Dr. O'Hanlon, that they are second-
guessing whether we go to Fallujah or not, or what else we do. 
Some are suggesting that that's precisely the type of decision 
that this group is going to make. This puts the Iraqi face on 
it. If U.S. forces go to Fallujah, it's because the Iraqis want 
that kind of intervention. Yet it takes time to vet and train 
Iraqi forces who might have the confidence of the Iraqi people 
and who might be adequately able to maintain security. Only 
United States forces, plus some of our allies for the moment, 
could suppress large groups of insurgents, or others who might 
want to upset the entire democratic state and who may find that 
that is in their interest.
    So I ask--maybe start with you, Dr. Pollack--given all the 
testimony you've heard, as well as the testimony that you gave, 
which is a brilliant essay in its own right, how do we achieve 
security--which is the focus of our hearing this morning--and, 
at the same time, respect this June 30 date, the U.N. process 
that we have welcomed, with all of its uncertainties? How much 
certainty should we require? In other words, before June 30, 
should we know the names, should we have the status-of-forces 
agreement? Should we have pinned down the United Nations 
resolutions, for legitimacy?
    The answer seems to be, thus far, I think, for the 
administration, `Not so fast. That will follow.'' The U.N. may 
come in behind this with a status-of-forces agreement with this 
group. Nonetheless I see a potential for some misunderstanding 
and some slippage. What sort of testimony can you give on this?
    Dr. Pollack. Thank you very much, Mr. Chairman.
    First, I'll say that I think you are focusing on an 
absolutely critical issue, one that we do have to get right. In 
answer, in direct response to your question, ``Do we need to do 
all of this before June 30,'' ideally, yes. I think it would be 
much better to have it done before June 30. I don't think it 
essential. I can think of ways that we could deal with the 
issue that would allow it to go past June 30, but I think it 
will be harder, and I think we will have to be very careful 
about how we do that.
    Let me make a couple of quick points to fill out that 
broader statement. First, what the Iraqis are looking for on 
June 30 is a transfer of administrative authority. They don't 
know what sovereignty means. Honestly, we don't either. 
Academics debate it endlessly. And sovereignty doesn't do 
anything for them. They want to put an Iraqi face on the 
occupation. They want to see Iraqis giving orders, not 
Americans. And that's something understandable. It's something 
that I think the CPA understood. It's why they went forward 
with this process.
    As far as what June 30 looks like, I think that there are a 
variety of different possible solutions. I would agree with my 
good friend, Mike O'Hanlon, that one potential solution out 
there is to have a purely technocratic government, to forbid 
everyone who takes those positions from running again. I would 
be perfectly comfortable with that.
    I will also tell you that I would also be quite comfortable 
with a situation where you did allow true political leaders to 
take those jobs. And I can come up with some names for you, if 
you'd like; but I think that they are names known to Lakhdar 
Brahimi--people who actually do, in some cases, serve on the 
Governing Council--if they are the right people. They have got 
to be people who the Iraqis themselves respect.
    And in that respect, Mr. Chairman, allow me a slight 
digression to say Ahmed Chalabi cannot be one of those names. 
It is a disgrace that we continue to push Ahmed Chalabi the way 
that we do. I read Dr. Dodge's testimony yesterday. I thought 
it was excellent testimony. There's one number that he failed 
to point out in that remarkable poll that was conducted several 
weeks ago, which was that on the list of candidates of people 
in Iraq who are most distrusted, those who folks said they do 
not trust at all, the candidate who got the highest number of 
votes in the ``do not trust at all'' category was Ahmed 
Chalabi. He was the only one to be in double digits. He was, by 
far, the highest one. He was over three times--more than three 
times as many votes as the next-highest candidate on that list, 
who was Saddam Hussein. That is the candidate that we have been 
pushing.
    I think it is a disgrace, as well, that Ahmed Chalabi is 
allowed to stand up and say that he thinks the militias should 
continue. Is this someone we should be supporting? We, all of 
us on this panel before you, and, I think, everyone who knows 
anything about Iraq, recognize the militias must be disarmed or 
there will never be security in Iraq.
    And I will make a prediction to you. It is inconceivable to 
me that we continue to provide Ahmed Chalabi with $340,000 a 
month to keep control of our treasure trove of documents from 
Iraqi intelligence files about other Iraqis. My prediction to 
you is this, Mr. Chairman. In a year, or 2 or 5 years, you and 
Senator Biden will commission an investigation into exactly 
what was done. And my expectation is that you will find that 
Ahmed Chalabi systematically destroyed records that 
incriminated he and his cronies, and used other records to 
bribe and blackmail other people in Iraq into supporting him, 
and probably even fabricated others, but that implicated rivals 
of his in activity supportive of Saddam's regime. That 
certainly has been the record that we have seen from him so 
far. And I simply do not understand why we allow him to 
persist.
    Let me finally say, to come back to your original point, 
ultimately what we need before June 30 is, we need an interim 
government that is accepted by Grand Ayatollah al-Sistani and 
other key leaders inside Iraq. And I will tell, very honestly, 
whatever Lakhdar Brahimi can come up with that al-Sistani and 
other genuine Iraqi leaders can buy into should be good enough 
for us, because that's the only way that you are going to 
engender any degree of Iraqi popular support for this 
transitional government, and that is absolutely critical, as 
all of us have said, in helping the political, economic, and 
security processes go forward.
    The Chairman. Thank you. If others want to comment in this 
general round, I'll entertain comments.
    Mr. Sheehan.
    Mr. Sheehan. Thank you, Mr. Chairman.
    Let me just make one comment about Lakhdar Brahimi, a man 
I've known for many years and consider a very close friend, and 
tell you some insights on how I think he will do this.
    First of all, he will want a process that works, and he 
will try to first figure out who are the key players that will 
ensure success of this interim leadership. He will gauge which 
outside powers to include--obviously, the U.S. Government, and 
others that have a real influence on the success of the 
operation. In my conversation with him, he discounted some who 
I thought he might include on that, because they really, in his 
view, won't matter to the success of this interim situation. He 
will look at regional players, and, most importantly, what will 
work for Iraqi people. And he has the ear of the key 
constituencies that will determine whether or not it will be 
successful. And I have great confidence that the names he will 
select will be what he considers--consulting very carefully 
with all those factors of success--will be what he considers 
most successful.
    Let me make one comment that having a U.N. political 
process there will provide great cover for a lot of the 
suggestions that were made on this panel and in other fora. And 
I just want to underscore, as well, that there are many options 
for U.N. involvement in the future, many of which have been 
tried in the past. And even if you have a U.N. political 
mandate and U.N. resolutions, the U.S. military can retain 
virtual complete control, certainly over its forces, but also 
of the security environment as a whole. And I think those types 
of solutions ought to be reviewed and considered that will 
ensure American security concerns are met and give enough 
political cover for a lot of the other problems we've 
addressed--bringing in other military and police forces, 
disarming the legitimacy of the insurrection, and many of the 
other issues here--can be worked out with a little bit of 
flexibility from the administration and its partners in Europe.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Did you have a comment, Dr. Hashim?
    Dr. Hashim. No, sir.
    The Chairman. Very well.
    Senator Biden.
    Senator Biden. Thank you very much, Mr. Chairman.
    I must say, this panel is extraordinary, and it absolutely 
frustrates me in my ability to adequately express it. Someone--
I won't embarrass him--passed me a note that said, ``Doesn't it 
make you want to cry that they didn't listen to these guys?''
    Anyway, let me round out the Chalabi piece in just a very 
quick second. I wrote a letter, on April 14, to the Secretary 
of Defense laying out my concerns about Mr. Chalabi. And I 
said, I would appreciate an answer to the following questions. 
What amount of funding is provided to the INC every month, and 
for what purpose? And what's the funding source? Why are the 
payments being made? Is there a contract, a grant agreement or 
other document governing the expenditure of these funds? If so, 
who do we provide--in other words, who's going to oversee this? 
How do we find out how it's used? Is the CPA providing 
financial assistance or payments to other political parties? If 
so, please provide this. Press reports indicate that during the 
war, the INC took possession of a large cache of Iraqi 
documents. Has the INC provided these documents to the CPA--the 
answer is no--the occupying power? If not, why not? Is 
financial assistance being provided to the INC in order to gain 
access to these documents?
    This is crazy. This is crazy. And, by the way, one of you 
pointed out that Chalabi is, by a factor of three to one the 
least popular politician in Iraq. I have a recent poll here--
``Who do you trust the least?'' Saddam Hussein, 3.1; Osama bin 
Laden, 0; Ahmed Chalabi, 10.3. The next-highest person on the 
list registers at beyond--it's 10.3 for Chalabi; 3.1 for Saddam 
Hussein--and the next one is 1.8. One of the things we 
politicians take solace from when we're running, if there's a 
negative opinion of us and there's only a few people who know 
us, we think it's curable; but if they know us and still hate 
us, we worry about it. Guess who the best-known figure in Iraq 
is? The best-known figure? Eight-five percent--of the Governing 
Council--85 percent of the Iraqis know who Ahmed Chalabi is. 
Well over 50 percent of the population doesn't know any of 
these guys, but 85 percent know Ahmed, and very, very few like 
him. And we're providing almost $400,000 a month for this guy.
    Well, I don't want to belabor that. Let me go on.
    Some time ago, I suggested that NATO get in the deal. 
General Joulwan, everybody, including the press, said no, 
they'll never do it, they want no part of it, they can't do it, 
there's no troops. I then went to Europe. I met with an old 
buddy of yours, General Jones, Supreme Allied Commander, had 
your job--the job you had, met with the NAC, met with heads of 
state. They all said, we're ready to endorse the idea of NATO 
taking over the operation. We won't be able to put that many 
troops in initially. We're probably talking three, five, seven, 
ten thousand, depending on how we configured it, front end. The 
French said they would vote for that if, in fact, by the way, 
there was a real transfer of political authority in a way that 
was legitimate, they'd consider, depending on the mission, use 
of French troops in Iraq, like, I might add, they are in 
Afghanistan.
    Question to you, former Supreme Allied Commander, If we did 
this the right way--and you don't have time to define ``right 
way''--is there a right way where we can get NATO to say, 
``Yes, we'll be part of the mission,'' and, at the front end, 
is there any reasonable prospect of any number of NATO forces 
being able to be deployed within the next 3 to 4 months into 
Iraq?
    General Joulwan. Yes.
    Senator Biden. That's what I thought.
    My second question for you----
    General Joulwan. Let me, if I can----
    Senator Biden. Go ahead.
    General Joulwan [continuing]. Elaborate, because I think 
there are some opportunities here. But, you know, we have to 
understand--and I think the Bosnian model is not a bad one 
here, where we had multinational divisions under an integrated 
command structure, called the Combined Joint Task Force, to use 
other words, that NATO has. This is not a pickup squad.
    Senator Biden. Exactly.
    General Joulwan. This is an organized staff--works 
together, it's integrated. And I'm not sure how the final 
organization is going to flesh out on the military side after 1 
July, on our side, but there may be a multinational command in 
there that I think NATO can play a role in.
    Senator Biden. Exactly.
    General Joulwan. But you've got to give them a seat at the 
table. You've got to let them have a voice. You've got to give 
them a vote if their troops are committed. Remember we built 
the NATO Alliance over 50 years.
    Senator Biden. Exactly.
    General Joulwan. So I would say that NATO clearly can play 
a role. No one said NATO would get involved in Afghanistan, but 
the Alliance did.
    Senator Biden. Exactly right. And I spent--I don't want to 
get anybody in trouble over there, but meeting with people of 
significant command, with more than one star sitting on their 
shoulder, they all told me that the following could occur 
immediately, meaning by the time we turned over power. No. 1, 
border patrol responsibility, the Iraqi border. No. 2, either 
taking over the Polish sector and running that with the Poles 
and/or the north. Free up a total of up to 20,000 American 
forces, front end--not putting in 20,000 NATO forces--free up 
up to 20,000 forces initially, and over the next year, a 
significant ramp-up if, in fact, the political side of this 
equation--if a seat at the table really was given.
    And so when I say it, people look at me, including the 
press, and go, ah, no, that's not possible. Everybody--former 
commanders, present commanders, others who I speak to in NATO--
say we can do this. Our first mission--every permanent rep 
says, Joe, our first mission is Afghanistan. We don't want that 
to fall apart. We don't want that to fall apart.
    But we can. We can. Begin immediately. And, over time, take 
over. And I think, by the way, a significant reason why this is 
important is to say to the American people, hey, we're not 
alone. We're not alone. The rest of the world's invested in 
this. The major powers, where the muscle is.
    Second, training. And I'd like any of you to comment on 
this, but probably the two that could speak most directly are 
Mr. Sheehan and you, General Joulwan--training the military. I 
remember distinctly the French and the Germans, immediately 
after Saddam's statue fell on that circle, which we passed by 
and saw the remnants of, said, ``We're ready to help, in a big 
way. We need some''--basically, ``some cover of a U.N. 
resolution. We'll train the military.'' I just met with the 
Hungarian Ambassador when I left here. He said, ``We're 
staying, by the way, and we're ready to train the military with 
you.'' I don't know whether they are capable of it. They're a 
fine army; I don't mean to imply that.
    The question is, is it your view that it is possible to get 
additional help from major powers in the training piece of the 
Iraqi military? How would you go about that, if they offered?
    General Joulwan. There is going to be, I believe, a 
headquarters with a new U.S. commander that's going to be 
appointed to this that's going to be directly involved in the 
equipping and training of the Iraqi army. Clearly, other 
nations can help us do this. We have created--that's why I keep 
going back to NATO--over 50 years, NATO procedures and doctrine 
that can help here. And I don't know why there is reluctance. 
Yes, it can be done. We have excellent countries that can help 
there. And I think it would, again, broaden this base that 
would get us the support we're going to need for the long run. 
And we're going to need substantive support over the next 
several years.
    Senator Biden. I agree. And, by the way, unless all these 
heads of state and foreign ministers and defense chiefs are 
lying to me in Europe, they're all saying they're ready to do 
that. They're saying they're ready to do it. And I say, ``Why 
not?'' And here's the response I got, without revealing the 
source of this one--I'll tell you privately--a guy you know 
very well said, ``Nobody asks. Just ask. Don't tell us. Don't 
invite us. Just ask us.''
    Now, training the police. Let me tell you the article about 
the vetting mission, ``Flaws Showing in Iraqi Forces,'' 
December 30, 2003, an article in the Washington Post. ``Last 
were 2-minute-or-so interviews with Mehdi''--he's the guy doing 
the interviewing we picked--``who was the head of the student 
affairs of the police college before the Americans selected him 
to oversee the training. The first candidate for police that 
came in was a guy named Allah Abbas, age 22.'' Here's what he 
got asked in the total--this is a total vetting--`` `What do 
you think of human rights,' Mehdi asked. `It's good, and it 
helps humans,' Abbas answered.''
    Senator Biden. `` `What do you think of the other sex?' '' 
end of quote. `` `They are half or so of society, and help men 
in serving the community.' Mehdi nodded, scribbled some notes 
in the young man's file. Abbas was in.''
    Now, do you have any reason to believe that the vetting 
process--you were involved in the vetting--look what we did in 
vetting the Medallin Police Department. It worked. It worked. 
We essentially knocked out close to, in all of Colombia, 2,000 
former police, vetted them out. The new, vetted police force 
actually crushed the Medallin cartel.
    We can do this, can't we?
    Mr. Sheehan. Senator Biden, we can do it, but we re-learn 
it every 6 months. And we have done it before--and, by the way, 
vetting is a process. I've been personally involved in vetting 
of forces before. You have initial interviews, you have initial 
intelligence, but it goes on throughout the entire training 
program.
    We can do it again, but one of my principal arguments in my 
testimony is, we don't have the institution in the U.S. 
Government that knows how to do this. We contract it out, and 
the intellectual property of that knowledge is with 
contractors. We don't have the institutional knowledge, we 
don't have the capacity, and, right now, we're reinventing it 
every year and we're going to be in Iraq a long time--we're 
going to reinvent it every 6 months and a year. We need to 
build a permanent capacity that does the vetting, training, 
monitoring, and the other aspects I mentioned.
    Senator Biden. As referenced by this longstanding service 
of the chairman of the committee--but you raise questions. 
Senator Lugar is a guy who thinks ahead. He's thinking ahead on 
post-conflict reconstruction. He's got an outfit that includes 
a general and several others, a number of people, including the 
administration, trying to figure out a long-term solution for 
this so we can help institutionally change the governance 
process, so that, in the future, we will be able to deal with a 
whole range of these issues. That's underway. But, in the 
meantime, we do have enough people who have experience, that we 
can have on the ground.
    I was truly impressed with the group we had. Last summer we 
went out to the Iraqi police training academy in Baghdad, and 
we met the first Iraqi police force. A guy who was there, the 
equivalent of a captain, an Iraqi--we were standing there 
talking casually to him. He said, ``One thing I don't like, 
Senator.'' He said, ``I don't like the blue-on-blue uniforms. I 
like the green ones. We had the green ones, everybody knew it 
was Saddam, and they listened. I want green uniforms.''
    Now, last question, and I apologize for just this 
indulgence, and it goes to you, Mr. Hashim. You mentioned that 
the disbanding of the army was a mistake--I think you mentioned 
this. It's easy, in hindsight, for us to say what was--I mean, 
there's a lot of mistakes any one of us would have made had we 
had this responsibility, and I'm not piling on here. I want to 
know--I've wondered, in my mind, how significant a mistake, if 
it was, was disbanding--totally disbanding the Iraqi army?
    Dr. Hashim. Well, Senator, in my own personal opinion on 
this matter, I think it was a significant mistake. Now, of 
course, I'm speaking in hindsight here, but a large number of 
the people that we disbanded could have been retained, they 
could have restored law and order. And, yes, the Iraqi army, as 
it existed, sort of melted away, but these people were ready to 
come back and work, a significant number.
    Senator Biden. Do we have to change the mission of the U.S. 
military? I spoke with a former general, who does not want to 
be referenced, a former senior member of the Joint Chiefs of 
Staff, and I said, ``Is it true that Abizaid and others really 
don't want any additional troops--they say we don't need any?'' 
Because these are honorable men, and we keep being told the 
commanders aren't asking for them. And he said the following to 
me. He said, ``Look at the expressions''--this was literally 
what this four-star said to me--``Look at the expressions on 
their faces.'' They're honest men. They answer the following 
way. Deadpan, they look and say, ``I have enough troops,'' and 
then the operative sentence, according to this four-star, ``for 
the mission I have been assigned.''
    Does the mission have to go from troop protection to 
policing, at least at the front end of this?
    General Joulwan.
    General Joulwan. Well, let me reiterate--I think that 
you've got to understand the clarity here that--when we talk 
about sealing the borders, you know, that's military and maybe 
border-patrol people. Preventing lawlessness, that is a police 
function. I think there has to be some act of disarming.
    Let me just say that, a year later, it's tough. I went 
through this in Bosnia, where we found more stuff than you 
could ever imagine, but we disarmed--in 6 months, we disarmed 
200,000 armed insurgents, and there were no ifs, ands, or buts. 
That's what we told the three waring factions they had to do.
    And they did it! So I think that if it's only regime 
change, then there may be enough troops to do regime change. 
But if it's to bring stability--a stabilized environment, we 
need to say, what does that mean? And that's the question that 
I--what is the strategy, what is the war plan--or the 
stabilization plan to match the war plan? And what are the 
details of the stabilization plan? Once you get the tasks then 
ask General Abizaid again, ``Do you have enough to do these 
tasks?''
    If I give you one example--I hate to really bare my soul 
here a little bit, but when I was asked to go from IFOR, I used 
a term SFOR. I was the one that said we're going to change from 
implementation to stabilization, because I wanted the troops to 
understand that. And I asked three questions of the North 
Atlantic Council before I would say what I need to do the 
mission assigned. Do you want me to hunt down and arrest 
indicted war criminals? Do you want me to do civil police 
functions? And do you want me to forcibly return refugees to 
their homes? Yes or no. Because that would determine the troop-
to-task analysis that would be done. The answer to all three 
was ``no.''
    But that's the clarity you need, and I would ask, again, 
that this issue of stabilization as a mission, what the hell do 
we mean by that? And force the discussion for the clarity here 
of, what do you want done? And then say, do you have enough 
forces to do it?
    Senator Biden. Thank you very much.
    The Chairman. Well, that is the sort of clarity we need.
    General Joulwan. Clarity is my favorite word, Senator.
    The Chairman. It's the focus of this hearing.
    Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman.
    As my colleagues, I remain deeply concerned with the safety 
of our men and women in uniform serving in Iraq. And we 
continue, in Ohio, to pray for Private Matt Maupin, of Batavia, 
Ohio, who is one of the individuals that was taken into custody 
by the Iraq insurgents. And I think one of the things that we 
haven't mentioned is, is that we need more forces there to 
protect our people so that we don't have more of this taking 
place.
    Senator Reed and I, and others, last year, submitted an 
amendment to increase the force structure by 10,000 soldiers, 
and that they would be trained specifically in peacekeeping, 
because that's where it seems to be the need today. And I think 
that I agree with, again, my colleagues, that we need to have a 
snapshot of what resources we need immediately to get the job 
done, and then a long-term plan for stabilization, as you've 
talked about, general, and one that is honest and forthright 
with the American people--to recognize, for example, that we've 
had troops in Bosnia for 8 or 9 years. The last time I was in 
Bosnia, I asked our troops, ``If you leave, what will happen?'' 
And they said to me, ``They'll start killing each other 
again.'' Or, for that matter, in Kosovo, where we've had troops 
for 5 years, and, because we weren't paying enough attention, 
that blew up and we've got 4,000 refugees there today, and many 
people killed, and homes burned, and so forth.
    Dr. Pollack, I loved your book, and I always keep referring 
this to people that really want to know what's going on over in 
Iraq and in that area. And in that book, you said, ``We're at 
an important moment in the history of the United States. We 
know that we face a great problem with Saddam Hussein, and we 
have good evidence that it's going to be a much bigger problem 
in the future than it is today. We can ignore the problem and 
hope it will just go away, or we can take steps needed to solve 
it. Those steps will not be easy, and we should not downplay 
them. The question we need to ask ourselves today is, ten years 
from now, when we look back at this moment, which choice will 
we most regret not having made?''
    And you concluded, ``This is our opportunity to create a 
stable, prosperous, self-sufficient Arab state that would serve 
as a model for the region. This is our one opportunity to turn 
Iraq from a malignant growth helping to poison the Middle East 
into an engine for change for the entire region, and we must 
not let it slip away from us.''
    And that's what we're talking about here today. I've been 
doing a lot of reading about that area, and we were talking 
about fundamentalism, Muslim fundamentalism. What can we do, 
recognizing that fundamentalism, to help Iraq move into a new 
government--where we can eliminate, it seems to me, this issue 
that many are using, which is that idea, ``That the infidels 
are here and in charge, and we want to see them leave.'' You've 
got a battle, I'm sure, right now in Iraq, in terms of 
fundamentalism and people that are more secular in their 
thinking. It's wonderful to know that 50 percent of the people 
would like to have a democracy, and so on, but the question is, 
what kind of a democracy?
    And, my concern is, what are we going to turn it over to? 
Isn't it important that we really make sure that whatever we 
turn it over to is not looked upon by some people in Iraq as 
our continuing to control the country?
    The next question I'd like all the panelists to answer is, 
if we enter into an agreement to help ensure security in the 
country, is that going to be looked upon as something such as, 
``Foreigners here in our country interfering, and we ought to 
try and get them to leave''? Will a United Nations type of 
commitment there help, so those loyal to Saddam and others will 
not exploit the fact that, here we are with all these people in 
our country. Do you understand the question? I'd like you to 
comment on it.
    Dr. Pollack. I'll try, sir. First, thank you very much for 
your remarks, Senator. I greatly appreciate it, and I'm glad 
that my book was helpful to you.
    I will also point out that another line that I used in the 
book was a warning that if we did not go into Iraq ready to do 
all the of things that were going to be necessary to stabilize 
the country and rebuild it afterwards, that we could create 
more problems than we solve in Iraq. That is my fear now, that 
if we do not address some of the problems we've undertaken, 
that we will wind up creating more problems than we solve.
    With regard to the problem of fundamentalism, I think that 
my good friend Ahmed Hashim made a very important comment in 
his remarks, and I want to echo it and perhaps drive it home, 
which is that although fundamentalism has been growing in Iraq 
over the past 20 years, it is still, or was, a rather minor 
phenomenon at the time of the fall of Saddam. But what has 
happened both in the Sunni triangle and, to a certain extent, 
in the Shia areas is that Islamic clerics, who are opposing the 
United States and who cloak their opposition, in Islamic--in 
religious terms, are becoming increasingly more popular, not 
necessarily because the population is becoming more religious, 
but because they are growing more frustrated and angry at the 
United States, because the gap between what we are delivering 
and their expectations is growing wider and wider. And these 
clerics have become the legitimate voice of opposition to the 
United States, using the language of Islam, which is a language 
that is very resonant, obviously, with every Iraqi. And I think 
that what we saw in the last few weeks with the support from 
Muqtada al-Sadr, which I think completely caught the Coalition 
Provisional Authority by surprise----
    Senator Voinovich. Aren't we lucky that we have al-Sistani 
there, that we're able to work with? If it wasn't for al-
Sistani, where would we be?
    Dr. Pollack. Absolutely. And I think that our efforts to 
resist al-Sistani are, in many cases, entirely 
counterproductive, because he represents a trend in Shia Islam, 
a quietist trend, the dominant trend, which ultimately meshes 
very nicely with what it is that we are trying to do over 
there.
    Senator Voinovich. Mr. Sheehan.
    Mr. Sheehan. Senator, let me make a comment based on my 
experience as Ambassador for counterterrorism and my current 
job dealing with counterterrorism in New York. If we do not 
succeed in Iraq, we very likely will have a worse situation 
than we did have during the Saddam Hussein regime. And let me 
take a quick minute to explain why.
    The most significant counterterrorism event since 9/11 has 
been the takedown of Afghanistan and elimination of that 
sanctuary of impunity for al-Qaeda. If Iraq is not stabilized 
and controlled throughout its entire borders, what concerns me 
most is that it will become the new Afghanistan. And what it 
will be is a area where foreign international jihadists will 
come to, to become further radicalized, to become vetted in 
their own processes, become combat hardened, and build the 
types of international relationships that were established in 
Afghanistan and still haunt us today.
    That specter of a new swamp, as I referred to Afghanistan 
several years ago, will haunt us for years. And for that 
reason, we have to win in Iraq, and we have to establish a 
presence throughout the country to drain the swamp of those 
type of jihadists that are pouring into the country right now 
and will take, in incubating over 2, 3, 4 years, will come back 
to our shores and attack us, without any doubt. So that's why 
we need a large presence in Iraq, not just for the immediate 
security concerns right now, but for the longer-term concerns 
that I have, in the counterterrorism business, of allowing 
these jihadists to grow and incubate there and represent a 
broad international threat, not only to the United States, but 
to freedom around the world.
    Senator Voinovich. Dr. Hashim.
    Dr. Hashim. Sir, on the issue of Islamic fundamentalism in 
Iraq, let me echo some of what Ken Pollack said, and also go a 
little bit beyond that.
    Iraq has become de-secularized as a result of sanctions, 
three wars, a lack of civil society, Saddam's regime, in two 
ways. He basically brutalized the country, so people turned 
more and more toward religion. But, at the same time, beginning 
in 1995, he encouraged the rise of Islamic tendencies, as long 
as it was directed against foreigners. Now it has increased as 
a result of the foreign presence in Iraq. And what you have 
here, increasingly, in both the Sunni Arab and the Shia Arab 
communities, a fusion of Islam and nationalism.
    Now, a fusion of Islam and nationalism is not jihadism, 
necessarily. There is a small minority of Sunnis who are 
jihadists. The major problem for the Sunni jihadists in Iraq is 
that they cannot really take power. They're a minority within a 
minority of the population. But there is mainstream Islamism, 
and that has fused with nationalism.
    The other point is that the increase in Islamic fervor or 
feeling among the population does not necessarily translate 
into theocratic government. The Shia population is not 
necessarily in favor of a theocracy, a la Iran. They may be in 
favor of a more Islamized polity--as in Ayatollah al-Sistani--
--
    Senator Voinovich. But what'll----
    Dr. Hashim [continuing]. And we have to live with that.
    Senator Voinovich. It will have to have that kind of a 
dimension to it if it's to be successful.
    Dr. Hashim. Yes, sir.
    Senator Voinovich. OK. And what we're trying for is 
something different than what we have in Iran today--take 
advantage of it--because we have the environment there. If we 
do it right, we can, indeed, have a democracy. It may not be 
exactly the kind that we would prescribe, but one that works.
    Dr. Hashim. I agree with you, sir. Yes, sir.
    The Chairman. Thank you very much, Senator Voinovich.
    Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman. I 
apologize being out of the room for a few minutes. We had a 
conference on youth involvement, and I wanted to be there and 
spend a few minutes with them. But I had a chance to listen to 
several of you here and go over the testimony of others.
    First of all, Mr. Chairman, once again thank you, and I 
thank Senator Biden, the two of you here. General Joulwan said 
this, but it deserves being repeated. At a time when the label 
of partisanship is used almost on a minute-by-minute basis to 
describe how politics is being conducted in Washington, this 
committee stands out as a glaring exception to that, and all of 
us are deeply thankful for your leadership, the leadership of 
both of you, and having a set of hearings like this and giving 
us an opportunity to air the kind of discussion that we ought 
to be having about all of this. Because it's on everyone's 
mind. We're all trying to sort this out. And, clearly, it's 
only going to come when we have wise and competent people who 
can come and share some thoughts about all of this. So I'm very 
grateful to you, as a member of this committee, and I must say 
a little disappointed, although, while I'll accept the excuses 
being provided, but I can't think of any greater sense of 
urgency they ought to be than for key administration people to 
be here and share with us where we're headed with all of this.
    I have, sort of, this Groundhog Day memory of sitting in 
this committee when I think we had a hearing on exactly this 
subject matter, and we were told that people couldn't make it 
up here. I remember that--I think it was about a year and a 
half or 2 years ago that that occurred. And it's once again 
sort of being repeated.
    But let me raise something, if I can. I want to thank all 
of you for your testimony. It's been very, very good, and very 
helpful. Certainly, all of you, as General Joulwan's pointed 
out that planning for keeping the peace was terribly flawed, 
I'm struck by--there's a wonderful quote from Ambassador 
Freeman, that I had with me--I'll find it in a minute--the 
former Ambassador to Saudi Arabia describing the question of 
what victory means, in military, as opposed to winning the 
peace, and how that occurs. But as a former Ambassador in the 
region, someone who's very knowledgeable about that part of the 
world, I was taken with his comments over the weekend.
    Certainly, Ambassador Sheehan, your call for standing up a 
credible and professional police will take years, not months. 
And speaking generationally, I like the fact that you talked in 
generations. It's sort of our obligation, as members of policy-
setters, to be speaking not in terms of quarters, or a matter 
of months, but in years. And too often we don't, we fall prey 
to the quarterly argument that businesses have to comply with. 
But even successful businesses think beyond the quarters for 
long-term success, and I don't think we're doing that very well 
here.
    Dr. Hashim, you've told us that we are something of a cusp 
in Iraq. And I think you're absolutely on target with this. And 
that is, this is far more than just the small bands of people. 
It doesn't quite rise to the level of broad, widespread 
insurgency, but I think we're getting close to that, and I 
think suggesting otherwise is kidding people if they think it's 
not more serious than that.
    Certainly, security is the precondition for moving forward 
to build a stable Iraq. I agree totally with that. I agree with 
our witnesses, who have said, in describing the challenges that 
we face, what must be done.
    Here's where I have a problem, and I say this, and I want 
to get you to respond to it. It's really one question. It comes 
down to this date, this June 30. This is driving me crazy. Why 
this is the Holy Grail is beyond me. I think we're kidding 
ourselves, in a way, if we're calling for all the things you've 
suggested, by and large, here, what needs to be done--to get 
more troops in, to get NATO involved, to get the international 
community, to get policing on the ground, to get all of these 
structures in place--given the difficulty we've had doing that 
under the present circumstances, where we call every shot, why 
should we believe, for a single second, that if we turn over 
something like sovereignty, whatever that is in this particular 
case, to a bunch of people we do not know very well, or who 
they are, or whether or not they're going to run again or not 
run again--are they technocrats, are they politicians, who are 
they? The assumption somehow that we're going to be able to do 
these things that you've described, which I don't disagree 
with, under a structure that is not likely to produce or allow 
us to have those--in fact, they may take the opposite view. 
They may decide, in order to score points politically, that 
they'll join those forces, at least rhetorically, by suggesting 
that we're an occupying force, that we're really not wanted 
there. I suspect that they have ambitions politically in their 
own country. They're not going to be unlike politicians any 
other place around the world, they're going to find out where 
the parade is, and they want to put themselves someplace in 
that context.
    And my question to you is, why don't we just come out and 
say, dump this June 30 date? This is crazy. Does anyone really 
believe, for a single second, that, on June 30, we're going to 
successfully turn over sovereignty? Why is anyone afraid to 
suggest that it's a bad idea, that date? If we really need to 
do these other things, how can we possibly do it if we've 
become so wedded to that date?
    So I'm struck with the fact that this is an inherent 
contradiction if we do want to do all the things you've 
described to do, and simultaneously are wedded to the June 30 
date, I think you've got a train wreck in the mix here. I don't 
think it can happen.
    So my point would be that I think we ought to drop the June 
30 date. Now, obviously, the administration seems to be 
committed to it no matter what I say or anyone else says, but 
I'd be interested in what you have to say here. If you were in 
a position to decide, or advise this administration, on whether 
or not we ought to be wedded to the June 30 date, would you 
argue that we ought to get rid of that date, and, rather, focus 
on the issues that you've raised here today, with the hopes of 
building some stability that would then provide the 
environment, at some point in the not too distant future, where 
you could have a group of people emerge that would have some 
chance of succeeding here?
    Yes, Dr. O'Hanlon.
    Dr. O'Hanlon. Senator Dodd, my own take is that I would 
keep the date for the moment, but I would also be assuming it's 
not going to be one we can stick with, and I'd be developing 
backup plans and being careful in my rhetoric, as President and 
anyone else in the administration, not to make us so committed 
to that date that we can't back away from it later on. I think 
we need the forcing pressure of a date to require some 
decisionmaking. And I also think anti-Americanism is becoming 
the rallying cry for that burgeoning movement you describe, and 
we need to give sovereignty back as quickly as possible to 
quell that. However, if we don't have anybody to give back 
sovereignty to, and we haven't answered these key questions, we 
will have to postpone.
    So my belief is, you're going to have to postpone--or 
there's a good chance you'll have to postpone, but it's better 
to wait a little longer to do it, try to keep pressure on 
people, try to make as many decisions as you can, and then 
postpone as little as necessary once the day comes.
    I would still expect it's going to be sometime this summer 
that we transfer sovereignty. Only a 50-50 chance it'll be June 
30. I would keep the date for now, but I would not count on it.
    Senator Dodd. General Joulwan.
    General Joulwan. Senator, let me try to make some clarity 
out of it. I don't know what the date you would come up with, 
if not June 30? A year from now? Two years from now?
    I would say what is more important here is, what do we 
expect to happen with the government after 1 July? But you're 
the politicians. I would just tell you that I would go through 
a process of saying crawl, walk, run. We're going to be in a 
crawl stage, literally, with this government until it matures. 
And so what do we expect it to do? What will it have to do it 
with? There's going to be a minister of defense, there's going 
to be a minister of interior, but they're going to be 
fledgling.
    You've got to, sort of, hover over this new government and 
let it mature. It is important to give the new government some 
initial successes and the satisfaction they are started on the 
road. But they're only at the first benchmark here, and have to 
proceed step by step. That's how I would look at it.
    I think that you'd play right into the hands of the 
extremists if you would say it's not going to happen on 30 
June, unless we have some very clear and good reasons for 
delaying that. At least that's my gut reaction.
    Senator Dodd. Well, general, do you think you're going to 
convince European nations and others to send more troops there 
with this government you've appointed on June 30? 
Realistically, now.
    General Joulwan. Again, that goes back to, what do we 
expect? I think that the government's not going to be able to 
all of a sudden provide this secure environment. There has to 
be clarity here. What is the relationship between this new 
government and the U.S. Embassy? What does ``sovereignty'' 
mean? How is that going to be defined? This has to be laid out.
    But I think there is a need for a clear ``road map'' here. 
You need a process that it can work. At this stage, given what 
we're facing, I think you would play into the hands of those 
that are stirring up the problems if we would start backing 
away from that date. More importantly, I would want to say, 
what are the expectations that we should have for this new 
government? What is the role, then, of this huge organization 
that's going to go in, particularly on the U.S. side, on the 
embassy side, on our military side? Those are my views.
    Senator Dodd. Ken.
    Dr. Pollack. First, Senator, let me say that I completely 
sympathize with the sentiments that you're expressing, and I 
think that you're absolutely right, that we have a lot of work 
to be done.
    I will say I understand where the June 30 date came from. I 
was in Baghdad in November when it was formulated, or right 
after it was formulated. And it was formulated as part of the 
November 15 process. And the point was, like good bureaucrats--
and as a former bureaucrat, I completely sympathize--you need a 
date to force people to actually do things. And back in 
November, June 30 seemed like a perfectly reasonable date, 
because you had a process that was going to get you there; and, 
as we know, that process has fallen apart. We don't have the 
process anymore; we still have the date. That's obviously very 
problematic, and that's obviously exactly what you're getting 
at.
    That said, I do echo some of the points that both Mike and 
General Joulwan have made, which is that, unfortunately, Iraqis 
have really invested in this date. We've not really talked 
about this, but the Iraqis are very unhappy with the way that 
the United States has handled the reconstruction, the 
occupation. They find us to be arrogant, they find us to be 
arbitrary, they find us, in many respects, to be replicating 
the things that they hated about Saddam's regime, and how he 
treated them, with the exception that we don't arbitrarily kill 
large numbers of them. And they want to see some kind of a 
transition on June 30. And, as General Joulwan as suggested, if 
they don't see something, I think that this is going to feed 
their sense of humiliation and anger, which is driving them to 
the Muqtada al-Sadrs of Iraq.
    I will also say, I can imagine transitional governments 
that we could create between now and then, which I think many 
Iraqis would grudgingly find acceptable. I think that if we did 
go the Brahimi route, we could come up with groups of people 
that Iraqis would largely find acceptable. I think we could 
take other routes--Professor Cole made this point yesterday; I 
think he's absolutely right--you could go to the local Iraqi 
councils, ask them to send representatives to a larger assembly 
in Baghdad. They could come up with a new government, which 
Iraqis would mostly find to be reasonable and better, 
certainly, than the Governing Council that we have now.
    That said, I can also see a train wreck occurring on June 
30, as you've suggested if we don't go this route, if we 
continue to undermine Lakhdar Brahimi's mission by doing things 
like going after Muqtada al-Sadr in the midst of his 
negotiations, which are clearly not helping him. What I would 
say, though, is, if we are going to postpone beyond June 30 
because of the reasons I mentioned, because of how much Iraqis 
have now invested in this debate, it is critical to do what we 
have consistently failed to do all along, which is to reach out 
to Ayatollah al-Sistani and other Iraqi leaders, and get them 
to say, you know what? June 30th isn't reasonable. We need to 
postpone it. If we can get their buy-in, I think Iraqis could 
live with a postponement. But if we simply arbitrarily extend 
June 30, in the exact same way that we announced June 30, we'll 
just cause more problems.
    Senator Dodd. Doctor, anything you want to say?
    Well, I wish you well. I appreciate your saying it--all of 
you have said--we need more troops, we need more policing, we 
need to do all of these things to get the security on the 
ground. And I think if you think you're going to get that out 
of a new government we've imposed, basically--not through 
elections or anything else--and I've been around a while; I 
think we're dreaming. I think you all made wonderful arguments 
for increasing security. I don't think you're going to get it 
with this.
    The Chairman. Thank you, Senator Dodd.
    Senator Nelson.
    Senator Nelson. Well, thank you, Mr. Chairman.
    Just some quick subjects here. This so-called cleric, al-
Sadr, who has been giving us some problems--and, as you pointed 
out, he's really more of a political leader than a religious 
leader--and yet he is posing a problem for us, stirring up 
these supporters. At some point, the United States being able 
to take him into custody, what does that do in Iraq?
    Dr. Hashim. Senator Nelson, Muqtada al-Sadr is a social/
political phenomenon. If we take him down, somebody else may 
replace him. He's built up his power on the basis of a network 
that his father and two brothers had built up in the 1990s 
before they were assassinated by Saddam Hussein, so it's not 
like he came upon it as soon as the regime fell, and built it. 
He's built it beyond by creating the Mahdi's army, which is a 
ill-trained, but highly dedicated militia. Now, if we take him 
out, it still does not resolve the issue of his constituency, 
which are the disenfranchised Shia poor, who constitute about 
three- to four-million inhabitants, primarily of Madinat al-
Sadr, north of Baghdad.
    How do we resolve their lack of empowerment? As long as 
that continues, they will keep throwing up radical clerics who 
promise them a better future.
    Senator Nelson. So is it best to deal with al-Sistani, and 
let him try to negotiate something?
    Dr. Hashim. I think, for the moment, yes, sir. And the fact 
is, the vast majority of Shia tend toward what I would call 
more moderation, where they would like their country to be 
Islamically dominated, in the sense the constitution based on 
Islam and more Islamized, so to speak--I'm simplifying here--
but not the rule of the clerics, of the politicized clerics.
    General Joulwan. If I can just add a point here. When you 
talk about Najaf--correct me if I'm wrong--you're talking a 
population of about 900,000 people in this city--a large 
number, large population. When you say, we're going to get al-
Sadr, this poses tremendous problems. Fallujah, I think, is 
250,000. I mean, these aren't hamlets that we're talking about. 
So the idea--and it goes to Senator Dodd's comments. As a 
fledgling government takes hold here, part of the challenge is 
going to be, what are Iraqis going to do to bring people to 
justice? What sort of support can we get from moderate and 
other Iraqis to help? And I think we're getting some of that 
now, and I think we need to probe that. We need to encourage 
that cooperation. Because that, in the end, is going to be, to 
me, the best way to not only bring these individual to justice, 
but also to separate his extremism from the more moderate 
groups that we're trying to get involved.
    So I would say you've got to be careful, when you say, 
we're going to capture or kill 'em. What does that means in 
terms of operations that the military have to conduct. If our 
forces go into Fallujah guns ablazing it will be a very, very 
costly operation. I think there are other ways to do it.
    Senator Nelson. And those other ways?
    General Joulwan. Is to get the the Iraqis involved.
    Senator Nelson. To do the negotiations.
    General Joulwan. Right. Although I am not current in the 
last day or two, I think there has been some attempt by the 
Iraqis to assist here. The more we can show Iraqi involvement 
the better off we will be. When you form a new government, you 
need a small success--a half-a-step success. And here is a way 
to get some success for the Iraqis. And you build on that 
success. And that, to me, is going to be very important for 
this new government that's going to be formed. And I believe 
they're trying to cooperate. We ought to encourage them.
    Dr. Pollack. Senator, just to add to that, you know, I 
think that, unfortunately, al-Sadr has become one of the Catch-
22s, one of the many Catch-22s we've created for ourselves in 
Iraq. Senator Dodd is alluding to another--or was alluding to 
another--of the Catch-22s we've created. I think the honest 
answer is, we should have dealt with al-Sadr 12 months ago. We 
knew he was a problem right from the start, when he killed 
Abdul al-Majid al-Khoei. But instead of dealing with it, 
because we didn't, honestly, have the troops to deal with it, 
we've allowed this to fester, and now we have a real problem. 
The Mahdi army is getting bigger, it is getting more 
problematic. There is an argument to be made that maybe we 
don't want these guys around, free to do whatever they want to 
after June 30. By the same token, going in the fashion that we 
did--and especially the timing that we did, which I just cannot 
understand, for the life of me--was also a mistake.
    You know, in some ways, again, accepting the fact that we 
should have dealt with them at the beginning, we had what was 
probably the best solution possible, which was the textbook 
solution when you get into these foreign interventions, which 
is, you want the foreign moderates to deal with their own 
extremists. And we had that. The hauza, the moderates, if you 
want to call them that, of Iraq, were dealing with al-Sadr. 
They had largely marginalized him. By going after him, we stuck 
ourselves in between the moderates and the extremists.
    I think that, right now, extracting ourselves, 
unfortunately, probably is the best thing we can do, and it's 
useful in two ways. One, it would be much better to have a 
negotiated settlement, as General Joulwan is suggesting. We 
don't want a fight in the middle of Najaf. That would be 
disastrous. Second, it would be useful to us to empower 
Ayatollah al-Sistani. Ayatollah al-Sistani--and, you know, it's 
unfortunate that we are making him into such a key figure. I'll 
be honest with you, I don't think he wanted to be this key a 
figure. But, unfortunately, someone has to stand up for the 
Shias. He's the one who is doing it. We need to empower him. We 
need to show Iraqis that al-Sistani is capable of standing up 
to us.
    And that's something I think this administration has a 
great deal of difficulty understanding. It's a point that that 
Ahmed Hashim and I have both been making. The Iraqis are 
increasingly unhappy with us. Their leaders, legitimate 
leaders, are going to have to be able to show that they can 
stand up to the United States and push back on us and get 
results that Iraqis want. Those are the only leaders who Iraqis 
are going to follow.
    Senator Nelson. In January, I had visited with President 
al-Assad, and in a friendly but very, very frank discussion 
over a number of issues of which he was giving a certain party 
line, which I did not believe, and told him so--but he said one 
interesting thing when I was talking about the jihadists going 
across the border. He said, ``I would like to cooperate with 
the Americans.''
    Now, I have come back--I mean, right there, our Ambassador 
sitting with me, and immediately reported that. I also called 
back to our Ambassador to Israel, who wanted to know about my 
visit. I came back, and I reported to the Secretary of Defense, 
General Myers, and the Deputy Secretary of State, all of whom 
received that information with considerable interest, except 
the Secretary of Defense, who somewhat dismissed it out of 
hand.
    I was curious, because there is an article in a recent 
Inside the Pentagon publication, and it says that 
administration officials have responded with a stony silence to 
Syria's Ambassador apparently giving this same message. Now, I 
can tell you General Myers didn't, because I think General 
Myers saw that anything you could do to close that border, it's 
going to help save our men and women in uniform.
    I'd just like your commentary on this. Are the Syrians 
giving us a total bill of goods? Do you have any sense that 
they might want to have cooperation to help close the border, 
even though it's a difficult border to close?
    Dr. Pollack. Senator, I think we ought to put him to the 
test.
    Senator Nelson. What is there to lose?
    Dr. Pollack. Exactly. And I think something like border 
control is something where you can actually get a real test. If 
the guys continue to come through the borders, if our guys on 
the other side see the Syrians allowing people to continue to 
infiltrate, we've got our answer. But we've shown a willingness 
to cooperate with this Syrian regime before. This 
administration has been very cooperative with this Syrian 
Government on the global war on terrorism, and has received all 
kinds of information from them on al-Qaeda and other Sunni 
terrorist groups. Why, in this case, are we not willing to see 
that same cooperation?
    Senator Nelson. Thank you Mr. Chairman.
    The Chairman. Thank you very much, Senator Nelson.
    Senator Corzine.
    Senator Corzine. Thank you, Mr. Chairman. And let me just 
say that this hearing and the scope with which the witnesses 
have addressed these incredibly difficult issues, I think, is 
remarkable. I join with Senator Biden, I wish we could have 
these folks offering counsel to the people that are making 
policy decisions. At least we would see the wide range of 
various issues that are at hand, and might come up with more 
serious responses and less frequent failures on some of the 
strategic decisions that are being made.
    I do agree with what Mr. Pollack said, this is more than a 
bad month. But I continue to not understand why the central 
thought and spokespeople for the administration continue 
something else. They take the comments of Mr. O'Hanlon and say 
that's all that's going on.
    I just want to quote from a senior administration official, 
and I'd like to hear your comments on it, describing the deadly 
insurgency that flared this month. One official described it as 
``a symptom of success that we're having here in Iraq.'' This 
is almost as if somebody needs to go see counselors with regard 
to how you frame an issue. And we hear this from the highest 
officials in our government. A symptom of success that we have 
lost 105 people, that this goes on? And I think there is a 
right for the American people to be angry, and I certainly--I 
feel it, personally.
    And that draws me to the conclusion--we've heard 
``competency'' mentioned in these hearings--but it draws me 
back to something that I asked yesterday, and I feel very 
strongly the same that Senator Dodd has spoken about, how can 
we believe that we're going to make the right strategic 
decisions? How do the American people have the ability to 
understand that we're going to be able to make this series of 
very, very tough decision between now--I think it's 70 days--
I'm not so good at math--between now and June 30? And maybe it 
is that we go, and we futz around, and, you know, 30 days out, 
we say, well, we need some more time. And maybe that's the only 
answer. But it seems to me that if we create a situation where 
the Iraqi people say that this sovereignty that you just 
transferred to us is a line of--excuse me--it doesn't fit the 
reality of what we think is sovereignty, then all you guys have 
done is mislead us and put us into a position that what is, in 
the long run, best interests, such as getting to elections and 
true transfer of sovereignty, is completely undermined by it.
    And I don't understand how, with all of these kinds of 
decisions--including, by the way, this point that was just made 
with al-Sadr and reaction to Senator Nelson's comments--how 
this can be done. How can this be done? We don't know what the 
status of forces is going to be. We don't know who. We don't 
know how the Iraqi people will look at a situation when there 
is conflict, say in Najaf, post-June 30, and the United States 
is taking all the decisions through our military powers, and 
the folks that are Brahimi-chosen say, this isn't something we 
agree with. That's what they're doing. What kind of dynamic are 
we setting up?
    First of all, like the question about, Are we--am I somehow 
missing something, that this is a symptom of success? I'd love 
to hear the comments on that. And then a little more follow-
through on Senator Dodd's case, because I think we're setting 
up--and, you know, I'm not the smartest guy in the world, but I 
think we're putting ourselves into a box canyon of failure 
that's going to end up undermining our ability to develop a 
relationship with the Iraqi people and evolving to what I think 
all of us want, which is success on the ground.
    Dr. O'Hanlon. I'll start, briefly, Senator Corzine. On the 
first question, I certainly don't really believe the 
administration can make that argument with a straight face. I 
don't think they believe that themselves. There have been 
background briefings at the Pentagon for some of us think-tank 
folks, with high-ranking people. They're background meetings, 
so I won't say who gave the comment, but it was a very high 
civilian official who agreed with me, there are no good trends 
in the security sphere right now to speak of. And so I don't--
if they are giving this public message, it's not one, in my 
judgment, they even believe themselves.
    And I think Mr. Rumsfeld was clear the other day, when he 
said, ``I would never have expected this kind of month of April 
a year ago.'' And he didn't say that with a smile on his face 
that he was grateful for the fact that we were able to engage 
in these firefights. He was obviously concerned. That's my 
reading.
    On the issue of the government and the transfer of 
sovereignty, one of the reasons why I favor the technocratic 
government as of June 30, with people who are not eligible to 
run for office in January, is because I think it's, therefore, 
easier to convince them not to try to make every single kind of 
decision under the sun. Because they would, in a sense, be 
taking those decisions away from their own fellow citizens, who 
will then be elected in January.
    In reality, as you point out, they're not ready to make 
those decisions, regardless of who they are. There isn't enough 
preparation time here, and their country's security is too poor 
to allow for full exercise of sovereign power as of June 30. 
But it's easier, I think, for them to swallow that idea if 
they're viewed as a technocratic caretaker government, and then 
the real government will emerge in the course of 2005. But if 
we have that approach, I still think it's feasible to aim for 
this target date. We may or may not make it, but I want to aim 
for it, still, because I think the anti-American feeling is so 
strong, it's fueling the insurgency, and we've got to give them 
back some control over their own country.
    General Joulwan. Let me just try to add another dimension 
to it, Senator. I understand the concern about what the Iraqis 
will do with sovereignty on 30 June and 1 July of this year. 
I'd really try to turn it a little bit and say, what can we do? 
What has to happen? And I mentioned in my testimony about 
stabilization as a mission. We haven't really defined all of 
this, but I would move without the ball here. I would not wait 
until 30 June. What can we do to create the best conditions for 
success for this fledgling government that is going to be stood 
up? Can we get the lines of authority clear between the 
military, our embassy, and the new Iraqi Government? Can we get 
them together and do a simulation? How do we create the best 
conditions for success? What would be, to me, a tragedy--if, on 
30 June, we're still bumping heads between the State Department 
and Defense Department on what needs to be done. You know, that 
ball's in our court.
    And so I have been in these situations, particularly in an 
election year, Senator, and I can tell you it's tough on the 
combatant commander. But we have to do a lot here, and I would 
not look at it as if the Iraqi's will fail. What can we do to 
help try to ensure success? What can the Senate Foreign 
Relations Committee do to help?
    I had a saying that I'd like to give to this current group, 
``one team, one mission.'' The Americans that are going to go 
in there from the Defense and from the State side, have to be a 
team. They both have to be focused on their mission and work 
together as a team. And that has to begin now--before 30 June. 
And I think we have a lot to do in order to try to make the 
Iraqis successful.
    Senator Corzine. Dr. Pollack.
    Dr. Pollack. Senator, let me start by saying that I do want 
to make a point that, as Mike O'Hanlon pointed out earlier, 
there are, of course, some real positives in Iraq, and I think 
we should never lose sight of them. The Iraqi people have been 
remarkable. They've been remarkably patient with us. They have 
given us, time and time again, chance after chance to 
demonstrate that we can do for them what we keep saying that we 
will do for them. That is an enormous advantage.
    Our troops have also been absolutely magnificent. And being 
out in the field with our troops and seeing the stuff that 
mechanics and tank-drivers are doing trying to build democracy 
in Iraq, again, it's just unbelievable.
    But, for me, those positives inject a greater element of 
tragedy in the situation, because given the incredible 
positives that are going on, if we fail in Iraq, it will be, to 
my mind, inexcusable.
    I absolutely agree with you that it is ridiculous to 
suggest that what we are seeing now in Iraq are the products of 
success. You know, the line has been, for a number of months, 
that what is going on is a bunch of dead-enders, who don't want 
to see the successful transition, trying desperately to take it 
down. That's one interpretation. That's not my interpretation 
at all.
    All of the evidence that I see indicates that the problems 
that we have, as we've been talking about, stem from the 
increasing skill, the increasing proficiency, the increasing 
resources of the insurgents inside Iraq, who are building 
networks and becoming more and more skillful, and, 
simultaneously, the growing popular support for resistance to 
the United States, which, again, is not the majority of the 
country yet; but the trend is not a good one.
    As we've said about June 30 several times, I think, you 
know, Senator Dodd is absolutely right to put his finger on 
this----
    Senator Corzine. I do want to just say that if you're going 
to solve a problem, you have to recognize you have one.
    And if you don't recognize it, you're not going to build 
any plans, whether it's for June 30 or it's for December 31. 
And we seem to have a disconnect between reality and what----
    Dr. Pollack. I would absolutely agree with that. And I 
think that the answer that you and Senator Dodd and Senator 
Nelson have all posed about June 30 is an extremely important 
one. We have created a Catch-22 for ourselves. As I've 
suggested, as I think others on this panel have suggested, the 
only way that we can see out of that June 30 process--June 30 
Catch-22--is the possibility that Lakhdar Brahimi is going to 
pull a rabbit out of his hat, and that's what he needs to do. 
And that's why I don't understand why we're making what is 
already a tremendous challenge on his part even more difficult 
by doing things like picking a fight with Muqtada al-Sadr, and 
pushing Ahmed Chalabi, and other things that are just going to 
make it even harder for him to find that rabbit in his hat.
    The Chairman. Well, thank you very much, Senator Corzine.
    Anyone else have a comment in response? Yes, go ahead.
    Dr. Hashim. Sir, just a few personal comments. I really 
don't want to make any comments about the symptom of our 
success. But I guess, however, one could say that the converse, 
which is the lack of an insurgency, would be a symptom of our 
failure.
    But what we need to keep in mind is that we cannot go back 
on the June 30 deadline. It would be a tremendous mistake. The 
Iraqis have been unhappy. That is true. They don't want to be 
occupied. But if we give them half a loaf, as long as the 
security situation and the law and order situation and 
reconstruction get on track by stages, they're willing to live 
with that. But only in the interim, of course. So they 
recognize that. From talking to them, they recognize--look, 
sovereignty will not be returned--I mean, genuine, effective 
sovereignty, as they see it is going to be a long time coming. 
Their main concern is security, law and order, and 
reconstruction.
    Thank you.
    The Chairman. Well, I thought we would start another round 
of questioning.
    Let me just mention--I know, Dr. O'Hanlon, that you will 
need to leave, and we appreciate very much your coming. We are 
sorry that our hearing has become a marathon run. We appreciate 
the patience and the longevity of each of you. But as you need 
to leave, why, you are, of course, excused, and we thank you.
    Let me just begin this second round. We will not extend 
this unduly, because each of you have other responsibilities. I 
was impressed with General Joulwan's recent response to the 
question, What can we do?
    Some of us wish that the administration was hearing you the 
same as we are. We really all are part of the same government.
    We, in Congress, have responsibilities. To have a hearing 
in which we find fault with everything that has gone before is 
interesting if we were historians, but, at the same time, not 
so helpful if we're thinking about, ``What can we do?'' And the 
``we'' means you, as witnesses, giving the very best of your 
advice, as well as those of us who have some oversight and 
ability to influence policy through the legislative debates or 
the appropriation process, through intervention with the 
President or the Secretaries or whoever will talk to us.
    Without being presumptuous, we're attempting to help write 
a plan for what happens. Ideally, administration witnesses 
would come before us and say, now, here is a plan, and let's 
fine-tune it and tweak it and think through this. 
Unfortunately, that's not the sort of thing that we have been 
getting, although we will have another go at it again tomorrow, 
after having given a lot of advanced notice of what we're 
asking for.
    The plan does apparently revolve around June 30. That's 
been a big subject of discussion today. However we got to that 
point, June 30 does loom. We heard yesterday, in terms of Iraqi 
public opinion, it's a very big date. If that is the case, 
then, picking up on General Joulwan's thought, we want to make 
certain that our team--and that does include the Armed Forces 
and the State Department and NSC and Congress, everybody else--
is on the same wavelength, that we're not still discussing, 
down to June 30, who does what. That is one reason why I was 
intemperate enough to suggest today that we have a hearing next 
Tuesday for Ambassador Negroponte. Somebody who's pushing 
papers at the State Department might not be able to get them 
over here by Tuesday. I would just say, patiently, please come 
forward. Let's have a hearing.
    Senator Biden. You have a gavel. You have a gavel.
    The Chairman. And then that, at least, gets us started.
    Having said that, we're not having much luck on the floor 
of the Senate right now in confirming anybody for any position 
anywhere in the world. I would hope there might be a slight 
dispensation with regard to Ambassador Negroponte, in view of 
the national interest, that he not be a pawn in any of our 
arguments over anything else we're talking about, whether it be 
asbestos or the energy bill or whatever.
    We've got at least Ambassador Negroponte on the way. And 
then we try to think who all is he going to have over there. 
How are these people going to interact? We have at least 8 
weeks or so to think about the embassy staff roster and 
physically how they get into their assigned posts in Iraq. Will 
they be embedded with the troops out in the countryside? That 
has been one informal suggestion. The security concern for some 
of these folks, who are going to be well outside the Green Zone 
and so forth, is at hand, and we have to think about that.
    We also still have to think about the money. It may be 
impolitic to bring up money at this point, but, at the same 
time, the Iraqi Government will have to be thinking about how 
it will finance itself. What portion of the oil money will go 
toward its civil administration? What part of the $18 billion 
of our appropriation has been identified? Maybe just $3 billion 
has been committed. Why only three? Well, if we got into the 
weeds of that, we would find endless bureaucratic difficulties. 
Some of these we impose upon ourselves because of checks and 
balances and good governance, so that we don't spend money 
without bids and without look-see. But, at the same time, as 
Senator Biden pointed out yesterday, an article suggested that 
before long well over a quarter of that amount of money may be 
spent just on security forces to guard the people who are, in 
fact, doing the reconstruction work, as opposed to locks and 
dams or whatever else.
    The money issues do need to be discussed. They need to be 
part of the plan, so that as we form the team, we think about 
the money, and we try to think through, how we can help 
Ambassador Brahimi. I think that the points that you've all 
made about that are very good.
    It's been suggested that Brahimi probably will ask our 
government for advice, as well as all the Iraqis and probably 
European countries in his visitations at the U.N. It is very 
important that he come up with a reasonably good team. He might 
not succeed on the first try. There might be some rebounding 
and some other efforts involved in this. At the same time, 
that's the name of the game now. The United Nations' 
participation leads to legitimization, leads to Security 
Council resolutions that we all believe are useful, as well as 
status-of-forces agreements. As we are aggressive in getting 
the defense thing right, or the security, we will not be 
hogtied by our own lack of foresight in thinking through who 
does what and how they agree to this.
    After this is said and done, it's not really clear whether 
everybody will like it. Can you identify a Sunni leader, if not 
comparable to Ayatollah al-Sistani, at least in the ballpark? 
If we encourage Ayatollah al-Sistani as a confidante here, is 
there anybody in the Sunni community who might sign off on all 
of this? Or at least to be helpful at this particular point? 
Does anyone have a suggestion?
    Yes, sir.
    Mr. Sheehan. Thank you, Mr. Chairman. I actually think that 
Mr. Brahimi will find that individual. But the reason I raised 
my hand is, I also have to leave and go back to New York City.
    The Chairman. Yes.
    Mr. Sheehan. But if I could make one comment before I 
leave, you asked what could be done? I think we're going to 
need a lot of wisdom and a lot of resources to get this done 
right, and we don't have a corner on either of them in the U.S. 
Government, or in one sector of the U.S. Government. So the 
more of a team that we can put together within the U.S. 
Government, the more players, like Brahimi, that we can bring 
to the table--as General Joulwan suggested, bringing NATO to 
the table will bring wisdom and resources to that. And I think 
we're going to need large doses of both, and I think that 
hearings like this will help bring out wisdom, and hopefully 
generate some resources, as well.
    And I wanted to thank you, Mr. Chairman, for the 
opportunity today.
    The Chairman. Thank you very much for your testimony.
    Mr. Sheehan. Thank you, sir.
    The Chairman. Let me ask an additional question of the 
other panelists. General Joulwan, you may have mentioned that 
the Iraqis want the ability, if this is to be a government that 
has some credibility with Iraqis, to push back against 
Americans. These things are never a clear path, but how would 
this fit together with this emphasis upon security in the next 
6 months?
    It may very well be that you will say, well, still, they 
ought to have some say about this. The fact that we are pushing 
ahead with security need not mean that we do so arbitrarily. 
Should we make all the decisions? How should the dynamics of 
this work?
    General Joulwan. First, I would say I hope we don't make 
all the decisions. I think it has to be a shared--that you have 
to include them in what it is that we're trying to do. Again, 
in a progressive way, they're capable of doing this.
    This government will not survive--this new Iraqi 
Government--without the support of the security forces of the 
United States and the Coalition. But what is that interface? 
That's what I would urge be done between now and 30 June. I 
believe you have to be straight forward and up-front with the 
troops. If you tell them, ``Take Baghdad, and you can go 
home,'' they'll understand that. If you say, ``Well, regime 
change, and you can go home.'' They will understand. If you 
tell them now, ``We need to stabilize Iraq, and here are the 
six tasks that we've got to do, and this is what we're going to 
need to do it, and here's the role the Iraqi Government has got 
to play in that'' That's the sort of preparatory work, the 
anticipation, that needs to go into it now. And these questions 
should be raised now, in anticipation of what may be required 
after 30 June.
    I really think that, rather than wring our hands about it, 
we ought to be asking some very detailed questions. The intent 
is to build the confidence in the new Iraqi Government. We all 
want a win-win here, whatever political party you're in. At 
least I would hope that is the case. I am concerned about our 
troops in Iraq. We need the clarity of mission. ``What is it 
you want me to do?'' Now and after 30 June, the mission needs 
to be clear.
    The Chairman. Let's say, ideally, that Ambassador 
Negroponte and a pretty good team are there, and, likewise, 
Coalition members, other countries who are with us. 
Conceivably, they may be conferring with the people that 
Brahimi has identified. By the 1st of June, maybe, these folks 
will be thinking through who is going to do what, so that we 
will all be successful in this, and so that, as opposed to June 
30 being, you know, an extraordinary date in which we all hold 
our breath and wonder what happens, in fact, it comes along 
well. It comes after there has already been a lot of massaging 
by the parties of these issues. For that to happen, obviously, 
you've got to get the people in place around the table long 
before you get to June 30, so that that will not be such a 
traumatic period.
    This is all a short timetable now, but, on the other hand, 
it was never meant to be simple. We have agreed that the June 
30 thing came about because of planning last November. It 
appears to me that these things are doable. Parties can be 
found on all sides, including Ayatollah al-Sistani, Sunni 
leaders, and others, all affirming that this is an interim 
government.
    General Joulwan. Mr. Chairman, there probably is a great 
deal of thought that's been given to what organization is going 
to look like on the 30th of June. It truly needs to be 
developed so that Congress is onboard, the Executive is 
onboard, and the American people are on board. There needs to 
be confidence that we can make it happen. We want and need 
success. This new organization needs to be vetted, and I would 
urge you to do so. And I would urge you to do so leading up to 
the testimony of John Negroponte, who's a good man. I think 
that such a dialog could be very helpful to him--so there's a 
strong team, a strong confidence going into this on his part, 
and it has full support of you and the other Members of the 
Congress. I think that's going to be essential.
    The Chairman. You make my point. That's obviously what we 
hope, too. And that's why we're raising these questions. We do 
hope that, in fact, if there is a lot of planning that has 
already proceeded, we may learn about it fairly soon. Now, if 
there isn't nearly enough, it is important that we raise 
questions as to why things are not as far along as they need to 
be. I'm not making an assumption either way, but I would just 
suggest that our committee will want to have more hearings, if 
things are not that well developed. Let's say we find out, 
after tomorrow's hearing, that, as a matter of fact, the 
administration witnesses seem to be no more forthcoming than 
they were yesterday, according to the quote that I gave in my 
first round of questions. Then we'll say, well, that's not good 
enough. We understand that you haven't quite got your act 
together. We'll try it again in a couple of weeks and see how 
things are going then. Without being tedious about it, that is 
our role.
    We ask, what can we do? Well, we can raise questions. We 
can have hearings and oversight and persistently indicate that 
this is very important, not only to us, but, we think, also to 
the American people.
    Senator Biden.
    Senator Biden. Thank you very much, Mr. Chairman. I'm glad 
to hear you say that. Quite frankly, Mr. Chairman, you have 
been put--the spot you're in is much more consequential than 
the spot I was in as chairman of the Judiciary Committee when 
the Clarence Thomas/Anita Hill thing came down. It was 
something I wished never would come before me, but it was my 
responsibility. It's unfortunate that you're in the position 
you're in. We're fortunate you are in the position you're in. 
But the truth of the matter is, Mr. Chairman, you've got to 
continue these hearings up until June 30 every day, if need be, 
to get an answer--to get an answer--or to formulate an 
alternative.
    And, look, I am a little less diplomatic than my chairman. 
The President has to choose. The President has to choose. I 
assure you--I can tell you, with certainty, there is a plan 
that has been proposed to him, on his desk. There's a plan. 
There's another plan that is underway and has been the way 
we've been going that is coming from another direction. Two 
distinctly different approaches.
    One is, keep your eggs in Chalabi's basket, make sure that 
we continue to stay the course alone, make sure we don't have 
anyone else, quote, ``screwing it up,'' bring in a new super-
embassy, have that role that Bremer's being played now be 
played by Negroponte, and hope that we ``will'' this out. 
That's one plan. That's a plan. We're kidding ourselves if you 
don't think there's a plan. There's a plan.
    There's a second plan. The second plan--and the reason I'm 
so frustrated--and as my friend, Senator Dodd can tell you, I 
am viewed in the Democratic Caucus sometimes as an apologist 
for this President. He is--I've told this joke a hundred 
times--he's like the center-fielder who made so many errors, he 
screwed it up so badly, no one can play centerfield anymore. 
And I find myself in a position of having to acknowledge that 
June 30 is an important date--could have been done, still can 
be done, but requires him to make a decision.
    And the way this could be done on June 30, I would 
respectfully suggest, is to do several things. One, work out a 
way in which whatever plan Brahimi comes forward with is 
implemented.
    Brahimi is going to--I just got finished getting off the 
phone, literally, 25 minutes ago, with the Secretary General of 
NATO--Brahimi's probably going to report to him by the end of 
the week. He's going to have a plan. The hope is that by May 
this is implemented. Part of that plan could be, by the way, 
the U.N. thinks we need to kick this can down the road another 
10 days, 15 days, 30 days. The world powers agree that that 
makes sense to do it that way.
    Early May. International support group. This is a plan. An 
international support group, modeled after the Contact Group, 
could easily be formed by Annan, the permanent reps, and Iraqis 
and including some of its neighbors, even Syria and Iran--that 
comes up with a proposal. Late May, Brahimi selects this 
caretaker government, after having consulted with this Contact 
Group, which he's already done beforehand. International 
support group endorses the Brahimi plan.
    In June--or late May, early June--the Security Council 
endorses that plan. Now you've got yourself in a situation 
where you endorsed a Brahimi plan that encompasses other 
issues, including setting up a special rep, a special rep like 
we had in Bosnia, that coexists with our super-Ambassador, that 
doesn't have a 3,000-person U.N. embassy attached to it, but 
essentially is a special rep--i.e., a Brahimi-type figure that 
stays on. And, simultaneously, ask NATO.
    In this context, that will work. That's a plan. That's not 
impossible to be done. And I'm confident--it's not just because 
I said it in a speech last Thursday--I'm confident that there 
are high-ranking officials who have said something similar, if 
not exactly, like that to the President. That's a choice he has 
available to him. He's got to choose.
    The frustrating thing here is, the President's got to 
choose, because I know it's not kosher, but I feel like the kid 
who says, ``The emperor has no clothes.'' Does anybody in 
America now believe that this is a united administration? Does 
anybody in all of America think that this administration is not 
fundamentally divided?
    There's a San Andreas fault that runs through this 
administration. One axis is Cheney, and he's a great guy, 
Rumsfeld, a brilliant guy, Wolfowitz, Feith, Bolton, politicos 
at the White House. There's another axis--Powell and the 
uniformed military. Choose, Mr. President. Choose which plan, 
because there are plans, and they're two distinctly different 
plans. One is able to be, at least theoretically, accomplished 
by June 30. The other can be done by June 30, but is doomed to 
failure, in my view. Because I think you're right, general, 
you've got to move without the ball here.
    And what I think you're doing, Mr. Chairman, is incredibly 
important. Maybe they didn't listen a lot to us yesterday, 
maybe they're not going to listen a lot to us today. Tomorrow, 
they'll listen a little more. Next week, next month, the 
following month. And guess why? There is a political context to 
all this. There's a political context. I, like him the 
President--I'm not sure that my plan, or a plan that I outline, 
that I'm confident the President has access to, is right. I'm 
not sure of that. But I know it's different than the path we're 
going now.
    And one of two things is going to have to happen. The 
President's going to be held accountable. This is his deal. 
This is his deal. We're only irresponsible if we do not offer 
an alternative if we do not like what he is proposing. And I am 
absolutely as certain as I am sitting in this chair that if 
it's not physically on his desk at this moment, it will be long 
before the week is out, and I think it occurred before this 
hearing began. The President has a proposal in front of him 
that's different than the course we've been on, that engages, 
in some form or another, Annan, Brahimi, NATO, France, Germany, 
England, Russia--major powers.
    And none of it is borne out of a romantic notion that the 
United Nations is some magic formula that can produce any of 
this. Get the major powers together in agreement, get the U.N. 
to bless it, then, in turn, get them to participate. It's kind 
of basic stuff.
    And, by the way, if that plan doesn't work, if they ain't 
willing to play, if the Washington Post is correct in its 
editorial where it says--and I'm paraphrasing--there's no 
chance for international support. If that's true, we should go 
home. If that's true, we should spare the lives of those young 
women and men out there, because this will not be done alone. 
This will not be done alone. This will not be done alone. The 
American people will not stick around.
    And, general, you know better than any man sitting in this 
room, if we don't acknowledge what we didn't get right so far--
and we all would have gotten it wrong in some form or another--
I said at the outset of this, if the Lord Almighty came down 
when we sat in Bremer's office in Baghdad and gave him all the 
answers he still would not have a better than 65 percent chance 
of succeeding, because we're trying to do something that's 
never been done in all of history. It's never been done.
    But I want to tell you something. This is beyond politics. 
As I said earlier, I come from Delaware. That last flight home 
goes from Iraq to Delaware. And we owe these kids. We owe 'em. 
We'd better acknowledge what we got wrong and try something 
new, because they're giving everything they have. And so if 
there's no new plan--if there's no new plan--we'd better tell 
your buddies, general, in the field--we'd better tell them we 
don't have a plan, because the one we have now will not carry 
the day. As my grandpop used to say when I'd say something to 
him, he said, ``Joey, that horse can't carry the sleigh.''
    But there's a plan. The President has to choose.
    The Chairman. Senator Dodd.
    Senator Dodd. Well, again, thank you, Mr. Chairman. Thank 
our witnesses.
    And I think Senator Biden has said it, and said it very 
well--the chairman has--I think staying with this over the 
coming weeks.
    I, for one, think John Negroponte's a good choice. I've 
dealt with John for over 20 years. Our first encounter wasn't a 
pleasant one for either one of us, when he was in Honduras, 
going back to the days of the Central American stuff. But I 
have great respect for him. I think he's a first-class 
professional. And I think it's an interesting choice. I think 
the U.N. experience can be of tremendous help, and it may be a 
signal about where the administration may be going. Hope you're 
right. I hope that's right.
    And my point about June 30 was, on the assumption that 
things won't change.
    Senator Biden. That's right.
    Senator Dodd. And that's all I'm saying. Because you make a 
strong case for getting this security thing right, but I just 
think if we're sticking with a plan here that ultimately 
involves the United States doing this alone, I think this is 
pretty hard; the June 30 date just doesn't make any sense to 
me.
    Senator Biden. Sure.
    Senator Dodd. If there's a chance to come up with a U.N. 
resolution--and, by the way, I've known Brahimi for many years. 
He's a first-class individual. It doesn't get any better than 
this guy. I've dealt with him on Haiti, back a number of years 
ago. He's very, very good. I saw him in Afghanistan in 
December. I couldn't think of a better choice to make to have 
there at this point, out of the U.N. system.
    So I want to underscore the points that have been made. I 
think if there's going to be a real shift here to move toward a 
U.N. resolution, NATO forces, and to build that Coalition, then 
I don't have a problem with June 30. I think we do make a 
mistake, and it is a technocratic approach to things. Why we 
have to set a date, then we get so wedded to it it becomes, 
sort of, we're stuck with it, despite the fact that one 
recognizes that we have problems with it.
    If we don't make the changes here, then my concerns is that 
all of the recommendations you've made on security really are 
going to be almost impossible to achieve, in my view. So, at 
that point there, then you may be looking at alternatives that 
no one really wants to consider at this point, if you accept 
the notion that failure is not an option. But it may not be a 
option; it just may be a decision. Not one we choose, but one, 
rather, that's chosen for us. And that's what we're looking at 
if we don't get a shift here. And whether it's chosen by the 
American people or chosen by the facts on the ground, it's one 
that we may not like the answer to, but we may not have any 
choice but to accept it.
    So I'll be with you, Mr. Chairman, in this process. So 
thank you.
    The Chairman. Let me conclude the hearing with an anecdote. 
I think it's appropriate and will not breach any confidence. We 
had a hearing in this committee a couple of weeks ago on the 
Oil-for-Food Program in Iraq. It arose from serious allegations 
that funds had been misappropriated by Saddam Hussein, and 
perhaps by others, and that improper or inadequate supervision 
by the Security Council had occurred. The issue came before us 
as proponents of the United Nations, as advocates for the 
United Nations, but, at the same time, we're now, in this 
hearing, putting a great deal of stake in the United Nations, 
as an institution, at the same time we are voicing legitimate 
criticism.
    Following the Oil-for-Food hearing, I had a call from Paul 
Volker. Unbeknownst to me, Paul Volker was going, that very 
afternoon, to see Kofi Annan, Secretary General of the U.N. He 
had listened to our hearing, and he was disturbed, to say the 
least, by all of the allegations, as well as the enormity of 
perhaps $10 billion, having been misappropriated by Saddam and 
by others. So I encouraged him to say yes to the thought that 
he might be asked to chair an inquiry. I said, ``You have the 
gravitas, the character, the reputation worldwide to do this, 
and you should do it for our country, for the United Nations, 
for the U.N.'s credibility, generally.'' Apparently he decided 
to do it, but then the next thing I heard were the press 
reports that the Russians had indicated that the Security 
Council resolution Paul Volker wanted in order to make his own 
investigation credible and to have clout was likely to be 
blocked. Then at last word came that Kofi Annan and others were 
working very hard on that.
    Yesterday I received a call from Kofi Annan. It's not an 
unusual situation that I receive a call from the Secretary 
General, but he simply wanted to assure me he personally had 
been involved in diplomacy with regard to Russia, that the 
Russians had misunderstood, and they were not going to object. 
There would, in fact, be credibility for the thing, and he was 
grateful that Paul Volker is going to do this.
    I indicated that I thought that, first of all, the 
Secretary General's diplomacy was very important; likewise, 
Paul Volker's acceptance was also significant; and, even more 
importantly, I emphasized the credibility that may come if the 
U.N. has the ability to investigate itself, to cleanse those 
things that are not useful, so that it retains its credibility 
for a lot of burdens. I said, ``We're having hearings right 
now, Mr. Secretary General, about Iraq, and the U.N. is 
mentioned a whole lot, along with Mr. Brahimi and all that we 
count upon in this situation.''
    I have no idea how Paul Volker will come out with his 
conferees and so forth, but I hope that he will do a good job, 
and I am confident he will. I mention this simply because other 
people listen to our hearings from time to time--two important 
people, in this case, Paul Volker and Kofi Annan. Because they 
are doing the right things that they ought to do, I would like 
them to know that there is support for their efforts out there.
    We can be supportive. That's what you've attempted to do 
today, exhibiting a can-do spirit in response to our question, 
``What can we do''? You have offered extraordinary advice 
publicly. Anybody who is listening to this hearing, or is 
writing about it, has the benefit of that, as we do.
    I remain confident that we're going to make progress. I 
thank this panel for your longevity after 3\1/2\ hours, as well 
as for your wisdom in helping us.
    Senator Biden. Mr. Chairman, this has been an extraordinary 
panel, across the board. Really and truly, you have made--
you've been extraordinary, absolutely extraordinary, and I 
personally want to thank you. I mean, it's been extraordinary.
    The Chairman. And the hearing is adjourned.
    [Whereupon, at 1:02 p.m., the commitee adjourned, to 
reconvene at 9:30 a.m., April 22, 2004.]

                                 <all>

</pre></body></html>
